APPENDICES

1a
APPENDIX A
In the

United States Court of Appeals
For the Seventh Circuit
____________________
Nos. 20-1588 & 20-1666
KENNETH SMITH,
Petitioner-Appellee, Cross-Appellant,
v.
DEANNA
BROOKHART,
Correctional Center,

Warden,

Lawrence

Respondent-Appellant, Cross-Appellee.
____________________
Appeals from United States District Court for the
Northern District of Illinois, Eastern Division. No.
1:15-cv-00271 — Andrea R. Wood, District Judge.
____________________
ARGUED NOVEMBER 12, 2020 — DECIDED
APRIL 29, 2021
____________________
Before WOOD, HAMILTON, and ST. EVE, Circuit
Judges.

2a
WOOD, Circuit Judge. Kenneth Smith has been
in state prison for nineteen years for a murder and
robbery that he insists he did not commit. He
achieved limited success in challenging his
convictions on March 10, 2020, when the district court
held that he is entitled to release unless the state
decides to retry him. Smith v. Brookhart, No. 15-CV00271, 2020 WL 1157356, at *33 (N.D. Ill. Mar. 10,
2020). But Smith was seeking more: an unconditional
writ based on the insufficiency of the evidence. See 28
U.S.C. § 2254(d)(2); Jackson v. Virginia, 443 U.S. 307
(1979). The state has now appealed from the issuance
of the conditional writ, and Smith has cross-appealed
from the denial of the unconditional writ.
Even taking the highly deferential view required
by section 2254(d), we find that the trial evidence
failed to support Smith’s conviction beyond a
reasonable doubt and that the Illinois Appellate
Court was not just wrong, but unreasonable, in
holding otherwise. We thus reverse the district court’s
judgment and order an unconditional issuance of the
writ.
I
A. The Crime
Our account of the facts is taken from the state
court’s findings, which we must accept unless they are
unreasonable in light of the evidence presented in the
state court proceeding. See 28 U.S.C. § 2254(d)(2).
(Section 2254(e)(1) further instructs that we must
presume that the state court’s factual findings are
correct. It is unclear how, if at all, these two standards

3a
differ, but the state makes nothing of this point, and
so neither do we.) Raul Briseno was fatally shot in the
parking lot of a Burrito Express restaurant he owned
in McHenry, Illinois, on March 6, 2001. People v.
Smith, 2013 IL App (2d) 120508-U (2013). Around
7:20 pm, two masked men walked into the restaurant
while Briseno and his colleague, Eduardo Pardo,
stood behind the counter. The first man to enter
carried what appeared to be a .22 caliber revolver; the
man in tow wore a green jacket. No customers were
present.
After the armed man announced a robbery,
Briseno grabbed a large kitchen knife and charged
towards the pair. The two would-be robbers ran out of
the restaurant with Briseno in pursuit; Pardo soon
followed.
As the foot chase expanded to nearby streets,
Briseno yelled at the driver of a passing car to call the
police, and the armed man disappeared. Meanwhile,
the man in the green jacket slipped on a patch of ice,
permitting Pardo to catch up to him. While the man
in the green jacket lay on the ground, Pardo pulled off
his mask and got a good look at his face. Pardo picked
him up, grabbed his arms from behind his back, and
called out to Briseno. At that moment, Pardo heard a
gun-shot.
Briseno approached Pardo, who continued to
clutch the man in the green jacket. Pardo spotted the
armed man nearby, now unmasked, as the latter fired
another shot. Briseno made it back to Pardo, and the
two began to retreat to the restaurant. Walking
backwards away from the gunman, Pardo held the

4a
man in the green jacket in front of him, while Briseno
walked next to them. The shooting resumed. Pardo
then heard Briseno make an audible “ahh” sound and
spit up blood. Pardo immediately released the man in
the green jacket, ran into the restaurant, and called
911.
While on the phone, Pardo could see Briseno
holding the man in the green jacket in front of him,
using the man as a shield while the shooting
continued. After Pardo completed the call, he went
back outside, but the two would-be robbers were gone.
Briseno lay face down with foamy blood coming out of
his mouth, and the kitchen knife lay next to a pool of
blood. The police arrived about ten minutes later.
Medical personnel, despite their best efforts, could not
save Briseno’s life.
Detective Jeff Rhode interviewed Pardo. When
asked about what the robbers were wearing, Pardo
described the jacket worn by one as green with some
black around the collar. Pardo added that the jacket
looked like leather and that he did not see any
pockets, designs, or zippers on the front.
Lieutenant Gary Wigman led the investigation of
the crime scene, but despite the use of metal detectors
and magnets, the search turned up neither a gun nor
bullet casings. The absence of the latter led the police
to surmise that a revolver had been used, because
revolvers do not eject casings when fired. A firearms
expert later concluded, however, that the bullet in
Briseno’s body was a .22-caliber long-rifle bullet with
six lands and grooves.

5a
Lt. Wigman attended Briseno’s autopsy the next
day, where he observed a laceration and abrasion on
Briseno’s upper forehead. The forensic pathologist
performing the autopsy determined that the forehead
injury was caused by contact with a blunt object and
that it was consistent with being pistol-whipped with
the barrel of a gun. But the pathologist did not
determine when that wound occurred in relation to
the time of death, leaving open the possibility that
Briseno had been injured earlier.
The events of March 6th soon made the news. But
in order to assess the credibility of later witnesses, the
police withheld two critical pieces of information from
the public: (1) that Briseno had yelled into a passing
car during the chase, and (2) that Briseno had a head
wound consistent with being hit with a gun. Around
May 6, 2001, the police obtained and executed arrest
warrants for Kenneth Smith (petitioner here), Justin
Houghtaling, Jennifer McMullan, and David Collett.
Their theory was that Smith was the gunman; that
Houghtaling wore the green jacket; and that
McMullan and Collett sat waiting in a nearby
getaway car.
B. Houghtaling’s Account
When he was caught in early May 2001,
Houghtaling was on a bus to California that was
passing through Omaha, Nebraska. For the first 15
minutes of his interview, interrogators from the
Omaha police asked him about the Burrito Express
shooting. Houghtaling denied any involvement. He
also told police that he had taken hallucinogenic
drugs just before being arrested. The officers then

6a
(falsely) informed him that Smith, Collett, and
McMullan already had been charged and had given
incriminating statements, and that if Houghtaling
told them what happened, they would help him out.
They then turned on the tape recorder and proceeded
to take Houghtaling’s statement, which we now
describe.
Houghtaling said that on March 6, 2001, he,
Smith, and McMullan were drinking at Collett’s
house behind the Burrito Express. When he and
Smith stepped outside to smoke a joint, Smith said
something to the effect of “come with me, I want to go
do something.” Houghtaling then followed Smith into
the Burrito Express:
Q: What were you wearing?
A: I
Q: Did you have a ski mask on your head?
A: I can’t remember.
Q: You had your face concealed? Some how [sic]
you had your face concealed is that correct?
A: Yes.
Q: Ok and how was that?
A: How is what?
Q: How did you conceal your face? With some
kind of hat?

7a
A: Yes.
Q: OK and how about Kenneth Smith, how did he
con- ceal his face?
A: With if I’m remembering correctly, with the
same with a hat.
Q: With a mask that goes over the face?
A: Yes.
Smith, Houghtaling continued, went into the
restaurant first with what “looked like a little 22.”
After Smith announced the robbery, the owner
“grabbed a knife and I ran”:
Q: OK, and where did you run when you ran out
of [the] restaurant? Are you familiar with that area?
A: No, I’m not.
Q: Ok, did you run behind another building?
A: I honestly can’t even remember.
Q: Did you run towards the busy street, route 120,
or did you run towards the side street?
A: If I’m thinking correctly, the side street, not the
busy one.
Then the man with the knife grabbed
Houghtaling. After Smith began firing the gun,

8a
Houghtaling said, “the dude let go of me and I ran.”
Following up, police asked:
Q:
Was
he
firing
it
towards
A: No, he fired it at the guy with the knife.

you?

Q: So there was another guy holding you and
another guy with a knife?
Q: That’s correct, is it [Houghtaling]?
A: That could be, I can’t, it happened so long ago
that I don’t remember. I’m not a hundred per cent
[sic] positive, but it could be.
Houghtaling then asserted that he did not see
Smith hit the victim on the head with a gun and that
he did not see that anyone involved was either injured
or bleeding. And while Houghtaling initially had told
police that he and Smith ran back to Collett’s house
after the botched robbery, when police probed him
further later in the interview, Houghtaling said that
they got into a car with Collett and McMullan
immediately after the shooting. The police then again
asked what he was wearing on that night:
A: I don’t remember.
Q: Did you borrow somebody’s jacket that night?
Were you wearing someone else’s jacket?
A: Yea, it was [Collett’s].
Q: What color was it?

9a
A: Green, I think.
Finally, the police tried to nail down what kind of
.22
Houghtaling
observed
Smith
carrying.
Houghtaling was unable to describe the difference
between a revolver and an automatic, and so the
police showed him sketches of the two types of gun.
He selected the sketch of an automatic.
On May 31, 2001, state authorities indicted Smith
based
on
Houghtaling’s
taped
confession.
Houghtaling pleaded guilty on November 14, 2001,
and he was sentenced to 20 years’ imprisonment in
exchange for testifying against the others. Collett also
pleaded guilty. Houghtaling and Collett both offered
apologies to Briseno’s family when they entered their
guilty pleas. Smith, 2013 IL App (2d) 120508-U ¶ 40
(Houghtaling); Id. at ¶ 76 (Collett). (The state makes
much of this fact, suggesting that the apologies are
evidence of Houghtaling and Collet’s participation in
the crimes. In our view, however, the apologies are
hopelessly inconclusive: it is conceivable that the two
apologized out of a sense of guilt; but it is just as
conceivable (if not more) that they apologized in the
hope of securing a lower sentence. Without a
tiebreaker, this evidence helps neither side.)
McMullan was convicted of first-degree murder
and armed robbery and sentenced to 27 years. Four
months after her trial, Houghtaling wrote her a letter.
In it, he said “let me start by saying I’m sorry about
what I did to you at your trial. I know I lied and I was
bogus. To be honest—and I was bogus.” And that was
not the only sign, as we will see, of serious problems
with Houghtaling’s account.

10a
C. Smith’s Trials
1. Trials One and Two
Smith’s first trial was in 2003. Houghtaling
refused to testify, invoking his Fifth Amendment
right against self-incrimination. The trial court
declared him unavailable and admitted his testimony
from McMullan’s trial. But Crawford v. Washington,
541 U.S. 36 (2004), intervened, rendering the
admission of that evidence unconstitutional and
requiring a new trial.
The second trial began in 2008. This time, on
direct examination, Houghtaling testified that he and
Smith attempted to rob the Burrito Express and that
Smith fired the gun. But on cross examination,
Houghtaling recanted and asserted that the
testimony he had just given was false, except for the
fact that he was wearing a green jacket that day. He
averred that he was being forced to lie under oath to
convict Smith because the state would revoke his plea
agreement if he did not do so. As a result of this
recantation, Houghtaling later pleaded guilty to
perjury and received a 5 1/2-year sentence. The state
impeached Houghtaling with his Omaha confession,
and the jury found Smith guilty. But the Illinois
appellate court ordered a retrial for Smith because of
more evidentiary errors.
2. Trial Three
a. Evidence of Smith’s Guilt

11a
At the third trial, held in 2012, the state finally
obtained a conviction that the state courts were
willing to uphold. Following its now well-worn
playbook, it again called Houghtaling as a witness,
over Smith’s objection. On direct, Houghtaling flatly
denied that he and Smith were involved in the
shooting. Houghtaling testified that, on March 6,
2001, Smith and McMullan picked him up from his
home, and they went to pick up Collett. The group
then traveled to the Wisconsin home of one of
McMullan’s friends to pick up a laptop. They returned
to McHenry and stopped briefly at a headshop known
as Cloud 9. His account was corroborated by security
footage showing Collett (only) inside the headshop
from 7:38 pm to 7:44 pm. The group then proceeded to
another friend’s house, where they remained for the
rest of the night.
The state again read into evidence the transcript
from Houghtaling’s 2001 Omaha confession and
played the audio for the jury. (Note that Houghtaling
denied seeing anyone injured or bleeding, and while
he claimed to have heard shots, he did not observe
that anyone “had been shot.” He never directly said
that he saw Smith kill Briseno.) The state also
introduced Houghtaling’s testimony from McMullan’s
trial. In these prior inconsistent statements,
Houghtaling describes the robbery and says that
McMullan suggested they go to Cloud 9 for an alibi.
The state also called Pardo to testify. As Pardo
recounted the events, two masked men walked into
the restaurant to demand money, and he and Briseno
chased them out. He described how he captured the
man in the green jacket, only to release him to

12a
Briseno when the other man began shooting. Pardo
was then asked to identify a green jacket obtained
from Houghtaling’s residence after his arrest in
Omaha.
When asked whether that jacket “looked like” the
one he saw the night of the shooting, Pardo said yes.
But the contemporaneous description Pardo gave of
the robber’s jacket differs significantly from the jacket
marked as Exhibit 66. The jacket identified as Exhibit
66—Houghtaling’s jacket—is mostly green. But it
also has large black elbow patches, a zipper, black
patches running down the middle adjacent to the
zipper, and three large pockets on the front. On the
night of the shooting, Pardo told Detective Rhode that
the jacket worn by the robber lacked pockets or
zippers and had only “some” black, just around the
collar. When Smith sought to impeach Pardo by
pointing out these discrepancies, Pardo stated that he
did not remember how he described the jacket to
police that night. To perfect the impeachment, Smith
sought to introduce the testimony of Detective Rhode,
but he was barred from doing so.
b. Evidence Implicating the DeCicco Group
Smith also went on the offensive, insisting not
only that he is innocent, but also that he had
identified the real perpetrators. As he did at his
second trial, Smith asserted that a group of three
people completely unrelated to himself or
Houghtaling, Collett, or McMullan committed the
crimes at the Burrito Express. This second group,
referred to as the “DeCicco Group,” is comprised of
Russell Levand (the alleged shooter), Adam Hiland

13a
(the wearer of the green jacket), and Susanne DeCicco
(an accomplice).
Smith showed that almost from the start, the
authorities had received numerous tips that led them
to believe Susanne DeCicco was a suspect. She first
came to the attention of investigators in November of
2001, when Vicki Brummett (DeCicco’s mother) called
police to tell them that she believed she was in
possession of the .22 caliber revolver used to rob the
Burrito Express and kill its owner.
DeCicco recently had confessed to her mother
that on the evening of March 6, 2001, she drove
around looking for Levand and Hiland and spotted
them standing outside of the Burrito Express. She
saw them run inside, then quickly run back out with
two men in pursuit. One of the restaurant workers
ran in front of DeCicco’s car and asked her to call the
police. DeCicco told her mother that the weapon
ultimately used to kill Briseno belonged to David
Brummett, her stepfather and Vicki’s husband.
She told Vicki that the victim was hit on the head
with the gun, and that as a result, the gun cracked “in
the barrel—or the handle.” Smith, 2013 IL App (2d)
120508-U ¶ 112. After the robbery, the gun was
cleaned of hair and returned to the Brummett
household. Vicki turned the gun over to the police,
and she passed along the details of DeCicco’s
confession. Although experts “could not identify [the
gun] as having fired the bullet that killed Briseno,
[they] could not exclude it.” Id. at ¶ 170. They also
“stated that a .22-caliber gun is a very common type

14a
of gun, as are six lands and grooves.” Id. The
Brummett .22 had stress fractures on the grips.
DeCicco also confessed to four more people, two of
whom were police officers. The first one was her
sister, Elizabeth Schwartz. Schwartz had given birth
to a baby girl the night before the shooting, on March
5, 2001, and she remained in the hospital for a few
extra days. One week later, Schwartz noticed that
Hiland had cuts on the inside of his hand and bruises
on his arm. Three weeks after the shooting, DeCicco
told Schwartz that Hiland was involved in the Burrito
Express shooting.
In October 2001, one month before Brummett
gave the gun to police, DeCicco told her childhood
friend, Brittany Tyda, about how Levand and Hiland
tried to rob the Burrito Express. She told Tyda that
she saw the owner, wielding a knife, grab Hiland
before Levand shot him. Soon after, Tyda overheard
an argument between Levand and DeCicco. Levand
had threatened to turn DeCicco in for writing bad
checks; in response, DeCicco threatened to go to the
police “about him shooting someone.” Smith, 2013 IL
App (2d) 120508-U ¶ 115. Soon after, Tyda told the
police what she knew.
Four years later, the confessions resumed. In
November of 2005, DeCicco was arrested for retail
theft. The police officer in charge of her investigation
knew that DeCicco was a suspect in the Burrito
Express shooting, and he said that if DeCicco was
truthful in providing information about the shooting,
he would issue a citation for the retail theft and release her. Id. at ¶ 96. When police asked DeCicco

15a
about her prior confessions regarding the shooting,
she said that she made up the story as a joke. Asked
a second time, DeCicco continued to deny
involvement. But on the third time, DeCicco stated—
on audiotape—that, on March 6, 2001 she was with
Levand and Hiland when Levand killed Briseno.
The police then formally interviewed DeCicco on
video. DeCicco erroneously stated that the murder
occurred on March 5, 2001, the day Schwartz gave
birth. She said that on the night of the shooting, she
sent Levand and Hiland to go to Vicki Brummett’s
house to pick up a maternity bag. The two took longer
than expected and returned “acting funny.” Id. at
¶ 97. Later that night, after leaving the hospital and
driving to the vicinity of the Burrito Express, DeCicco
observed Levand and Hiland handling a gun wrapped
in a towel in the trunk of her car. Earlier she had seen
the two rummaging in David Brummett’s belongings
and discussing a gun.
Hiland and Levand then left. Id. at ¶ 97. DeCicco
recalled that “they had talked before about snatching
purses or robbing somebody to get money.” Id. Twenty
minutes later, DeCicco drove around looking for them.
She soon witnessed the fateful events unfold at the
Burrito Express, with Briseno running up to her car
and shouting at her to call the police. (Recall that this
was a detail the police withheld from the public.) She
drove away alone.
When she later saw Levand and Hiland, Hiland’s
face was covered in blood and he had a cut on his
hand. Later that night, they cleaned and returned the
gun to the Brummett household and burned their

16a
clothes. Several months later, Hiland and Levand
stole DeCicco’s car and burned it with accelerant in a
field in Racine, Wisconsin, because the blood stains on
the seats would not come off. Smith presented, by
stipulation, corroborating police testimony that
DeCicco’s car was found in Wisconsin in June 2001
destroyed by fire. DeCicco repeated most of this story
to Illinois state police in 2006.
Adam Hiland—age 15 at the time of the
shooting—also confessed to several people. Two or
three months after the shooting, Hiland sat in a van
near the Burrito Express, along with DeCicco’s sister
Schwartz, who was Hiland’s cousin. When Hiland
became visibly irritated and panicked, Schwartz told
Hiland that DeCicco had told her that he was involved
in the shooting. Hiland replied: “She is a fat fucking
bitch and she can’t keep her mouth shut. She needs to
keep her mouth shut.” Id. at ¶ 117. As they drove
away, Hiland told Schwartz that he, DeCicco, and
Levand had been smoking crack the night of the
shooting and that DeCicco had dropped them off in
front of the Burrito Express.
In her testimony, Schwartz said that Hiland told
her that one of the men grabbed Hiland and tried to
stab him, forcing Hiland to grab the knife while
calling out for help, and that at some point before or
after firing the gun, Levand hit Briseno in the head
with the gun. Hiland also confessed to his friend and
roommate Daniel Trumble several times in the
summer of 2002. During his first confession, Hiland
was shaking and crying while he told Trumble that
the “wrong people” were arrested for the murder and
that he, Levand, and DeCicco were involved. Trumble

17a
later recommended that Hiland speak to a lawyer and
arranged for a meeting among Hiland, himself, and
Ed Edens, a criminal defense attorney. The three met
at a restaurant. There, Hiland confessed to the lawyer
and emphasized that Levand was the shooter. The
lawyer recommended that Hiland take no action
because other people had already been arrested.
Two others also heard Hiland’s confession: Gina
Kollross and Charlene McCauley. A few days after the
shooting, Hiland told Kollross about what happened
and how Briseno injured Hiland’s arm and hand with
a knife. Before Christmas in 2001, Hiland told
McCauley how the DeCicco Group had been smoking
crack in David Brummett’s garage, ran out of drugs,
and decided to rob the Burrito Express for money.
Hiland did not tell McCauley that he was cut with a
knife during the shooting.
Finally, we have Russell Levand. His confession
came out through Patrick Anderson, a long-time
acquaintance who was incarcerated with Levand in
2011. That summer, Levand told Anderson that he
was involved in the shooting but that he was not
worried about being prosecuted because the state had
the gun, yet nothing had come of it. Anderson initially
tried to alert the police through a tip line. That went
nowhere, and so in 2011 he directly contacted Smith’s
attorney through a letter, in which he repeated
Levand’s confession.
In fact, Anderson had a longstanding suspicion
that Levand was involved with the Burrito Express
incident. One week before the shooting, Levand
accompanied Anderson to the Burrito Express to

18a
purchase drugs from a man who was associated with
Briseno. While there, Levand learned from Anderson
that Briseno was Anderson’s source of high-quality
cocaine. In the letter to Smith’s defense attorney,
Anderson mentioned that he told Levand that Briseno
“at times” kept cocaine and large sums of cash inside
the Burrito Express.
All the DeCicco witnesses testified at Smith’s
third trial: DeCicco herself, Vicki Brummett,
Schwartz, the two police officers who conducted
DeCicco’s recorded interviews, Rexford (DeCicco’s
half-sister), Hiland, Trumble, Kollross, McCauley,
Levand, and Anderson. Both of DeCicco’s taped
confessions were played to the jury.
But their testimony did not carry the day for
Smith. DeCicco told the jury that she had lied in her
confessions. She said that she only pretended to have
information so that the police would treat her
favorably (i.e., drop the retail theft charges and let her
go), and so that her family would give her money and
sympathy. Levand denied having confessed to
Anderson or being at the Burrito Express on March 6,
2001. Hiland limited his testimony to a denial that a
scar on his hand came from Briseno’s knife. The jury
thus had conflicting accounts about the DeCicco
Group’s involvement.
c. Conclusion of Third Trial
The state had no physical evidence linking Smith
to the crime. There were no fingerprints from him or
Houghtaling at the scene. No DNA evidence. And no
blood that could be linked to Smith or Houghtaling.

19a
But at the conclusion of his third trial in 2012, after
twenty-one hours of deliberation, the jury found
Smith guilty of attempted armed robbery and firstdegree murder. The court imposed a sentence of 67
years on the murder count and a concurrent sentence
of seven years on the robbery count.
D. Contested Evidentiary Rulings
Three evidentiary rulings made by the trial court
became the focal point of Smith’s appeals. They are
relevant primarily to Smith’s back-up effort to obtain
a new trial, not to his claim that the evidence before
the jury was insufficient to support his conviction.
First, the trial court barred Anderson from testifying
that he told Levand that Briseno sold drugs out of the
Burrito Express. This ruling kept out crucial evidence
of motive and earlier connections. Second, the court
did not allow Trumble to testify that a criminal
defense attorney was present when Hiland confessed
a third time. Third, the court barred Smith from
asking Det. Rhode how Pardo described the jacket on
the night of the murder.
On direct appeal, Smith argued (among other
things) that these evidentiary exclusions violated his
constitutional right to present a complete defense. He
also argued that no trier of fact could have found him
guilty beyond a reasonable doubt based on the
evidence. The Illinois appellate court affirmed his
conviction. People v. Smith, supra, 2013 IL App (2d)
120508-U.
Smith then sought a writ of habeas corpus from
the federal court. See 28 U.S.C. § 2254(d)(1). He

20a
argued that the state appellate court had
unreasonably applied Jackson v. Virginia, 443 U.S.
307 (1979), in finding that there was sufficient
evidence for a jury to find his guilt beyond a
reasonable doubt. Despite acknowledging that “the
evidence of the DeCicco Group’s involvement [was]
highly compelling if not conclusive,” Smith v.
Brookhart, No. 15-CV-00271, 2020 WL 1157356, at
*19 (N.D. Ill. Mar. 10, 2020), the district court felt
bound to defer to the state court’s conclusion that the
evidence of Houghtaling’s recanted confession and
Pardo’s identification of the green jacket just barely
supported the convictions.
Nonetheless, the court held that Smith was
entitled to a new trial because of the three evidentiary
exclusions we just described. The court found that
these rulings violated Smith’s federal constitutional
right to present a complete defense and engage in
effective cross-examination, and so it ordered
issuance of the writ, subject to the state’s decision
whether to con- duct a new trial. As we noted earlier,
the state has appealed from that decision, and Smith
has cross-appealed from the court’s rejection of an
unconditional
writ
(through
an
ongoing
representation by recruited counsel from the law firm
of Jenner & Block LLP, to whom we are thankful).
II
A. The Jackson Rule
Jackson v. Virginia holds that criminal
convictions must stand unless “upon the record
evidence adduced at the trial no rational trier of fact

21a
could have found proof of guilt beyond a reasonable
doubt.” 443 U.S. 307, 324 (1979). When conducting a
sufficiency-of-the-evidence inquiry on a habeas corpus
petition, “the only question under Jackson is whether
[a] finding [is] so insupportable as to fall below the
threshold of bare rationality.” Coleman v. Johnson,
566 U.S. 650, 656 (2012). If “the state court of last
review did not think” the finding of guilt was
irrational, AEDPA mandates that the federal court
give that decision “considerable deference” and
uphold the conviction. Id. Finally, the Supreme Court
has instructed that “the sufficiency of the evidence
review authorized by Jackson is limited to ‘record
evidence.’” Herrera v. Collins, 506 U.S. 390, 402
(1993), citing Jackson, 443 U.S. at 318. All of the
evidence recounted above appears in the record.
The relevant question is not whether we disagree
with the state court’s resolution of the case. AEDPA
deference would mean little if the test were so lenient.
Instead, we must find the decision not just wrong, but
well outside the boundaries of permissible outcomes.
Put otherwise, a federal court “may not overturn a
state court decision rejecting a sufficiency of the
evidence challenge simply because [it] disagrees with
the state court. ... [It] may do so only if the state court
decision was objectively unreasonable.” Cavazos v.
Smith, 565 U.S. 1, 2 (2011) (quotation marks
omitted).
When a federal court faces conflicting inferences
that can be drawn from the evidence—one pointing to
culpability and the other pointing to innocence—the
court must “review the evidence ‘in the light most
favorable to the prosecution’” and accept the inference

22a
that supports the prosecution’s theory of the case.
McDaniel v. Brown, 558 U.S. 120, 133 (2010) (citing
Jackson, 443 U.S. 319) (reversing a grant of a habeas
corpus petition when it appeared that the reviewing
“court’s recitation of inconsistencies in the testimony
show[ed] [that] it failed” properly to resolve
conflicting inferences in favor of the prosecution).
Jackson and AEDPA thus leave only a narrow
path for the federal writ of habeas corpus. Even so, in
the rare case a successful sufficiency challenge is
possible. See, e.g., Tanner v. Yukins, 867 F.3d 661 (6th
Cir. 2017). The Court itself in Jackson cautioned that
a “jury may occasionally convict even when it can be
said that no rational trier of fact could find guilt
beyond a reasonable doubt.” Jackson, 443 U.S. at 317.
Further, when conducting this inquiry, we do not ask
whether there was “any” evidence that would support
the conviction. Id. at 313, 320 (it “could not seriously
be argued” that a “mere modicum” of evidence could
“by itself rationally support a conviction beyond a
reasonable doubt”). Rather, relief is appropriate “only
if the record is devoid of evidence from which a
reasonable jury” could find the requisite guilt beyond
a reasonable doubt. United States v. Hills, 618 F.3d
619, 637 (7th Cir. 2010).
The district court did not pay sufficient heed to
the distinction between the “any-evidence” rule that
Jackson repudiated and the more qualified “no
evidence from which a jury could find guilt beyond a
reasonable doubt” rule the Court articulated. Instead,
the district court reasoned that “[s]o long as the record
is not ‘devoid of evidence’ of a habeas petitioner’s
guilt,” relief could not issue. Smith, 2020 WL

23a
1157356, at *19. It thought that Houghtaling’s
recanted confession and Pardo’s identification of the
green jacket squeaked over the “devoid of evidence”
line, and it felt constrained not to “weigh[] the
evidence or second guess[] the jury.” Id. But “devoid
of evidence” is not the correct standard, and we are
permitted even under AEDPA to correct this type of
legal error. Avila v. Richardson, 751 F.3d 534, 536
(7th Cir. 2014).
B. Sufficiency of Houghtaling’s Evidence
1. The Green Jacket
The state puts a lot of stock into Pardo’s
statement that Houghtaling’s jacket (shown to Pardo
at the trial) “looks like” the green jacket he saw on
March 6, 2001. It asks us to infer that Pardo was
actually saying that he believed Houghtaling’s jacket
was the jacket he saw that night—not merely that one
green jacket “looks like” another green jacket. But
that is not an inference; it is a recharacterization of
the evidence. Pardo was not asked, and he did not say,
that he was looking at “the” jacket. That falls well
short of a positive identification.
2. The Omaha Confession
A jury is entitled to credit witnesses as it deems
fit. Nonetheless, Jackson leaves room for instances in
which the jury’s ultimate decision to convict cannot
stand because a reasonable doubt remains. In
applying Jackson’s test, we must consider “all of the
evidence admitted by the trial court.” McDaniel, 558
U.S. at 131, quoting Lockhart v. Nelson, 488 U.S. 33,

24a
41 (1988). With that in mind, we must assess whether
the state court’s rejection of the proposition that no
reasonable juror could have sustained a conviction
beyond a reasonable doubt was reasonable.
Even viewed through that deferential and
favorable lens, Houghtaling’s Omaha confession falls
short, especially when viewed alongside the DeCicco
Group’s interlocking and corroborated confessions.
We accept that Smith’s 2012 jury thought that
Houghtaling was truthful in his Omaha interview,
truthful at McMullan’s 2008 trial, and dishonest at
Smith’s trial. But truthful about what? In Omaha,
Houghtaling said that he saw Smith firing the gun,
but he denied seeing anyone get shot, and he said that
he did not see anyone who was either injured or
bleeding. At McMullan’s trial, he said that Briseno
and Pardo grabbed him, and he saw (or felt) Briseno
fall down after Smith fired shots. That is as close as
he comes to describing the killing.
The state urges that this is enough. The Omaha
and McMullan accounts were reliable, the state
argues, because at the time of his arrest in Omaha,
Houghtaling had not yet struck a plea deal with the
state and so had no incentive to lie. The state explains
away Houghtaling’s recantation at Smith’s second
trial as motivated by a desire to save his own skin
while he challenged his own conviction.
Smith counters that Houghtaling had many
reasons to be less than truthful in Omaha: the police
told him that he already had been incriminated; they
promised to take it easy on him if he cooperated; and
he was high on hallucinogens. As for the recantation,

25a
Smith argues that the only way to understand
Houghtaling’s willingness to accept an additional five
and a half years of imprisonment for perjury is that
he was at long last trying to come clean.
If this were just a credibility assessment, we
would be required to defer to the jury. Juries may rely
on one witness even if his testimony is contradicted
by a phalanx of others. But Houghtaling was not an
independent witness: he provided not a single detail
that the police did not already know. When pressed at
oral argument to name one fact from Houghtaling’s
Omaha confession that was (1) factually consistent
with Pardo’s eyewitness testimony and the
investigation, (2) not prompted by a leading question
by police officers, and (3) not publicly known, the state
was unable to oblige. (We focus on the Omaha
confession because by the time Houghtaling testified
at McMullan’s trial, he had reviewed the police reports and received coaching from the state.)
The state’s failure was not for lack of effort. For
example, the state attaches great weight to
Houghtaling’s statement that Smith carried a .22
caliber handgun. But this requires one to overlook the
fact that Houghtaling, when later asked to choose
between a drawing of an automatic (the wrong gun)
and of a revolver (the correct gun), he chose the wrong
one. And the state downplays the ballistic expert’s
inability to exclude the Brummett .22 as the murder
weapon, emphasizing that the .22 is a “very common
type gun.” But the state is notably quiet on the .22’s
popularity when explaining how critical it was that
Houghtaling correctly said that Smith carried “a little
22.”

26a
The state also notes that Houghtaling correctly
stated that the chase unfolded on the side streets, not
the “busy” streets. But as the transcript we
reproduced earlier shows, this statement was
prompted by leading questions with a 50% chance
that Houghtaling would guess right.
What stands out most is what Houghtaling
omitted or got wrong. Houghtaling failed to mention
that one of the men in pursuit stopped and yelled
something at a passing car. He does not even mention
that two men were in pursuit. When asked pointblank whether he recalled Briseno being hit “with the
gun or anything,” Houghtaling unequivocally
answered no. It is pure speculation to guess that he
may not have noticed these details, despite allegedly
being a key player in the attempted robbery. His lack
of knowledge stands in stark contrast to the
admissions from the DeCicco Group.
There is no way around the fact that
Houghtaling’s Omaha confession, later reincarnated
at McMullan’s trial, is riddled with holes. Although
Jackson and AEDPA require us to view the evidence
in the light most favorable to the prosecution, they do
not invite us to make up facts. Houghtaling’s
testimony and the green jacket are a thin reed indeed
on which to try to base a conviction. And we must view
that evidence—and apply Jackson—based on the
record as a whole. That record critically includes the
compelling evidence relating to the DeCicco Group, to
which we now turn. As we now explain, the DeCicco
Group’s confessions, along with the weakness of the
other evidence, compel us to conclude that no rational
juror could have found Smith guilty.

27a
C. The DeCicco Group
The state reminds us that despite the evidence of
the DeCicco Group’s culpability that Smith was able
to introduce at his third trial, the jury found that
Smith committed the crime. But if we remove the
green jacket from the picture and recognize the holes
in the Omaha interview, the DeCicco evidence adds
powerfully to the existence of the reasonable doubt we
see here.
DeCicco herself confessed to five different people,
two of whom were law enforcement officers. Even
viewing the evidence in the light most favorable to the
state, the substance of her confession is hard to get
around. Soon after the shooting, DeCicco told friends
and family the very two key facts that police
intentionally withheld from the public so that they
could later ascertain the credibility of confessions:
first, that the victim yelled into a passing car (which,
in DeCicco’s confession, was driven by her); and
second, that the victim may have sustained a bluntforce head injury.
She even told state police during her 2006
interview that the blunt-force injury “was not in the
papers anywhere. How would I know that unless the
people who did it actually told me?” Smith, 2013 IL
App (2d) 120508-U ¶ 170. The appellate court tried to
offer an alternative explanation for DeCicco’s insider
knowledge: that “this non-public information was not
kept as secret from the public as the police desired.”
Id. But nothing in the record supports this possibility.

28a
Furthermore, DeCicco’s confessions did not stand
alone. Levand and Hiland made confessions that
corroborated the same basic facts, and the record
contains nothing indicating that either one had an
incentive to do so falsely. Again, while Jackson and
AEDPA require us to view all evidence in the state’s
favor, Jackson does not require us to draw the
remarkable inference that an entire package of crosscorroborated confessions came into existence from
pure happenstance or a deliberate conspiracy to
mislead friends, family, and police. There is no basis
in the record to support such an improbable idea. And
other evidence is also nearly impossible to disregard.
Perhaps Levand and Hiland stole and burned
DeCicco’s car in a field to make their lies more
credible. But nothing supports that version of the
facts. Jackson, 443 U.S. at 325. It is notable that it
was DeCicco’s own family members who came
forward to the police.
Finally, consider the injuries on Hiland’s body
and the lack of injuries on Houghtaling. Several
eyewitnesses testified to seeing Hiland in the days
after March 6, 2001, with his hand bandaged and his
arms bruised. Hiland even told some of these
witnesses that he had sustained the injuries in a
scuffle while committing the Burrito Express robbery.
Of course, Hiland also had a different story. He told
some people that he got his injuries when he fell down
icy stairs. And at Smith’s 2012 trial, he told the jury
that he got a scar on his hand when fleeing from police
a few years earlier.
But what is notable, and undisputed, is that
Houghtaling had no injuries after the incident. The

29a
day after the Burrito Express shooting, Houghtaling
went to the police station wearing the same green
jacket that was later admitted into evidence. Police
there observed neither injuries on his body nor any
blood stains or cuts on the jacket. The appellate court
tried to deal with this damning fact by suggesting
that Houghtaling’s “lack of physical injuries ... do not
cast doubt on his credibility, where it was undisputed
that the green leather jacket he wore covered his
arms.” Smith, 2013 IL App (2d) 120508-U ¶ 165. But
as we noted earlier, the record does not establish that
Houghtaling’s jacket and that of the robber were one
and the same. While the jacket’s color is undisputed,
Pardo stated at trial only that the jacket “looked” like
leather. We note that an examination of the garment
tag inside the jacket indicates that the exterior shell
is made of PVC casting leather (i.e., vinyl) and
rayon—much more affordable (and less durable) than
real leather. While a fair-minded jurist might
reasonably conclude that leather could shield
someone from physical injuries such as knife cuts or
bruises, this conclusion is more tenuous for a jacket
with a vinyl exterior.
The appellate court made one final error worth
highlighting. On direct appeal, Smith emphasized
that the crime scene was bloody but that the evidence
showed that neither he nor Houghtaling had blood on
their clothes that night or the next day. In contrast,
the testimony indicates that Hiland was covered in
blood. In response, the appellate court remarked that
Smith’s “characterization of the crime scene as bloody
is not supported by the evidence.” Smith, 2013 IL App
(2d) 120508-U ¶ 165. This is simply incorrect. One has
only to look at the rather grisly photos in the record

30a
of the crime scene and of the final outfit worn by
Briseno on March 6, 2001, to see that Smith’s
statement is accurate: Dkt. 1-12 (Appx. Vol. 12-1, Ex.
33-39); Dkt. 1-13 (Appx. Vol. 12-2, Ex. 44); Dkt. 1-18
(Appx. Vol. 12-7, Ex. 131, 132); Dkt. 1-19 (Appx. Vol.
12-8, Ex. 133).
Our point here is not to adjudicate the DeCicco
Group’s guilt. The evidence implicating them is
relevant because it casts a powerful reasonable doubt
on the theory that Smith and Houghtaling were the
robbers that night. Houghtaling’s inconsistencies
take on a special significance in light of the DeCicco
evidence—evidence that builds a narrative largely
free from the holes that fill Houghtaling’s confession.
With such a serious possibility of a third party’s guilt,
cf. Chambers v. Mississippi, 410 U.S. 284 (1973)
(finding constitutional violation when defendant was
blocked from full presentation of his defense and a
third-party had confessed), we are convinced as an
objective matter that no rational trier of fact could
have found Smith guilty beyond a reasonable doubt.
The appellate court was unreasonable to hold
otherwise.
III
Because we have found that the state court
unreasonably applied Jackson when it determined
that there was sufficient evidence to support Smith’s
conviction, we technically have no need to reach the
evidentiary errors Smith raised. As we noted at the
outset, our Jackson determination is based on the
evidence actually introduced at trial, without regard
to any error in either inclusion or exclusion. We think

31a
it helpful, however, briefly to address Smith’s
evidentiary arguments. A look at why they were
prejudicial sheds further light on the inadequacy of
the evidence at trial to convict him.
To determine whether a state evidentiary ruling
passes muster under Chambers, we must balance a
state’s legitimate interest in an efficacious “criminal
trial process” against the defendant’s constitutional
rights to present a complete defense, with a heavy
thumb on the side of the state court’s resolution of
that issue. In Kubsch v. Neal, 838 F.3d 845, 855 (7th
Cir. 2016) (en banc), we explained our understanding
of the Supreme Court’s Chambers line of cases.
Habeas corpus relief is available, these cases hold,
when a state court presiding over a murder trial
arbitrarily applies an evidentiary rule to exclude
“reliable and trustworthy” evidence that is essential
to the defense and not otherwise inadmissible. Id. at
858.
Relying on the Supreme Court’s decisions in
Crane v. Kentucky, 476 U.S. 683 (1986), and Rock v.
Arkansas, 483 U.S. 44 (1987), we recently found that
a state court unreasonably applied Supreme Court
precedent when it excluded this type of evidence.
Fieldman v. Brannon, 969 F.3d 792 (7th Cir. 2020).
The trial court did not permit the defendant to
present evidence that would have offered an innocent
explanation for his meeting with a potential hitman.
In finding for the petitioner, we noted the lack of
parity between the prosecution and the defense with
respect to the period “in which evidence was [deemed]
relevant to Fieldman’s intent.” Id. at 808. For the
prosecution, that period stretched back for months;

32a
for the defense, a few weeks was too long. That left
the jury adrift, trying to understand the defendant’s
intent without crucial evidence. We thus ordered the
issuance of a conditional writ, permitting the state to
retry the defendant.
The same principles apply to the exclusion of the
three pieces of evidence that Smith challenges,
particularly those that fit within the DeCicco Group’s
web of cross-corroborated confessions. The first and
most significant was Anderson’s testimony regarding
Briseno’s cocaine dealing and Levand’s knowledge of
that side-business. This was central to the issue of
motive—one of the glaring lacunae in the case against
Smith. It would have shown that the DeCicco Group
had a specific reason to rob Briseno, while Smith and
his friends did not. Neither reason given by the state
appellate court for keeping the evidence out holds
water. Anderson’s statement was not inconsistent
with the evidence indicating that the robbers were
looking for money. Anderson just added the fact that
the group sought money for the purpose of getting
drugs and so went to a place where both might be
found. Where illegal drugs are being sold, there is
likely cash on hand. See, e.g., United States v.
Lawrence, 788 F.3d 234, 242 (7th Cir. 2015).
Moreover, Smith’s goal in introducing this testimony
was not to establish that Briseno was selling cocaine
from the Burrito Express. Rather, it was to show that
the DeCicco Group—in particular Levand—might
have believed that to be the case. This evidence was
vital to Smith’s defense.
Second, the state trial court erred by excluding
critical testimony about Hiland’s confession to his

33a
friend and room-mate, Trumble. Trumble was ready
to testify that he witnessed Hiland confess to a
criminal defense attorney. The appellate court
affirmed the exclusion on hearsay grounds. But that
analysis was incomplete, because state law does not
have the last word in these situations. Throughout
the trial, the state sought to undermine the
confessions from members of the DeCicco Group—
Hiland’s in particular—by suggesting that group
members had social incentives to lie. For example, the
state speculated, Hiland may have wanted to look
tough in the eyes of his friend Trumble. But these
explanations say nothing about what Hiland had to
gain by falsely boasting to a disinterested lawyer that
he had participated in a murder/robbery. The
excluded evidence from Trumble would have shown
that Hiland was concerned with legal jeopardy, took
his concern seriously enough to seek out legal advice,
and made a confession that was consistent with his
prior confessions, without the social pressures that
may have previously driven him to take liberties with
the truth.
The exclusion was also arbitrary, insofar as the
trial court allowed the state to provide context for
Houghtaling’s confession, but it barred Smith from
doing the same for Hiland’s. And this exclusion was
not harmless. In concluding otherwise, the appellate
court reasoned that it was enough that the jury heard
DeCicco’s statement that Hiland told her that he
spoke to an attorney and the proffered evidence was
cumulative. But DeCicco’s statement was no
substitute for Trumble’s. Trumble added critical new
facts, while DeCicco’s version was consistent with two
diametrically opposed inferences: Version 1, that

34a
Hiland met with the attorney because he feared being
wrongly prosecuted for crimes that he did not commit,
or Version 2, that he had the meeting because he
feared rightly being prosecuted for crimes he did
commit. Trumble’s testimony erases this ambiguity,
and its exclusion seriously prejudiced Smith.
The third problematic evidentiary call came when
the trial court prevented Smith from further
impeaching Pardo’s testimony through Detective
Rhode. Rhode’s additional testimony would have
revealed inconsistencies between Pardo’s description
of Houghtaling’s jacket on the night of the murder and
his identification of the jacket shown to him at trial.
Smith wanted the jury to know that the jacket Pardo
described on March 6, 2001 had black around the
collar but no pockets or designs or a zipper, while
Houghtaling’s jacket (seen at trial) had three large
front pockets, a front zipper, a small patch of black
underneath the collar, and large black elbow patches.
Smith contends that the decision to bar Rhode’s
testimony violated his rights under the Confrontation
Clause and Delaware v. Van Arsdall, 475 U.S. 673,
679 (1986), which entitles criminal defendants to an
“opportunity for effective cross-examination.” The
appellate court implicitly conceded error but held that
the exclusion was harmless. Given the centrality of
the jacket to the prosecution’s theory, we see no way
that this call was harmless. The appellate court
thought
that
the
discrepancies
between
Houghtaling’s jacket and the one described by Pardo
“were minor and could not have contributed to the
verdict.” Smith, 2013 IL App (2d) 120508-U ¶ 229.
But apart from being mostly “green,” the jacket seized

35a
from Houghtaling looks nothing like the jacket Pardo
described.
Taken together, as the district court properly
held, these errors deprived Smith of his right to a fair
trial. See Alvarez v. Boyd, 225 F.3d 820, 824 (7th Cir.
2000). The state asks us to defer to the appellate
court’s determination that Smith got a fair trial
because he was able to present over twenty
“witnesses, including eight who testified that one or
more of DeCicco, Hiland, and Levand confessed to
them, and two recordings of DeCicco’s confessions to
police.” But prejudice is not a matter of headcounting. It requires an assessment of the effect of the
errors on the proceeding.
In a habeas corpus case where a claim of harmless
error has been raised, the Supreme Court has
established the following standard of review: “When a
federal judge in a habeas proceeding is in grave doubt
about whether a trial error of federal law had
substantial and injurious effect or influence in
determining the jury’s verdict, that error is not
harmless. And, the petitioner must win.” O’Neal v.
McAninch, 513 U.S. 432, 436 (1995) (cleaned up); see
also Davis v. Ayala, 576 U.S. 257, 267–68 (2015).
Ayala added that “[t]here must be more than a
reasonable possibility that the error was harmful.”
576 U.S. at 268 (cleaned up). Where, as here, the state
court has evaluated harmlessness, relief under
section 2254(d)(1) is not authorized unless that

36a
harmlessness determination itself was unreasonable.
Id.1
Difficult though that standard is, we conclude
that Smith has met it. But for the exclusions, the jury
would have learned that the DeCicco Group had a
specific motive to rob the Burrito Express and that
one of the group’s members made a confession bearing
indicia of credibility far exceeding those of the other
confessions on record. Further, the jury would have
learned that the state’s only eyewitness offered
inconsistent testimony about the jacket, casting into
doubt the only piece of tangible evidence linking
Houghtaling—and therefore Smith—to the crime. For
these reasons, and all the others we have reviewed in
detail above, we conclude that the state court’s
determination of harmlessness was unreasonable and
thus cannot stand. Although this holding primarily
affects the need for a new trial, it also sheds light on
the insufficiency of the evidence as actually presented
We recognize that the Sixth Circuit held, in Davenport v.
MacLaren, 964 F.3d 448 (6th Cir. 2020), that a state court’s
findings are not relevant in a case governed by Ayala, and
ultimately by Brecht v. Abrahamson, 507 U.S. 619 (1993)
(introducing the “substantial and injurious effect or influence”
test). The Supreme Court has granted certiorari to decide
whether, in a habeas corpus proceeding under section 2254, a
federal court may grant relief based solely on Brecht, or if it must
also find that the state court’s application of the relevant
standard was unreasonable for purposes of 28 U.S.C. §
2254(d)(1). See Brown v. Davenport, No. 20-826, 2021 WL
1240919 (U.S. Apr. 5, 2021). The outcome of Brown will not affect
our case, since our court has adopted the latter, more stringent,
standard.
1

37a
and reinforces our conclusion that Smith is entitled to
issuance of the writ.
IV
We REVERSE the district court’s holding that the
evidence was constitutionally sufficient to sustain
Smith’s conviction. Accordingly, we remand the case
to the district court with instructions to grant the
petition for a writ of habeas corpus un- conditionally
and order the immediate release of Kenneth Smith
from state custody.

38a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS EASTERN DIVISION
KENNETH SMITH
Petitioner,
v.
DEANNA BROOKHART,
Acting Warden, Lawrence
Correctional Center,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

No. 15-cv-00271
Judge Andrea R.
Wood

MEMORANDUM OPINION AND ORDER
Following his third trial, Petitioner Kenneth
Smith was convicted of first-degree murder and
attempt armed robbery arising out of a March 6, 2001,
attempted robbery of a restaurant that resulted in the
murder of its owner, Raul Briseno. Smith was
sentenced to sixty-seven years’ imprisonment on the
first-degree murder conviction, along with a
concurrent seven years’ imprisonment sentence on
the attempt armed robbery conviction. The Illinois
Appellate Court (“Appellate Court”) affirmed his
convictions and the Illinois Supreme Court denied his
petition for a writ of certiorari. Smith has filed the
present petition for a writ of habeas corpus (Dkt. No.
1), under 28 U.S.C. § 2254(d), arguing that the
Appellate Court unreasonably applied Jackson v.

39a
Virginia, 443 U.S. 307 (1979), in finding that there
was sufficient evidence supporting his convictions.
Alternatively, Smith asserts that the Appellate Court
violated his constitutional right to present a complete
defense and his rights under the Sixth Amendment’s
Confrontation Clause when it affirmed certain trial
court evidentiary rulings. For the reasons that follow,
Smith’s habeas petition is granted on the basis of the
evidentiary errors, and his convictions and sentence
are vacated.
BACKGROUND1
I. The Burrito Express Robbery
On March 6, 2001, two masked men entered a
Burrito Express restaurant in McHenry, Illinois and
attempted to rob the restaurant. The restaurant’s
owner, Raul Briseno, resisted the robbery along with
his employee Eduardo Pardo. Briseno grabbed a knife
and he and Pardo chased the masked men out of the
restaurant. As the chase continued outside of the
restaurant, the masked man wearing a green jacket
slipped on a patch of ice, thereby allowing Pardo to
catch him. Pardo then attempted to drag the masked
man in the green jacket back toward the Burrito
When reviewing a habeas petition, the court “must accept the
factual findings of the state trial and appellate courts as true
because they are entitled to a presumption of correctness.” Ford
v. Ahitow, 104 F.3d 926, 928 (7th Cir. 1997). Therefore, the facts
here are taken predominantly from the Appellate Court’s
decision affirming Smith’s conviction. See People v. Smith, No. 212-0508, 2013 WL 2382284 (Ill. App. Ct. May 29, 2013)
(unpublished Ill. Sup. Ct. Rule 23 order). However, certain
additional facts have been taken from the trial record to provide
further context to the Appellate Court’s findings of fact.
1

40a
Express. In response, the second masked man began
shooting. One of his shots hit Briseno, who ultimately
died as a result of the wound. The two masked men
fled the scene of the crime.
Just over two months later, Justin Houghtaling
was arrested in Omaha, Nebraska in connection with
the Burrito Express shooting and interrogated by the
police. During his interrogation, Houghtaling gave a
statement that implicated himself and Smith in the
shooting. Based on that statement, Smith was
indicted on May 31, 2001. Also indicted were Smith’s
purported accomplices Houghtaling, David Collett,
and Jennifer McMullan. Houghtaling pleaded guilty
on November 14, 2001. He received a twenty-year
sentence of imprisonment in exchange for his
testimony against Williams, McMullan, and Collett.
In a trial featuring Houghtaling’s testimony,
McMullan was convicted of first-degree murder and
attempt armed robbery and received a sentence of
twenty-seven years’ imprisonment. On the basis of his
lawyer’s advice, Collett took a “plea of convenience” in
order to avoid a lengthy prison term.
II. Smith’s First Two Trials
Smith was first tried in 2003. When the State
called Houghtaling to testify, he invoked his Fifth
Amendment
right
against
self-incrimination.
Consequently, the trial court declared Houghtaling
unavailable and permitted the State to introduce
Houghtaling’s testimony from McMullan’s trial.
Ultimately, Smith was found guilty of first-degree
murder and attempt robbery. He successfully
appealed the convictions on the basis of the Supreme

41a
Court’s decision in Crawford v. Washington, 541 U.S.
36 (2004), which held that a testimonial statement of
a witness absent from trial cannot be admitted under
the Confrontation Clause of the Sixth Amendment if
the defendant did not have a prior opportunity to
cross-examine the absent witness. The case was
remanded for a new trial.
At the second trial, Houghtaling did testify. On
direct, Houghtaling stated that he and Smith were
the two masked men that attempted to rob the
Burrito Express. Houghtaling stated that he was the
man wearing the green jacket and Smith was the man
with the gun. After Smith shot Briseno, Houghtaling
and Smith ran to a car where McMullan was waiting
with Collett in the rear seat. The group then drove to
their friend James “Jimmy” Weisenberger’s home
where they remained through the night. However, on
cross-examination, Houghtaling was asked about his
agreement with the State’s attorney. Then, without
any further prompting, Houghtaling recanted his
testimony and stated that the story he told on direct
was not true. He asserted that the State was forcing
him to admit to a crime so that it could convict Smith
for a crime that he did not commit. On re-direct,
Houghtaling was impeached with the statement he
gave following his arrest in Omaha.
In addition, Smith sought to implicate a different
group of individuals in the crime. According to Smith,
the crime was committed by Russell “Rusty” Levand,
his girlfriend Susanne “Dallas” DeCicco, and her
cousin Adam Hiland (collectively, the “DeCicco
Group”). When DeCicco and Hiland were called to
testify, they denied their involvement in the shooting.

42a
Yet, when Smith sought to introduce evidence of their
prior confessions, the court barred Hiland’s confession
entirely and only admitted portions of DeCicco’s
confession. Once again, Smith was found guilty on
both counts. Yet, the convictions were reversed and
remanded again on appeal, in part because of the trial
court’s refusal to allow Smith to impeach Hiland with
a prior inconsistent statement.
III. Smith’s Third Trial
The convictions that form the basis of the present
habeas petition were handed down following Smith’s
third trial. According to the State’s theory of the case,
Smith and Houghtaling were the two masked men
that entered the Burrito Express and attempted to
rob it. After a knife-wielding Briseno, along with
Pardo, chased them out of the restaurant,
Houghtaling slipped on a patch of ice. Pardo was able
to catch up to Houghtaling, seize him, and begin
dragging him back to the restaurant. This caused
Smith to begin shooting. One of his shots struck and
killed Briseno. Smith and Houghtaling then fled to
McMullan’s waiting car, which also contained Collett.
Smith again defended himself by pointing to the
DiCecco Group as the true perpetrators.
A. The Pre-Trial Proceedings
Before the third trial, Smith sought leave to
admit evidence concerning Briseno’s drug-dealing
activity at the Burrito Express. This evidence would
have gone to the DiCecco Group’s motive for robbing
the Burrito Express. He made three live proffers on

43a
this issue. In addition, Smith sought to exclude the
testimony of Houghtaling and Collett.
i. Patrick Anderson Proffer
Smith sought to introduce the testimony of
Patrick Anderson. Anderson would testify that he
knew Briseno well and bought cocaine from him
through “Serge,” an employee who worked in
Briseno’s restaurants. Among Anderson’s customers
was Levand, whom he also counted as a friend. Smith
first became aware of Anderson after he sent Smith’s
defense counsel a letter dated December 29, 2011. In
that letter, Anderson stated that shortly before
Briseno’s murder, he and Levand went to the Burrito
Express to buy cocaine. Prior to the purchase,
Anderson told Levand that Briseno kept large
amounts of money and cocaine at the Burrito Express.
Following the murder, Anderson recalled hearing
rumors about the DeCicco Group’s involvement.
Then, sometime during the summer of 2011,
Anderson and Levand were incarcerated together in
the McHenry County jail. After Anderson told Levand
that he had reason to believe that Levand had a
motive to shoot Briseno, Levand confessed to his
involvement in the crime.
The State offered to stipulate that Anderson
would testify in accordance with the letter. However,
the court was concerned that the letter raised hearsay
issues. In response, Smith’s defense counsel argued
that any hearsay testimony would be used only to
show Levand’s knowledge of Briseno’s drug-dealing
rather than for the truth of any matters asserted.
Nonetheless, the trial court excluded Anderson’s

44a
testimony because it would be hearsay and also was
“highly suspect” given that Anderson only came
forward ten years after the fact. It further ruled that
the letter was insufficient to establish the DiCecco
Group’s motive because there was “no close
connection to the drugs and to this crime for which
the defendant is on trial.” (App. to Habeas Pet.
(“App.”), Ex. 17 at R005216, Dkt. No. 1-6.)
Anderson also sought to testify why he did not
come forward prior to December 2011 with this
information. He would have said Levand only first
confessed to him in the summer of 2011 when they
were incarcerated in the same jail. Once he obtained
the confession, Anderson felt compelled to come
forward because he had previously been wrongly
accused of a crime and, if someone had information to
help him, he would have wanted that person to come
forward as well. He wrote the letter to Smith’s defense
counsel only after his attempts to alert authorities
through a “tip line” proved fruitless. While Anderson
would be permitted to testify at trial regarding
Levand’s confession, he was barred from testifying
about Levand’s knowledge of Briseno’s drug dealing
activities at the Burrito Express and why he did not
tell anybody sooner about Levand’s confession.
ii. Officer Guillermo Quinones Proffer
Smith also sought to introduce the testimony of
Officer Guillermo Quinones, an undercover operative
with Lake County, Illinois’ Metropolitan Enforcement
Group. Quinones would have testified that while he
was working on an undercover drug investigation, he
made multiple visits to a restaurant owned by

45a
Briseno. Those visits occurred less than six months
before Briseno was shot. During one of the visits,
Quinones spoke to Briseno about Briseno’s cocaine
dealing, and Briseno offered to sell cocaine to
Quinones. At some point, Quinones did purchase
drugs from Briseno and his associate Sergio Salinas.
The trial court excluded this testimony as it ruled that
it did not have a close enough connection with the
crime.
iii. Detective Richard Solarz Proffer
Finally, Smith sought to introduce the testimony
of Detective Richard Solarz, who was a K-9 handler.
Detective Solarz would have testified that the day
after the shooting, he conducted a search of the
Burrito Express with a narcotic-sniffing dog. During
the search, the dog detected the possible presence of
narcotics inside a desk drawer and a cabinet in the
Burrito Express. This testimony was also excluded
because it did not have a close enough connection with
the crime.
iv. Houghtaling’s and Collett’s Testimony
The State indicated its intention to call
Houghtaling and Collett to testify. In response, Smith
sought to exclude the testimony, as the State knew
that both men would deny that Smith was involved.
Rather, the State was only calling them in order to
introduce their out-of-court statements implicating
Smith. The trial court overruled Smith’s objections.
B. The State’s Evidence at Trial

46a
i. Eduardo Pardo’s Testimony
Eduardo Pardo testified that he worked as a cook
at the Burrito Express. He was at work on March 6,
2001, when, at 7:15 p.m., two men wearing black
masks that left only their eyes uncovered entered the
restaurant. One of the men carried a gun. At the time,
Briseno and Pardo were working in the back of the
restaurant and there were no customers or any other
individuals inside. The man with the gun entered the
back of the restaurant first and pointed the gun at
Briseno and Pardo. Pardo, who spoke limited English,
did not understand what the man with the gun said.
Briseno raised the knife he had been using to prepare
food and chased the two men out of the restaurant.
Pardo was close behind in pursuit.
At some point during the chase, Pardo testified
that he observed Briseno stop and talk to someone in
a passing car, but he was unable to hear what Briseno
said. For a period, Pardo lost sight of both masked
men. When he regained visual contact with one of the
men, he observed that the man was wearing a green
jacket. That man was not the man carrying the gun.
After the masked man in the green jacket slipped and
fell backwards on a patch of ice, Pardo was able to
catch up to him. He then removed the man’s mask.
Although it was dark outside, Pardo testified that he
got a good look at the man’s facial features. Pardo
alerted Briseno that he had apprehended one of the
masked men. Briseno directed Pardo to take the man
back to the Burrito Express and call the police.
Holding the man in the green jacket from behind,
Pardo began to walk him back toward the restaurant.
Briseno rejoined Pardo at this point. Then, the man

47a
with the gun reappeared, raised his mask to just
above his eyebrows, and fired two shots in Briseno
and Pardo’s direction. The man with the gun then
came closer to Briseno and Pardo and began shooting
again. Pardo testified that he heard Briseno make an
“aah” sound and saw him spit blood from his mouth.
However, Pardo was unable to see if Briseno spit
blood on the man wearing the green jacket. After
seeing Briseno spit up blood, Pardo released the man
in the green jacket from his grasp and ran back to the
Burrito Express to call the police.
While Pardo was calling the police, he observed
Briseno holding the man in the green jacket in front
of him and using him as a human shield as the man
with the gun kept shooting. After completing the call,
Pardo came back outside. Both masked men had fled
the scene. Briseno was left face down on the ground.
Pardo observed a substantial amount of blood coming
from Briseno’s mouth. Notably, Pardo never saw a
third man.
Later that evening, Pardo spoke with the police
and described the faces of the two masked men. The
resulting images showed clean-shaven young males.
At trial, Pardo was shown People’s Exhibit 66 (Ex. 96,
Dkt. No. 1-12), which was the green jacket
Houghtaling wore the night of the crime. When asked
whether the green jacket looked like the one worn by
one of the masked men, Pardo replied in the
affirmative. Yet, when Pardo first spoke with the
police, he described the jacket as having some black,
but only around the collar area. By contrast,
Houghtaling’s jacket only had a small black patch just
below the collar but did have numerous areas of black

48a
elsewhere on the jacket. Moreover, Pardo told the
police that the green jacket had no pockets and no
zipper going up the front of the jacket. Houghtaling’s
jacket had both of these features. On crossexamination, Pardo could not recall the description he
gave to police the night of the shooting. He testified
that he told the police the truth, but he was also
scared at the time. Smith later called the officer who
took Pardo’s statement the night of the shooting in
order to perfect his impeachment of Pardo’s
identification of the green jacket. However, when
Smith asked about how Pardo described the jacket in
his police interview, the State objected and the trial
court sustained the objection.
Despite seeing both the shooter and the man in
the green jacket’s uncovered faces, Pardo was never
able to identify Smith or Houghtaling as being
involved in the shooting. Indeed, while working with
the sketch artist, and then on a separate occasion two
days after the shooting, Pardo was shown a
photographic lineup—a lineup that contained Smith,
Houghtaling, and Collett’s photos. He did not identify
any photo as an individual involved in the shooting.
ii. Lieutenant Gary Wigman’s Testimony
The McHenry police department officer in charge
of the crime scene was Lieutenant Gary Wigman. At
trial, he testified that police officers went over the
crime scene “with a fine tooth comb,” using metal
detectors and magnets to search for the murder
weapon or bullet casings. (App., Ex. 22 at R006219–
20, Dkt. No. 1-9.) Nonetheless, the police were unable
to recover any potential murder weapon that they

49a
could link to Smith or Houghtaling. Nor did they
recover any physical evidence tied to Smith or his
alleged accomplices.
While observing Briseno’s autopsy, Wigman
noted a laceration and abrasion on Briseno’s upper
forehead. He testified that, pursuant to the John Reid
interviewing
technique,2
some
information
concerning the investigation was withheld from the
public. This was done to assess the credibility of the
individuals who came forward to the police with
information about the crime. In this instance, the
police withheld the fact that Briseno had sustained a
head wound and that Pardo had seen Briseno yelling
into a passing car. That information was withheld
from the public until it was disclosed in testimony at
McMullan’s 2002 trial. By contrast, the public was
informed that the men wore ski masks and that
Briseno struggled with one of the men in the parking
lot. Smith attempted to question Wigman on the John
Reid method of interrogation, but the trial court
sustained the State’s objection on relevance grounds
because Wigman did not conduct the relevant
interviews in which the method was used.
Wigman also testified why the police believed
that the shooter used a revolver. An automatic
firearm ejects bullet casings after firing, whereas a
revolver does not. Having found no bullet casings in
the vicinity of the shooting, the police concluded that
the shots came from a revolver.
Wigman testified that John Reid is a school in the Chicagoland
area that “teaches investigators how to properly interview
people.” (App., Ex. 26 at R006882, Dkt. No. 1-11.)
2

50a
When asked whether the police received
information concerning the DeCicco Group’s possible
involvement, Wigman confirmed that they did. He
said he received a call on November 16, 2001 from
Vicki Brummett, Dallas DeCicco’s mother, who said
she believed that she possessed the gun used in the
Burrito Express shooting. The police recovered a .22caliber revolver from Brummett’s home and sent it to
the state police for testing. That revolver matched the
characteristics of the gun used in the shooting.
During his testimony, Wigman conceded that none of
the physical evidence collected at the crime scene was
connected to Smith or any of his purported
accomplices.
iii. Forensic Testimony
Several forensic witnesses testified at trial. First,
Joanne McIntyre, an Illinois State Police firearms
expert, testified that the bullet from Briseno’s body
was a .22-caliber long rifle bullet with six lands and
grooves. She was able to fire ten test shots with the
revolver recovered from Brummett, examine the
bullets she fired, and compare them with the bullet
recovered from Briseno’s body. Based on her tests,
McIntyre testified that she could not exclude the
Brummett gun as having fired the bullet that killed
Briseno, although she was unable to conclude that it
was the murder weapon.
The forensic pathologist that performed Briseno’s
autopsy testified about his findings. He stated that
there was a laceration on Briseno’s head that was
consistent with being pistol whipped with the barrel
of a gun. The injury was not consistent with a fall. A

51a
forensic scientist with the Illinois State Police that
specialized in latent fingerprint examination testified
that the fingerprints lifted from the Burrito Express
door and a set of door knobs did not match the
standards provided by Smith, Houghtaling, Collett,
and McMullan.
iv. Justin Houghtaling’s Testimony
Over Smith’s objection, (renewed after being
overruled at pre-trial proceedings), the State called
Houghtaling to testify. In his direct testimony,
Houghtaling denied that he and Smith were involved
in the shooting. When asked what time he, Smith,
Collett, and McMullan went to the Burrito Express on
March 6, 2001, Houghtaling testified that they never
went to the restaurant on that date. He further stated
that he had only known Smith for about three weeks
prior to March 6. Houghtaling knew Smith because
Smith was dating McMullan at the time, and
McMullan lived across the street from Houghtaling.
Houghtaling testified that on the night of March
6, Smith and McMullan came to Houghtaling’s house
and picked him up. They then went to pick up Collett.
Together, the group traveled to McMullan’s friend’s
house in Wisconsin because McMullan wanted to
borrow her friend’s laptop computer. They then
returned to McHenry, where they stopped at a “head”
shop known as Cloud 9. From there, they went to
Smith’s friend Jimmy Wiesenberger’s house, where
they remained the rest of the night.
In response to Houghtaling’s denial of
involvement, the State asked him whether he had

52a
pleaded guilty to first-degree murder. Houghtaling
admitted that he had, and that he was sentenced to
twenty years’ imprisonment in connection with the
Burrito Express shooting. Then, over Smith’s
objection, the State admitted evidence of
Houghtaling’s prior inconsistent statements.
a) Houghtaling’s May 12, 2001 Interrogation in
Omaha, Nebraska
A transcript from Houghtaling’s May 12, 2001
interrogation in Omaha was read into the record, and
the jury heard the audio. Houghtaling testified that
he was high on hallucinogenic drugs at the time.
During the interrogation, Houghtaling told the police
that on the night of March 6, 2001, he, Smith,
McMullan,
and
Collett
were
drinking
at
Weisenberger’s house behind the Burrito Express.
While Smith and Houghtaling were smoking a joint
outside, Houghtaling recalled Smith saying
something similar to “come with me, I want to go do
something.” (App., Ex. 137 at 1, Dkt. No. 1-19.)
Houghtaling then followed Smith to the Burrito
Express.
The interviewers then began asking Houghtaling
a series of leading questions regarding face coverings.
One asked him if he wore a ski mask, to which
Houghtaling replied that he could not remember.
Following up, the interviewer asked if Houghtaling
had his face concealed. Houghtaling replied that he
did. Houghtaling agreed when asked if he concealed
his face with some kind of hat. The question was then
refined to “[w]ith a mask that goes over the face?” to

53a
which Houghtaling replied in the affirmative. (Id. at
2.)
Houghtaling said that Smith entered the Burrito
Express first. He stated that only Smith was carrying
a gun, and the gun was “a little .22.” (Id. at 3.) When
asked who was in the restaurant upon their entry,
Houghtaling replied “[s]ome dude behind the counter
and a few other people, nah, I I can’t remember.” (Id.
at 3.) Smith then went up to a man behind the counter
and demanded money. In response, Houghtaling
stated that the owner grabbed a knife and chased him
and Smith outside. He was unsure of the size of the
knife, describing it as not “little but it was not huge
like a regular filet knife or something.” (Id. at 4.) The
knife wielded by Briseno was in fact a large butcher
knife, a fact that the interviewers knew at the time.3
Then, the interviewers asked Houghtaling if anybody
other than the owner was chasing them, and
Houghtaling replied “not that I know of.” (Id.)
Houghtaling was unable to describe how he was
grabbed and held during the course of his escape. He
did say that once he heard gunfire, “the dude let go of
me and I ran. I was scared.”4 (Id. at 5.) Again,
Houghtaling was asked if there was an additional
person chasing him and Smith. He replied “That could
An officer who reported to the scene of the crime in the
immediate aftermath of the shooting testified that he observed a
“large butcher knife, approximately six inches long” lying next
to Briseno’s body. (App., Ex. 21 at R005781, Dkt. No. 1-8.)
3

This was contradicted by Pardo’s testimony that after he
released the unarmed man in the green jacket and went inside
to call 911, Briseno used that man as a human shield, while the
armed man continued shooting.
4

54a
be, I can’t, it happened so long ago and I don’t
remember. I’m not a hundred per cent [sic] positive,
but it could be.” (Id. at 6.)
After he fled, the interviewers asked if anybody
was waiting in a getaway car for Smith and
Houghtaling. Houghtaling said he did not recall
escaping to a car, and instead he believed that they
all met back at the house. Later, he stated that upon
further thought, he and Smith did run to a getaway
car after the shooting, and that McMullan and Collett
were in the car. One of the interviewers suggested
that the four then went to Cloud 9. Houghtaling
agreed. When they arrived at Cloud 9, Houghtaling
stated that Collett went inside and the others waited
in McMullan’s car. The interviewers informed
Houghtaling that witnesses placed him at
Weisenberger’s house following the shooting, which
Houghtaling confirmed. He also said that Smith
planned the robbery. He explained that they
discussed the robbery in the car on the way to
McHenry, as well as at Weisenberger’s house.
The interviewers asked about Houghtaling’s
attire that night. They asked him if he had borrowed
someone’s jacket, to which he replied that he
borrowed a green jacket from Collett. Houghtaling
further stated that he did not see a wound on
Briseno’s forehead. When asked to describe the gun
used to shoot at Briseno, Houghtaling said that it
“looked like a revolver.” (Id. at 18.) Yet, he was unable
to explain the difference between a revolver and an
automatic. After one of the interviewers drew pictures
of a revolver and an automatic, they asked him to pick

55a
the one depicting a revolver. Houghtaling selected the
automatic.
b) Houghtaling’s April 3, 2002 Testimony at
Jennifer McMullan’s Trial
Also introduced was Houghtaling’s testimony at
Jennifer McMullan’s trial. He testified that his
testimony was uncoerced and made of his own free
will. On the day of the shooting, Houghtaling stated
that he and Smith discussed the robbery at
Houghtaling’s house. There, Smith gave Houghtaling
a ski mask. They put those masks on prior to entering
the Burrito Express.
Houghtaling testified that Smith entered the
Burrito Express first and he was carrying a gun in his
hand. There were two people inside the restaurant,
none of them customers. Smith aimed his gun at
Briseno and demanded that he give them money.
Instead of complying, Briseno picked up a knife and
chased Smith and Houghtaling outside. As he ran
away, Houghtaling slipped and was grabbed by
Briseno and Pardo. The two then dragged him back to
the restaurant. While he was seized, one of the men
grabbed his mask. Shots were then fired. Houghtaling
could see Smith firing the shots. After the last shot
was fired, Houghtaling testified that he could feel a
jerk. Briseno then fell, and Pardo ran to the
restaurant. When he was released from Briseno’s
grasp, Houghtaling fled. Upon meeting up with
McMullan and Collett, McMullan suggested that they
go to Cloud 9 for an alibi.

56a
c) Houghtaling’s August 13, 2008 Testimony at
Smith’s Second Trial
Houghtaling also testified at Smith’s second trial.
On direct, Houghtaling stated that he and Smith put
on masks and entered the Burrito Express at around
7:21 p.m. Upon entry, a gun-wielding Smith
announced that the restaurant was being robbed.
Briseno then picked up a knife and chased Smith and
Houghtaling outside. During the chase, Houghtaling
slipped on ice, which allowed Briseno and Pardo to
catch up with him and grab him. Briseno and Pardo
began wrestling with Houghtaling. As Houghtaling
attempted to escape, Pardo put a knife to his throat.5
At this point, Smith started shooting. Houghtaling
then felt a jerk and was released from both Briseno
and Pardo’s grasp. He ran to McMullan’s car, where
both McMullan and Collett were waiting for him.
Smith was not with them at this point, and
Houghtaling testified that he was not aware where he
went. Yet, Houghtaling also testified that when he
returned to McMullan’s car, he asked Smith whether
he was “fucking out of your mind,” to which Smith
replied, “I did what I had to do.” (App., Ex. 21 at
R005879–80.) The group then went to Weisenberger’s
house and stayed there overnight. Houghtaling stated
that he was wearing a green jacket that night.
Immediately on cross-examination, Houghtaling
recanted his entire direct testimony, other than the
fact that he wore a green jacket the night of March 6,
Houghtaling’s testimony that Briseno and Pardo wrestled with
him and that Pardo put a knife to his throat does not match
Pardo’s own testimony from the third trial.
5

57a
2001. He stated that he had been forced to lie “because
[the State] want[s] to convict Kenny Smith for a crime
he didn’t commit, none of us committed.” (App., Ex. 13
at R003474–75, Dkt. No. 1-4.) He also reported that
the State threatened to revoke his plea agreement if
he did not give testimony inculpating Smith.
Moreover, he stated that he learned the details he
testified to from newspaper articles and discovery. On
redirect, Houghtaling conceded that he had not
negotiated any plea with the State at the time of his
Omaha interrogation.
d) Justin Houghtaling’s Cross-Examination at
the Third Trial
During cross-examination, Houghtaling testified
that neither he nor Smith was involved in the
shooting or the attempted robbery. He also claimed
that he was high on hallucinogenic drugs during his
May 12, 2001 Omaha interrogation. While much of
the interrogation was taped, Houghtaling spoke with
the police roughly fifteen minutes before the tape
recorder was turned on. During this time,
Houghtaling told the officers he had taken drugs that
day. In addition, the officers (falsely) informed
Houghtaling that Smith, McMullan, and Collett had
already been charged and given statements. They
promised Houghtaling that if he told them what
happened, they would help him out. Once they turned
the tape recorder on, the officers began asking
Houghtaling a number of leading questions.
As to the facts that Houghtaling recounted in his
police interview, Houghtaling testified that he
learned those facts through newspaper articles and

58a
word of mouth. However, when Smith attempted to
ask additional questions about where he learned each
specific fact he recounted in the interview, the State
objected on the basis of hearsay and foundation. The
trial court sustained the objection. It did allow Smith
to explain that Houghtaling would have testified that
he learned the following items from press or word of
mouth prior to his Omaha interrogation:
That the police thought that the shooting was
about 7:20 p.m.; that the police thought that there
were two young men involved. The police thought
that one man had a handgun; that the police
thought that both went into the store; that the
police thought that both were wearing black ski
masks with eye holes; that the police thought that
Mr. Briseno was in the Burrito Express with one
employee; that the police thought that Mr.
Briseno was using a butcher knife at the time;
that the police thought masked men ordered
Briseno to give them money.
...
That the police thought that Mr. Briseno and the
employee chased two men out of the restaurant;
that the police thought that Mr. Briseno caught
one of the masked men outside the restaurant;
that the police thought Mr. Briseno struggled
with one of the masked men in the parking lot;
that the police thought Mr. Briseno was shot by
another masked man. I would also ask Mr.
Houghtaling whether he understood that the
possibility that Mr. Briseno had been pistol

59a
whipped was in the public, and he would testify
that he understood that was not in the public.
(App., Ex. 21 at R006039–40.) Despite defense counsel
submitting as evidence news articles that were
published about the Burrito Express shooting prior to
Houghtaling’s Omaha interrogation reflected the
relevant facts he recounted in that interrogation, the
court reiterated that it would sustain the objection. It
insisted that for each fact from the interrogation,
Houghtaling must supply details as to what
newspaper or person he learned the fact from and
when he learned that fact in order for his testimony
to be admissible.
In addition, Houghtaling stated that prior to his
testimony in McMullan’s trial, he prepared with
representatives from the State, who refreshed his
recollection. Moreover, when he testified at Smith’s
second trial, he had access to police and forensic
reports. And due to his recantation on crossexamination, Houghtaling was charged with perjury
and voluntarily pleaded guilty to that charge and was
sentenced to an additional term of five-and-a-half
years’ imprisonment. He recognized that he could
again be charged with perjury after his testimony at
Smith’s third trial, but he said “I’m tired of lying. The
truth has to come out sooner or later.” (Id. at
R006028–29.)
Smith also sought to elicit testimony from
Houghtaling that he was called to testify against
Houghtaling in the first trial but refused because
Smith was not involved in the shooting. The State

60a
objected on relevance grounds and the trial court
sustained the objection.
v. Detective Sergeant William Brogan’s Testimony
William Brogan was a detective sergeant with the
McHenry Police Department and was one of the
officers who interrogated Houghtaling in Omaha.
Brogan stated that he did not ask Houghtaling if he
was on drugs that day but testified that he showed no
signs of being under the influence. On crossexamination, Brogan testified regarding his training
in the John Reid interrogation technique. A John Reid
interview seeks to elicit information to corroborate a
confession, which can take two forms: (1) independent
corroboration where the subject supplies information
unknown to the investigator that can be verified (i.e.
the location of an unrecovered murder weapon); or
(2) dependent corroboration, which involves a suspect
demonstrating knowledge of facts about a crime that
the police have withheld from the public. However,
Brogan testified that Houghtaling supplied police
with no facts that provided either independent or
dependent corroboration of his confession in the
Omaha interrogation.
Brogan also testified about the information that
the police released to the public. The publicly
disclosed information included that: the shooting
occurred at 7:20 p.m. at the Burrito Express, two men
were involved and one had a handgun, the two men
wore black ski masks with eyeholes; Briseno and
Pardo were in the restaurant at the time of the
robbery attempt; the masked men demanded that
Briseno give them money; Briseno and Pardo chased

61a
the men out of the restaurant; Briseno wielded a knife
as he chased the men; during the pursuit, Briseno
caught one of the masked men; while Briseno was
struggling with the man he caught, the other masked
man shot him. Not publicly disclosed was the wound
on Briseno’s head and the fact that Briseno had yelled
something to a passing car.
In addition, Brogan testified that in Omaha, the
police had spoken to Houghtaling for fifteen minutes
before they began recording the interview. During
this fifteen-minute period, Houghtaling denied his
involvement in the shooting until police falsely told
him that Smith, McMullan, and Collett had been
charged, and that Houghtaling could help himself if
he gave a statement. He further admitted that much
of Houghtaling’s statement was first suggested
through the use of leading questions asked by the
other interrogator. He also conceded that
investigators should avoid the use of leading
questions.
vi. David Collett’s Testimony
During pre-trial proceedings, Smith’s objection to
David Collett’s testimony was overruled. He renewed
his objection when the State called Collett at trial.
Again, the trial court overruled the objection. On
direct, Collett testified that he had “no clue” who
attempted to rob the Burrito Express. (App., Ex. 23 at
R006406, Dkt. No. 1-9.) When asked why he pleaded
guilty to being involved in the robbery, Collett
testified that it was a “plea of convenience.” (Id. at
R006407.) He also stated that his lawyer advised him
that the reduced charge offered to him in exchange for

62a
his plea could reduce his term of imprisonment or
cause him to avoid it altogether. Then, over Smith’s
objection, the State was allowed to introduce a
statement directed at Briseno’s widow that Collett
gave at his sentencing hearing:
I’d just like to say that I’m—no, no apology,
nothing I can possibly say can help the victims
with what they’re dealing with, but I can offer my
apologize—apology. I really—if I would have
known that any of this would have happened, I
really would have tried to do something to stop it,
but, honestly, I mean, I really didn’t think
anything like that would have happened—was
going to happen. If the judge, if your Honor, if you
see fit to grant me probation, I will follow through
with it completely and to the Court’s satisfaction.
I would just like to apologize again to the victims
for their loss. Thank you.
(Id. at R006408–09.) Collett admitted making this
apology but denied that it was because he was
remorseful for what he did. Instead, the apology was
only for the grief that Briseno’s widow was going
through.
On the evening of March 6, 2001, Collett
explained that he was with Smith and Houghtaling.
He had only known Smith for a couple of months at
that point. McMullan picked the three of them up and
drove them to Wisconsin to pick up a laptop from
McMullan’s friend. On the drive back to McHenry,
Houghtaling and Collett got into an argument
because Houghtaling would not return his green
jacket. McMullan pulled the car over and Collett

63a
exited the car. He then walked to Weisenberger’s
house. When nobody was home, Collett walked to
Cloud 9. While he was walking, he heard a noise that
sounded like a car backfiring. Surveillance video
showed Collett entering Cloud 9 at 7:38 p.m. and
leaving at 7:44 p.m. After leaving, he got into
McMullan’s car. In the car were McMullan, Smith,
and Houghtaling. He observed no evidence that Smith
and Houghtaling had just been involved in a bloody
crime. Together, they drove to Weisenberger’s house
where they remained through the night. Collett
testified that he never discussed the Burrito Express
incident with Smith, Houghtaling, or McMullan.
Over Smith’s objection, the State asked Collett
about a statement he made to police on May 12, 2001.
It asked whether he told the police that he heard
gunshots as he was walking behind the Burrito
Express and up to Weisenberger’s backyard. Collett
said that it was possible that he said this, but it was
taken out of context. Rather, he said that while it
sounded like a car backfiring, it could have been
gunshots. He was not sure as he had never heard a
gunshot before. Collett was also asked whether he
told police on May 12, 2001 that when he got into
McMullan’s car, Smith told him that some kids robbed
the Burrito Express. Collett admitted that he possibly
could have told police that. Finally, he was asked
about his May 12, 2001 statement to the police that,
when the group was at Weisenberger’s house, Collett
asked Smith about what happened at the Burrito
Express and Smith responded, “just had some fun.”
(Id. at R006421.) He stated that he probably said that
if that was what was written down.

64a
C. Smith’s Defense at Trial
At the conclusion of the State’s case, Smith moved
for a directed verdict, arguing that the evidence failed
to prove Smith was guilty beyond a reasonable doubt.
That motion was denied. In his defense, Smith sought
to demonstrate that the State had no evidence linking
him or his purported accomplices to the crime scene.
More importantly, Smith introduced evidence that
implicated the DeCicco Group in the crime.
i.

McHenry Police
Testimony

Department

Officers’

Detective
Richard
Solarz
interviewed
Houghtaling at the McHenry police station on March
7, 2001. Houghtaling wore the green jacket to the
station. Solarz testified that he did not observe any
blood stains on the jacket or any signs that
Houghtaling had been involved in a shooting or
struggle. Sergeant Michael Brichetto of the McHenry
County Major Investigations Assistance Team
testified that he interviewed Pardo on March 8, 2001.
He showed Pardo a photo array that included photos
of Smith, Collett, Weisenberger, and Houghtaling.
Pardo could not point to any photographed individual
as being involved in the incident.
ii. James “Jimmy” Weisenberger’s Testimony
Jimmy Weisenberger was the man resided in the
home where Smith, Houghtaling, McMullan, and
Collett spent the night of March 6, 2001. They arrived
at Weisenberger’s home sometime after the police
arrived at the scene of the crime at the Burrito

65a
Express. Before their arrival, Weisenberger observed
police activity around the Burrito Express. When the
four arrived, he observed Houghtaling wearing a
green jacket. He did not see any blood or scratches on
any of them. When he rode with Collett in McMullan’s
car to buy beer, he did not see any blood, masks,
bullets, or a gun in the car. On cross-examination,
Weisenberger was asked over Smith’s objection
whether he had used any drugs in the past, and
whether Smith, Houghtaling, and Collett were
smoking marijuana on the night of March 6, 2001. He
responded that he smoked marijuana as a teenager
and tried other drugs, and that Smith, Houghtaling,
and Collett were smoking marijuana at his house that
night.
iii. Patrick Anderson’s Testimony Regarding
Rusty Levand’s Confession
Patrick Anderson lived in McHenry in 2001 and
was friends with Rusty Levand. He also knew
Levand’s then-girlfriend Dallas DeCicco. While
incarcerated in the McHenry County jail in July of
2011, Anderson reconnected with Levand, who was a
fellow inmate. Levand eventually told Anderson of his
involvement in the Burrito Express shooting. He
stated that he and DeCicco’s cousin, Adam Hiland,
attempted to rob the restaurant. When Briseno
chased them out of the restaurant and grabbed
Hiland, Levand fired his gun over his shoulder and
struck Briseno. Briseno bled from his wound onto
Hiland. After Hiland called for help, Levand ran over
to Hiland and Briseno and hit Briseno over the head
with his gun. Levand and Hiland then fled to
DeCicco’s car and the three drove to Levand’s

66a
mother’s house to clean up. There, they also burned
the masks and the clothing they were wearing and
unsuccessfully attempted to clean up the bloody
backseat of DeCicco’s car. Several months later,
Levand stole DeCicco’s car and burned it somewhere
in Wisconsin.
iv. Susanne “Dallas” DeCicco’s Confessions
a) DeCicco’s 2005 Confession to the Police in
Quincy
Dallas DeCicco participated in a videotaped
interview with Sergeant Doug Vandermaiden of the
Quincy, Illinois Police Department. Vandermaiden
was called to testify. He stated that he was a patrol
officer with the Quincy Police Department in
November of 2005. In that capacity, he first came into
contact with DeCicco after he suspected her of retail
theft. However, he soon came to believe that she had
some involvement in the Burrito Express shooting.
In the interview, DeCicco stated that she, her
boyfriend Levand, and her cousin Hiland had
committed the crime. It occurred the day her sister
went into labor, which she said was March 5, 2001.
The DeCicco Group went to the hospital, but DeCicco
sent Levand and Hiland to her mother’s house to get
the maternity bag. Levand and Hiland drove
DeCicco’s car and were gone for one-and-a-half hours,
even though the trip should have taken no longer
than thirty minutes. When the two returned, they
were acting funny. After departing the hospital, the
DeCicco Group went to DeCicco’s biological father’s
house. There, Levand and Hiland started going

67a
through her car’s trunk. Inside the trunk was a
revolver wrapped in a towel. She identified the gun as
her stepfather, David Brummett’s revolver. Then,
Levand and Hiland left, talking about snatching
purses or robbing somebody for money. After twenty
minutes, DeCicco got in her car and began looking for
them. She found them near the Burrito Express
where she saw them run into the restaurant, and then
run back out followed by two men who worked there.
As the four of them ran across the street and in front
of her car, one of the men turned around and yelled
something into DeCicco’s car.
DeCicco continued to drive and returned to her
father’s house. While she was in the driveway, she
heard six gunshots. Soon thereafter, Levand and
Hiland ran out from the woods behind the house.
Hiland’s face was covered in blood and he had a cut
on his hand. The two got into DeCicco’s car and she
drove them away. Levand threw the gun on the back
seat, and Hiland tried to clean it. The DeCicco Group
then drove to Levand’s grandmother’s house and
disposed of either a scarf or gloves. Then, they drove
to DeCicco’s mother Vicki Brummett’s house. There,
Hiland put their soiled clothes in a bag and burned
them the next day. Hiland and Levand cleaned the
gun and pulled Briseno’s hair from it. While at
Brummett’s home, Levand told DeCicco that one of
the men at the Burrito Express threw a knife at him
and Hiland, at which point the two ran out of the
restaurant. Levand also recounted that one of the
employees caught Hiland and dragged him across the
parking lot. That is when Levand panicked and began
shooting. His final shot hit Briseno, at which point
Levand heard Briseno let out a groan and saw him

68a
spit up blood on Hiland. Briseno continued to attempt
to fight back. He raised his knife and struggled with
Hiland until Levand came up and hit Briseno on the
head. DeCicco told her sister about the incident. Her
sister told their mother. In turn, their mother called
the police, who subsequently collected the gun.
DeCicco stated that she did not contact the police
because she was fearful that Levand and Hiland
might physically retaliate against her. Months later,
DeCicco’s car was stolen. She said that Levand and
Hiland took her car and drove it to Wisconsin where
they burned it due to the bloodstains on the back seat.
By stipulation, Smith introduced evidence showing
that DeCicco’s car was found on June 27, 2001, in
Racine, Wisconsin. The car had been completely
burned and destroyed.
b) DeCicco’s 2006 Confession
About two months later, DeCicco again confessed;
this time to Sergeant Virgil Schroeder of the Illinois
State Police. Schroeder testified that in January
2006, he and a partner interrogated DeCicco, who at
that time was incarcerated for retail theft. They
interviewed her at the State’s request.
During this confession, DeCicco stated that the
shooting occurred on either March 5 or 6, 2001. She
mentioned for the first time that Levand and Hiland
both wore masks when they entered the Burrito
Express. When later asked why Levand or Hiland had
to clean blood off his face despite wearing a mask,
DeCicco stated that Levand wore a mask and Hiland
wore a scarf over his face. She also stated that Hiland
had Briseno’s blood on his face and the blood dripped

69a
onto his shirt. DeCicco was asked how she knew that
Levand and Hiland had a gun when they were at her
biological father’s house. She stated that she saw
them looking through her car’s trunk but did not
actually see the gun. Instead, she only saw the gun
later, both when Levand and Hiland entered the
restaurant and then when Levand ran toward her car.
DeCicco specifically pointed out to her
interrogators that Briseno was hit in the head with a
gun. After this confession, the officers told DeCicco
that they did not believe her story and offered to give
her an out if she recanted. Instead, she insisted that
“it happened and I’m willing to step forward.” She
offered to take a polygraph. She further related that
Hiland told her that he saw an attorney because he
was fearful of being prosecuted after Brummett
turned over the weapon used to commit the crime to
police.
c) DeCicco’s Confession to Her Mother
Vicki Brummett, DeCicco’s mother was called to
testify. She stated that on March 6, 2001, she
returned home from the hospital where her other
daughter had given birth. On her way home, she saw
police around the Burrito Express. Upon arriving
home, she saw DeCicco, Levand, and Hiland in the
basement. Before the shooting, Hiland did not have
scratches on his body. But now he had scratches on
his hands and knees. When asked whether anybody
in her household owned a firearm, Brummett stated
that her husband owned a handgun that he kept in
the bedroom closet wrapped in a blue towel. Sometime

70a
in November 2001, she turned that gun over to the
police.
Also around November 2001, DeCicco confessed
her involvement in the Burrito Express shooting to
Brummett. Brummett testified that DeCicco told her
that the night of March 6, 2001, DeCicco had driven
to pick up Levand and Hiland and found them
standing outside the Burrito Express. She watched
them run inside, and subsequently run out. One of the
men who ran out after Levand and Hiland ran in front
of DeCicco’s car and yelled for her to call the police.
DeCicco said she then drove home. DeCicco also told
her mother that the gun used in the shooting belonged
to Brummett’s husband. In addition, DeCicco
mentioned that one of the men was hit in the head
with the gun, which left a crack in the barrel. At the
time, the fact that Briseno had a head wound
resulting from a being hit with a gun was not public
information.6
d) DeCicco’s Confessions to Her Friends
Three of DeCicco’s friends were called to testify
regarding confessions that DeCicco made to them.
Brittany Tyda was a childhood friend of DeCicco’s
who testified that DeCicco confessed to her about the
Burrito Express shooting in October 2001. Tyda had
invited DeCicco and Levand to her apartment. There,
DeCicco tearfully told Tyda about the shooting.
Specifically, she told Tyda that she saw Levand and
Wigman testified that at the time he obtained the Brummett
gun in November 2001, the issue of Briseno’s head injury had
not appeared in the press or otherwise been publicly disclosed.
(App., Ex. 26 at R006922.)
6

71a
Hiland attempt to rob the Burrito Express. When a
knife-wielding store manager grabbed Hiland, Hiland
yelled for Levand’s help. Levand responded by
shooting the manager.
During that same visit, Tyda heard DeCicco
arguing with Levand. At some point in the argument,
DeCicco told Levand that if he went to the police
about DeCicco writing bad checks, she would tell the
police that he shot someone. Within a year of the
shooting, Tyda spoke with the police about DeCicco’s
confession.
DeCicco also confessed to her sister (and Hiland’s
cousin), Elizabeth Schwartz. Schwartz testified that
DeCicco had visited her in the hospital on March 6,
2001, the day after she had given birth to her
daughter. About three weeks later, DeCicco told
Schwartz that Hiland had been involved in the
shooting at the Burrito Express. Schwartz told her
mother about DeCicco’s confession. She further
testified that in the week following the shooting, she
noticed cuts on Hiland’s hands and bruises on his
arm.
Sometime around Christmas 2005, DeCicco
confessed to her half-sister, Carly Rexford. While
DeCicco was at Rexford’s home, she told Rexford that
she had confessed to the police that she had been
involved in the Burrito Express shooting. Specifically,
she said that Hiland and Levand took her stepfather’s
gun and used it during an attempted robbery of the
restaurant. However, during an altercation between
Briseno and Hiland, Levand shot Briseno. DeCicco
also told Rexford that Levand had threatened to

72a
punish her if she ever told anybody that she was
involved in the crime. Rexford testified that when she
visited Schwartz at the hospital on March 6, 2001,
DeCicco was there as well.
v. Adam Hiland’s Confessions
a) Hiland’s Confession to R. Daniel Trumble
A friend and former roommate of Hiland, R.
Daniel Trumble, was called to testify about
confessions Hiland made to him. Over the summer of
2002, Hiland had three conversations with Trumble
in which he confessed to being involved in the Burrito
Express shooting. During the first conversation,
Hiland was drinking with Trumble when he told
Trumble that the wrong people were arrested for the
shooting. Trumble testified that Hiland confessed
that he was involved in the shooting along with
Levand and DeCicco. While the three of them had
only intended to rob the restaurant, the situation
“had gone wrong” after one of the restaurant workers
pulled a knife. (App., Ex. 25 at R006735, Dkt. No. 110.) As a result, Levand shot him. Trumble further
stated that Hiland was shaking and crying during the
confession.
Following this initial confession, Trumble advised
Hiland to speak to a defense attorney. Trumble
testified that he accompanied Hiland to see an
attorney and was present when Hiland confessed to
the attorney. However, the State objected to
Trumble’s testimony regarding the visit to the
attorney on relevance grounds. Smith’s counsel made
an offer of proof that Trumble would testify that he

73a
arranged a meeting with an attorney named Ed
Edens. Hiland and Trumble met with Edens at a
restaurant in 2002, and Hiland made inculpatory
statements to the attorney in Trumble’s presence.
Edens then told Hiland that he should not come
forward because other arrests had been made in
connection with the shooting. The court sustained the
State’s objections and permitted Trumble to testify
only that he heard Hiland confess again. It did not
allow Trumble to make any reference to the lawyer or
the circumstances surrounding that meeting.
Accordingly, Trumble testified that a few days after
Hiland’s first confession, he had a second
conversation about the shooting with Hiland at a
restaurant. Hiland was sober and repeated the
confession he gave earlier. Then, on the drive home
from the restaurant, Hiland explained that since
someone else was arrested he was not going to turn
himself in. Trumble never went to the police with this
information.
b) Hiland’s Confession to Gina Kollross
Hiland also confessed to his adoptive sister, Gina
Kollross. Kollross testified that Hiland once lived
with her, and that she also knew DeCicco and Levand.
She stated that a few days after the shooting, she
noticed that Hiland’s hands were bandaged. When
she asked him what happened, he said he slipped on
some icy stairs. Then, a week or two later, Hiland told
Kollross that he and Levand had attempted to rob the
Burrito Express. When the owner chased them with a
knife and targeted Hiland’s arm and hand, Levand
shot the owner in order to free Hiland.

74a
c) Hiland’s Confession to Charlene McCauley
Hiland’s birth sister, Charlene McCauley,
testified that she lived with Hiland, DeCicco, Levand,
and Schwartz at the Brummett residence in March
2001. McCauley stated that on occasions, the DeCicco
Group would pick the lock to enter the Brummetts’
bedroom. The day after the shooting, McCauley said
she saw Hiland with bandages on his forearm. He told
her that he had slipped on icy stairs.
Shortly before Christmas 2001, McCauley
testified that Hiland confessed his involvement in the
Burrito Express shooting to her. Hiland told her that
the DeCicco Group was at DeCicco’s father’s house
and smoking crack in the garage on the night of the
shooting. When they ran out of drugs, they decided to
rob the Burrito Express to obtain more money.
However, after Levand and Hiland went inside, the
owner and an employee chased them out of the
restaurant and continued to pursue them outside.
One of the men grabbed Hiland and struggled with
him. Levand shot the man. Following his confession,
McCauley testified that Hiland appeared depressed,
ashamed, and relieved.
d) Hiland’s Confession to Elizabeth Schwartz
In addition to testifying that DeCicco confessed to
her, Elizabeth Schwartz also stated that her cousin,
Hiland, confessed to her. His confession occurred two
or three months after the shooting while Schwartz
and Hiland were in a van outside a restaurant near
the Burrito Express. Hiland resisted exiting the van,
became fidgety, irritable, and panicked. Schwartz

75a
looked at Hiland and said “[s]he wasn’t lying, was
she?” (App., Ex. 25 at R006781.) Hiland asked what
she meant, and Schwartz responded that DeCicco had
told her that he had been involved in the Burrito
Express shooting. An angry Hiland replied that
DeCicco “is a fat fucking bitch and she can’t keep her
mouth shut. She needs to keep her mouth shut.” (Id.)
The two then drove away. During the drive,
Hiland told Schwartz that the DeCicco Group had
been smoking crack the night of the shooting. After
they ran out of drugs, Hiland and Levand decided
they would rob the Burrito Express. DeCicco dropped
Hiland and Levand off at the restaurant. The two
went inside but were chased out by two men.
Schwartz testified that one of them got ahold of
Hiland and tried to stab him with a knife. During the
ensuing struggle, Hiland grabbed the knife and cut
his hand. Levand then shot the man with the knife
and ran up and hit him in the head with the gun. She
later clarified that she did not remember if Levand hit
Briseno with the gun first, or if he shot him first.
DeCicco then picked up the two afterwards. Schwartz
reported seeing Hiland with cuts and scrapes the
week following the shooting. She also conceded that
her sister, DeCicco, was not always truthful with
others.
D. The State’s Rebuttal
The State sought to rebut Smith’s evidence
showing that it was the DeCicco Group, rather than
Smith, Houghtaling, Collett, and McMullan that were
involved in the shooting. Each member of the DeCicco
Group was called to testify.

76a
i. Rusty Levand’s Testimony
Levand testified to his relationship with Patrick
Anderson. He stated that Anderson is an
acquaintance and confirmed that they were
incarcerated together in the McHenry County jail
from June 6 through June 11, 2011. However, Levand
denied confessing to Anderson and denied being
present at the Burrito Express on the night of the
shooting.
ii. Dallas DeCicco’s Testimony
The State called DeCicco. At the outset of her
testimony, she confirmed that she had convictions for
retail theft, obstruction of justice, and possession of
prescription medication. She also acknowledged that
she had dated Levand for a few years. DeCicco then
stated that she lied to the Quincy police in November
2005. She said that she believed the police would let
her go on the shoplifting charges if she provided them
with a confession in a murder. It did not cross her
mind that confessing her involvement in a murder
could potentially increase the time she was
incarcerated. DeCicco explained away her confession
to the Illinois state police, stating that “[i]t just
somehow made sense to me that if I just lied a little
longer, I’d be able to get out and deal with it later.”
(App., Ex. 26 at R006958.) As to her other confessions
to family, DeCicco testified that the story was initially
a joke between her and her sister, Schwartz.
Moreover, she told the story to her mother because
she was a heroin addict and thought if she confessed
her involvement in the shooting, she could get money
for drugs. DeCicco was not asked about and did not

77a
explain the reason for her other confessions to her
friends.
In addition, DeCicco provided no explanation as
to how she learned of the unreleased details of the
crime. DeCicco stated that while she followed details
of the shooting in the news, she denied having read
police reports relating to it. Over Smith’s objection,
the State impeached DeCicco with a statement from
her testimony in an earlier proceeding in which she
said she saw police reports.
iii. Adam Hiland’s Testimony
At the time of the trial, Hiland was in custody for
fleeing and eluding the police. He also had numerous
other convictions including attempted burglary,
possession of a controlled substance, and aggravated
battery. The State did not ask Hiland about his
involvement in the Burrito Express shooting or
attempted robbery. Instead, it simply asked whether
Hiland had ever been cut with a knife on his hands or
arms, to which Hiland answered in the negative.
While Hiland did have a scar on his hand, he testified
the scar came from a recent incident where he was
injured running from the police.
IV. The Verdict and Smith’s Appeal
On February 29, 2012, following twenty-one
hours of deliberation over three days, the jury
returned a verdict of guilty on both the first-degree
murder count and the attempt robbery count. The
jury concluded that Smith personally discharged the
gun that killed Briseno. On April 26, 2012, Smith was

78a
sentenced to sixty-seven years’ imprisonment on the
first-degree murder charge along with a concurrent
seven years’ imprisonment sentence for attempt
armed robbery.
Smith appealed, arguing that the State did not
have sufficient evidence for a jury to find that he was
guilty beyond a reasonable doubt of the charged
crimes. In addition, Smith challenged several of the
court’s rulings excluding certain defense evidence,
arguing that those exclusions violated his
constitutional right to present a complete defense. He
also challenged other evidentiary rulings as violating
his Sixth Amendment Confrontation Clause rights
and his Fourteenth Amendment due process right to
a fair trial. The Appellate Court rejected all of Smith’s
challenges and affirmed both convictions.
DISCUSSION
Smith now seeks federal habeas relief under 28
U.S.C. § 2254(d). That statute, as amended by the
Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA”), does not allow an individual in
custody pursuant to a state court judgment to obtain
a writ of habeas corpus unless
the adjudication of the claim . . . (1) resulted in a
decision that was contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court
of the United States or (2) resulted in a decision
that
was
based
on
an
unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.

79a
28 U.S.C. § 2254(d).
In the present matter, Smith only seeks relief
pursuant the first subsection of § 2254(d). Under
§ 2254(d)(1), a state court decision is “contrary to”
clearly established federal law when “the state court
applies a rule different from the governing law set
forth in Supreme Court cases.” McCarthy v. Pollard,
656 F.3d 478, 483 (7th Cir. 2011) (internal quotation
marks and alterations omitted). Alternatively, a state
court decision is an “unreasonable application” of
clearly established federal law where “the state court
correctly identifies the governing legal principle from
Supreme Court decisions but unreasonably applies it
to the facts of the particular case.” Id. (internal
quotation marks and alterations omitted). “The focus
of the reasonableness inquiry is on whether the state
court’s application of clearly established federal law is
objectively unreasonable, not whether it applied
clearly established federal law correctly.” Id. In
undertaking the AEDPA analysis, the habeas court
considers “the decision of the last state court to rule
on the merits of the petitioner’s claim.” Id. Here, with
one exception,7 that is the most recent decision of the
Appellate Court. See People v. Smith, No. 2-12-0508,
2013 WL 2382284 (Ill. App. Ct. May 29, 2013)
(unpublished Ill. Sup. Ct. Rule 23 order).
I. Sufficiency of the Evidence

7

As discussed below in Section II.C.i.d, the Appellate Court last
addressed the merits of the admission of Briseno’s autopsy
photos on Smith’s appeal of the verdict in his second trial.

80a
Smith first challenges the Appellate Court’s
decision affirming his convictions as contrary to, and
an unreasonable application of, the United States
Supreme Court’s decision in Jackson v. Virginia, 443
U.S. 307 (1979). In essence, he claims that there was
insufficient evidence for a jury to find him guilty
beyond a reasonable doubt. Under AEDPA, habeas
relief may be granted “only if the Illinois Appellate
Court applied the Jackson standard unreasonably to
the facts of [the] case.” Jones v. Butler, 778 F.3d 575,
581–82 (7th Cir. 2015).
In In re Winship, 397 U.S. 358, 364 (1970), the
United States Supreme Court confirmed that the
Constitution requires that an accused be protected
against conviction unless his guilt is proven beyond a
reasonable doubt. Then, in Jackson v. Virginia, 443
U.S. at 321, the Supreme Court held that Winship
makes clear that a state prisoner has a cognizable
federal habeas claim when he alleges that the
evidence in support of his state conviction was
insufficient to allow a rational trier of fact to find guilt
beyond a reasonable doubt. The Supreme Court
emphasized, however, that a habeas court is not to
“ask itself whether it believes that the evidence at the
trial established guilt beyond a reasonable doubt.” Id.
at 318–19 (internal quotation marks omitted).
Rather, “the relevant question is whether, after
viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a
reasonable doubt.” Id. at 319.
The Seventh Circuit has since clarified that a jury
verdict cannot be overturned for insufficiency of the

81a
evidence unless “the record contains no evidence,
regardless of how it is weighed, from which the jury
could find guilt beyond a reasonable doubt.” United
States v. Huddleston, 593 F.3d 596, 601 (7th Cir.
2010). Moreover, the reviewing court must defer to
the jury’s credibility determinations. United States v.
Duran, 407 F.3d 828, 839 (7th Cir. 2005). Even when
raised on a direct appeal, the standard of review when
a defendant challenges the sufficiency of the evidence
supporting his conviction has appropriately been
described as “a daunting one.” Huddleston, 593 F.3d
at 601 (internal quotation marks omitted).
Smith has made a compelling argument that the
jury had insufficient evidence to find him guilty
beyond a reasonable doubt. Indeed, the State had no
forensic evidence inculpating Smith, nor was he
affirmatively identified by the sole eyewitness to the
crime. The only physical evidence the State presented
connecting Smith to the crime was the green jacket
worn by Houghtaling that Pardo identified as the
same one worn by the masked man without a gun.
Instead, the State’s main evidence of Smith’s guilt
came in the form of Houghtaling’s since-recanted
confessions during the Omaha interrogation,
McMullan’s trial, and Smith’s second trial. The most
obvious problem with that confession is that
Houghtaling no longer stands by it. Indeed, at Smith’s
second trial, Houghtaling set out a story
incriminating Smith and then immediately admitted
its falsity on cross-examination and further asserted
that the State forced him to lie to convict Smith for a
crime he did not commit. By the time he recanted,
there was no benefit to Houghtaling to lie; he had
already pleaded guilty and been sentenced for his

82a
supposed role in the shooting. And his recantation
came at great personal cost to Houghtaling because
by doing so, he admitted to perjury. That admission
resulted in him being sentenced to an additional fiveand-a-half years in prison. Those circumstances
suggest that his recantation is far more reliable than
his supposed confessions.
Moreover, there are reasons to doubt the
reliability of Houghtaling’s previous confessions.
During the Omaha interrogation, Houghtaling
testified that he was under the influence of drugs. A
recording of that interrogation lends credence to his
claim, as he sounds confused and disoriented, and
takes long pauses before answering questions.
Houghtaling further testified that the police obtained
his cooperation by lying to him that Smith, McMullan,
and Collett had already been charged and given
statements. One of his interrogators, Brogan,
confirmed that testimony. Houghtaling’s Omaha
interrogation also occurred two months after the
murders, giving him ample opportunity to learn about
the facts of the murder and recite a story that
accorded with those facts. See Ticey v. Peters, 8 F.3d
498, 503 (7th Cir. 1993) (“[I]f a significant amount of
time passes between a crime and a statement, a
greater opportunity exists for a witness to fabricate a
story and an identification.”). Indeed, not a single fact
Houghtaling recounted in that Omaha police
interview was unknown to the public. Many other
facts he recounted were wrong. For example, he said
there were a few other people at the Burrito Express
when he and Smith entered, when in fact Briseno and
Pardo were the only people there. And Houghtaling
also claimed that only Briseno was chasing him and

83a
Smith even though Pardo has consistently stated that
he joined Briseno in chasing the masked men as well.
Furthermore, the interrogating officers used leading
questions to adduce many of the correct facts.
Despite
the
apparent
unreliability
of
Houghtaling’s Omaha statement, the State used it to
form the core of its case against Smith and his
purported accomplices. This alone casts doubt on the
reliability of Houghtaling’s subsequent testimony at
McMullan’s trial and Smith’s second trial. Yet that is
not the only reason the reliability of his subsequent
testimony should be questioned. Most significantly,
Houghtaling had an incentive to lie because by
promising to testify against Smith and McMullan, he
received a reduced twenty-year sentence instead of a
maximum sixty-year sentence. Furthermore, for his
trial testimony, he had the benefit of reviewing nearly
everything in the State’s file, such as police reports
and witness statements, allowing him to tailor his
story to be consistent with the available evidence.
While the Court agrees with Smith that the prior
inconsistent statements—and the State’s primary
evidence—suffer a troubling lack of reliability, it
cannot agree that the Appellate Court erred in
affirming the admission and use of those statements.
As an initial matter, the Court cannot overturn even
an erroneous state evidentiary ruling on habeas
review when it does not result in the denial of a
specific constitutional right. See Anderson v. Sternes,
243 F.3d 1049, 1053 (7th Cir. 2001). While it is true
that the Seventh Circuit has established a test for
evaluating whether the admission of a witness’s prior
inconsistent statement violates due process and has

84a
applied it in the habeas context, see Ticey, 8 F.3d 498,
it did so in a case decided before AEDPA. AEDPA now
requires that the decision be contrary to or an
unreasonable application of federal law as
determined by the Supreme Court. And Smith cannot
point to an equivalent Supreme Court decision. See
United States ex rel. Wilson v. McAdory, No. 00 C
1957, 2004 WL 524435, at *5 (N.D. Ill. Mar. 10, 2004)
(“Wilson points to no Supreme Court precedent that
clearly establishes that it violates due process to
admit into evidence the prior inconsistent statements
of witnesses who change their stories at trial when
those witnesses are available for cross-examination
by the defendant. Indeed, Supreme Court precedent
suggests just the opposite.”). Moreover, Smith is
incorrect when he asserts that for Jackson purposes,
a guilty verdict cannot be based solely on a prior
inconsistent statement. Rather, so long as a prior
inconsistent statement is reliable, it can, by itself,
support a conviction. Ticey, 8 F.3d at 503–04. While
Smith persuasively contests the reliability of
Houghtaling’s prior inconsistent statements, he does
not challenge the constitutionality of their admission.
Absent some constitutional grounds for doing so, this
Court cannot overturn on collateral review the state
court’s finding that the testimony was reliable and
therefore admissible—no matter how questionable
that ruling may have been. The cases Smith cites to
as showing that a court can overturn a conviction
based on a single prior inconsistent statement were
heard on direct review and thus not subject to
AEDPA’s highly deferential standard of review. See
United States v. Orrico, 599 F.2d 113 (6th Cir. 1979)
(direct appeal); United States v. Bahe, 40 F. Supp. 2d

85a
1302 (D.N.M.
acquittal).

1998)

(motion

for

judgment

of

Not only does Smith point out numerous flaws in
the State’s main evidence against him, he points to
persuasive evidence that the DeCicco Group
committed the crime for which he was convicted.
Specifically, all three members of the DeCicco Group
each independently confessed to their involvement in
the events of the evening of March 6, 2001. DeCicco
and Hiland, in particular, confessed their
involvement multiple times. DeCicco confessed to at
least six people over the course of five years, including
twice to the police. Hiland confessed to at least four
people over a two-year period. And a fellow inmate
reported that Levand confessed his involvement over
ten years later while the two were incarcerated
together. Importantly, their confessions contained
non-public facts concerning the crime that police had
withheld in order to corroborate potential confessions.
For example, DeCicco knew both that Briseno yelled
something into a passing car and that one of the
masked men hit Briseno on the head with his gun.
Similarly, Hiland stated that Levand had hit Briseno
on the head with his gun. On the other hand, none of
Houghtaling’s confessions supplied these details.
Furthermore, there were other details concerning
the DeCicco Group that are consistent with the
physical evidence and testimony in the case. Pardo
testified that one of the masked men had slipped and
fallen on ice during the pursuit. And two individuals
who had encountered Hiland in the days following the
shooting observed that his hands and forearms were
bandaged, and another noticed that he had cuts and

86a
scrapes on his body. By contrast, Weisenberger, who
had seen Smith, Houghtaling, Collett, and McMullan
on the night of the crime, testified that he saw no
blood or scratches on any of them. Both Levand and
DeCicco’s confessions also provided explanations as to
the lack of physical evidence. Specifically, each
explained that the DeCicco Group had burned their
bloody clothes and that DeCicco’s car was taken to
Wisconsin and burned. Notably, DeCicco’s car was, in
fact, found in Wisconsin where it had been destroyed
by burning.
In the Court’s view, the evidence of the DeCicco
Group’s involvement is highly compelling if not
conclusive. At the very least, the Court is confounded
as to how that evidence could not give a rational jury
reasonable doubt as to Smith’s guilt. Especially in
combination with the exceedingly thin evidence
supporting Smith’s convictions, the Court is
concerned that a miscarriage of justice has occurred
here. Yet, Smith faces the twin obstacles imposed by
Jackson and AEDPA. Unfortunately, there are
situations where “judges will . . . encounter
convictions that they believe to be mistaken, but they
must nonetheless uphold.” Cavazos v. Smith, 565 U.S.
1, 2 (2011). Such is the case here. So long as the record
is not “devoid of evidence” of a habeas petitioner’s
guilt, the Court reads the governing Supreme Court
and Seventh Circuit precedent as constraining it from
weighing the evidence or second guessing the jury.
United States v. Smith, 576 F.3d 681, 686 (7th Cir.
2009). Here, the jury had evidence in the form of
Houghtaling’s recanted confession along with one
additional piece of evidence linking Smith to the
crime—the green jacket worn by Houghtaling and

87a
identified by Pardo as the same green jacket worn by
one of the masked men. Accordingly, the Court must
deny Smith’s habeas petition to the extent it argues
that his convictions were based on insufficient
evidence.
II. Evidentiary Challenges
As an alternative to the reversal of his
convictions, Smith asks that this Court vacate his
convictions so that he can be retried. According to
Smith, such habeas relief is warranted because the
Appellate Court affirmed the exclusion of certain
evidence in violation of his due process right to
present a complete defense. In addition, the Appellate
Court incorrectly found that the trial court did not
violate his rights under the Confrontation Clause of
the Sixth Amendment by limiting his crossexamination of certain witnesses. Even if those errors
were harmless, Smith argues that, considered
together, they deprived him of his right to a
fundamentally fair trial.
A. Exclusion of Evidence Bearing on the
DeCicco Group’s Involvement
“Few rights are more fundamental than that of an
accused to present witnesses in his own defense.”
Chambers v. Mississippi, 410 U.S. 284, 302 (1973).
Accordingly, the Supreme Court has held that,
“[w]hether rooted directly in the Due Process Clause
of the Fourteenth Amendment, or in the Compulsory
Process or Confrontation clauses of the Sixth
Amendment,” criminal defendants are guaranteed “a
meaningful opportunity to present a complete

88a
defense.” Crane v. Kentucky, 476 U.S. 683, 690 (1986)
(internal quotation marks and citations omitted). At
the same time, “state and federal rulemakers have
broad latitude under the Constitution to establish
rules excluding evidence from criminal trials.”
Holmes v. South Carolina, 547 U.S. 319, 324 (2006).
Yet, that latitude has limits. Id. Thus, where an
evidentiary rule infringes on a criminal defendant’s
right to present a complete defense and is “arbitrary
or disproportionate to the purposes [it is] designed to
serve,” the rule must yield. Id. at 324–25 (internal
quotation marks omitted).
Smith argues that the trial court violated his
right to present a complete defense when it excluded
testimony that would have supported his defense that
the DeCicco Group committed the crime. Part of the
right to present a complete defense is the ability for a
defendant to submit evidence showing that someone
else committed the crime. Id. at 327. Smith contends
that the trial court violated his right by excluding
testimony probative of the DeCicco Group’s
connection to and motive for robbing the Burrito
Express, as well as testimony showing that Hiland
confessed his involvement to an attorney.
As an initial matter, the Court must resolve
whether it reviews the exclusion of testimony de novo
or under AEDPA’s standard of review. AEDPA’s
highly deferential standard of review only applies to
federal claims that were “adjudicated on the merits in
State court proceedings.” See 28 U.S.C. 2254(d); Cone
v. Bell, 556 U.S. 449, 472 (2009). Where the state
court does not reach the merits of a federal
constitutional issue, AEDPA’s standard of review

89a
gives way and the federal claim is reviewed de novo.
Cone, 556 U.S. at 472. Specifically, the court is to
“dispose of the matter as law and justice require.”
Harris v. Thompson, 698 F.3d 609, 623 (7th Cir. 2012)
(quoting 28 U.S.C. § 2243). However, “[w]hen a
federal claim has been presented to a state court and
the state court has denied relief, it may be presumed
that the state court adjudicated the claim on the
merits in the absence of any indication or state-law
procedural principles to the contrary.” Harrington v.
Richter, 562 U.S. 86, 99 (2011). Moreover, AEDPA
deference “does not require the state court to have
expressly considered federal law, much less to have
cited to Supreme Court precedent.” Makiel v. Butler,
782 F.3d 882, 905 (7th Cir. 2015).
Here, Smith argues that de novo review is
warranted because the Appellate Court only
addressed state evidence law and cited to state cases
in affirming the evidentiary exclusions. Yet, this is
not entirely true, as the Appellate Court made explicit
reference to Chambers v. Mississippi, 410 U.S. 284, in
affirming the exclusion of certain testimony. See
Makiel, 782 F.3d at 905 (declining to review state
court decision de novo where the state court cited
Chambers). Furthermore, “there are circumstances in
which a line of state precedent is viewed as fully
incorporating a related federal constitutional right.”
Johnson v. Williams, 568 U.S. 289, 298 (2013). And
many of the state court cases cited by the Appellate
Court in denying Smith’s evidentiary challenges
address the constitutional right to present a complete
defense, and some explicitly incorporate Chambers.
See, e.g., People v. Cruz, 643 N.E.2d 636, 650 (Ill.
1994); People v. Neely, 540 N.E.2d 931, 933 (Ill. App.

90a
Ct. 1989). While the Appellate Court did not explicitly
address all Smith’s federal claims, it did enough such
that it should be presumed to have done so. See Lee v.
Avila, 871 F.3d 565, 571 (7th Cir. 2017) (“We’ve
explained that under Richter and Williams, the state
courts must be given the benefit of the doubt when
their opinions do not cover every topic raised by the
habeas corpus petitioner.” (internal quotation marks
omitted)). Consequently, AEDPA’s standard applies.
i. Exclusion of Testimony Regarding Briseno’s
Drug Dealing
The trial court excluded testimony from Anderson
and two law enforcement officers that would have
shown that Briseno was a drug dealer who kept drugs
and cash at his restaurant and that Levand knew of
that fact, because the testimony did not have a close
enough connection with the crime. The Appellate
Court affirmed the exclusions, finding that the
proffered evidence did not bolster the admitted
evidence because it was not entirely consistent with
that evidence and would have confused the jury as to
the proper focus of the trial.
The Court finds that the Appellate Court’s
conclusion that evidence of Briseno’s drug dealing
activities did not bolster Smith’s evidence of the
DeCicco Group’s involvement was unreasonable.
Briseno’s drug dealing was highly probative in
establishing a motive for the DeCicco Group to rob the
Burrito Express and bolsters the motive evidence that
had been admitted. As the Appellate Court
recognized, the admitted evidence “reflected that the
DeCicco [G]roup had been doing drugs on the day of

91a
the shooting, ran out of drugs, and allegedly decided
to go out and commit a crime to obtain cash so that
they could purchase more drugs.” Smith, 2013 WL
2382284, at *34. Incredibly, the Appellate Court
found that the admitted testimony that members of
the DeCicco Group were considering stealing money
to buy drugs was not consistent with the proffered
testimony concerning the presence of drugs at Burrito
Express because the DeCicco Group sought only to
steal money so they could later buy drugs. Of course,
it should be obvious that people who are seeking to
steal money for the express purpose of buying drugs
would find a restaurant that they believed to contain
both money and drugs to be an extremely attractively
target. Yet, the Appellate Court defied reason and
logic in essentially concluding that the DeCicco Group
was willing to steal money to purchase drugs but
could not possibly have contemplated cutting out that
middle step and just stealing the drugs.
Indeed, the presence of drugs at the Burrito
Express is highly probative motive evidence for the
DeCicco Group. Their ultimate goal was to obtain
drugs. Based on the admitted evidence, the jury could
as easily conclude that the DeCicco Group would
snatch a purse as they would rob a restaurant. The
excluded testimony that Briseno sold drugs from the
Burrito Express and one of the DeCicco Group knew
it would have bolstered the narrative link bringing
together the DeCicco Group, their desire for drugs,
and the robbery of the Burrito Express. See Old Chief
v. United States, 519 U.S. 172, 187 (1997) (“Evidence
. . . has force beyond any linear scheme of reasoning,
and as its pieces come together a narrative gains
momentum, with power not only to support

92a
conclusions but to sustain the willingness of jurors to
draw the inferences, whatever they may be, necessary
to reach an honest verdict. This persuasive power of
the concrete and particular is often essential to the
capacity of jurors to satisfy the obligations that the
law places on them.”). Even crediting the Appellate
Court’s explanation that the DeCicco Group simply
was looking for money, Anderson would have testified
that he told Levand that Briseno kept large amounts
of cash at the Burrito Express. And, given their
knowledge that Briseno dealt drugs from the Burrito
Express, the DeCicco Group likely would have
believed that they would find more money there than
at the average restaurant. Cf. United States v.
Lawrence, 788 F.3d 234, 242 (crediting expert
testimony that large amounts of cash are associated
with drug trafficking); United States v. Sewell, No. 11CR-35-TLS, 2013 WL 6237986, at *8 (N.D. Ind. Dec.
3, 2013) (noting that large amounts of cash is evidence
consistent with large-scale drug dealing). Faced with
a man sentenced to 67 years in prison on an extremely
thin evidentiary basis, the Appellate Court’s
conclusion that this evidence was not relevant was
unreasonable.
Further, the Court cannot find that the risk of
confusing the jury by directing its attention to
Briseno’s drug dealing justifies the exclusion of
important evidence regarding the DeCicco Group’s
motive to rob the Burrito Express. First, the Court is
not convinced that such testimony carries a
significant risk of directing the jury’s focus away from
the murder and to Briseno’s drug dealing. Indeed, the
Appellate Court makes no attempt to even explain
how that the excluded evidence could induce the jury

93a
to decide the case on an improper basis. The primary
issue before the jury was whether Smith,
Houghtaling, McMullan and Collett or the DeCicco
Group committed the crime. Briseno’s drug dealing
goes to that issue and would not induce the jury to
deviate from “their true task: deciding defendants’
guilt or innocence.” United States v. Trent, 863 F.3d
699, 705 (7th Cir. 2017). In addition, the Appellate
Court seemed to disparately apply the evidentiary
rules in a way that substantially disfavored Smith.
See Kubsch v. Neal, 838 F.3d 845, 858 (7th Cir. 2016)
(noting that a court cannot exclude evidence “in an
arbitrary manner in the case at hand. Arbitrariness
might be shown by a lack of parity between the
prosecution and defense”). Whereas the trial court
excluded evidence of Briseno’s drug dealing, it
admitted evidence concerning Smith’s drug use.
While the Appellate Court found that the admission
of evidence concerning Smith’s drug use was harmless
error, it then inconsistently insisted that the highly
probative evidence of Briseno’s drug dealing was so
powerful that it would confuse the jury as to the
issues in the case. Such disparate rulings underscore
how the Appellate Court unfairly favored the
prosecution and undermined Smith’s ability to
present a complete defense.
Moreover, it was unreasonable for the Appellate
Court to conclude that the exclusion was harmless
error that did not substantially prejudice Smith
because the testimony would have been cumulative of
admitted testimony regarding the DeCicco Group’s
various confessions. “When reviewing a state-court
judgment in a habeas corpus proceeding, we ask
whether the error ‘had substantial and injurious

94a
effect or influence in determining the jury’s verdict.’”
Rhodes v. Dittman, 903 F.3d 646, 665 (7th Cir. 2018)
(quoting Fry v. Pliler, 551 U.S. 112, 116 (2007)). For
an error to have a substantial influence on the jury’s
verdict it is not enough that there was a “reasonable
possibility that the error was harmful.” Davis v.
Ayala, 135 S. Ct. 2187, 2198 (2015) (internal
quotation marks omitted). Rather, the defendant
must actually be prejudiced by the error. Id. The
Appellate Court failed to recognize the important
ways in which the proffered testimony bolsters the
narrative surrounding the DeCicco Group’s
confessions by providing further context for their
motive. The admitted confession evidence did not
supply a motive for robbing the Burrito Express. And
without such evidence, the jury was left to wonder
exactly why either the DeCicco Group or Smith and
his friends would believe that a burrito restaurant
with no customers at dinner time would be a lucrative
target for a robbery. Smith should have been able to
introduce the testimony to complete his narrative of
the DeCicco Group’s actions and present a complete
defense. His inability to do so leaves this Court with
a “grave doubt about whether [the] error of federal
law had a ‘substantial and injurious effect or
influence in determining the jury’s verdict.’” Id. at
2198 (quoting O’Neal v. McAninch, 513 U.S. 432, 436
(1995)). Thus, the Appellate Court’s conclusion that
there was no constitutional violation on account of the
exclusion was an unreasonable application of Holmes,
Crane, and Chambers.
ii. Exclusion of Testimony Regarding Hiland’s
Confession to a Lawyer

95a
While the trial court allowed Trumble to testify
that Hiland confessed to him, it sustained the State’s
objection to Trumble’s testimony that he was present
when Hiland repeated the confession to a defense
attorney. Specifically, it allowed Trumble to testify
that he heard Hiland confess again but prevented
Trumble from testifying that it was in front of a
criminal defense attorney. The Appellate Court
affirmed the exclusion, finding that the fact that the
confession was made in front of an attorney did not
imbue the confession with trustworthiness.
The Appellate Court’s decision was based on its
application of Illinois case law finding inadmissible as
hearsay an extrajudicial declaration by a declarant
that he committed a crime rather than the defendant
on trial, and the attendant exception admitting such
hearsay where justice requires. See, e.g., People v.
Bowel, 488 N.E.2d 995, 999 (Ill. 1986). Yet, as the
Appellate Court recognized, there are no hard and
fast requirements for against-penal-interest hearsay
to be considered reliable. See People v. House, 566
N.E.2d 259, 289 (Ill. 1990). Moreover, the Illinois case
law relies heavily on the Supreme Court’s decision in
Chambers v. Mississippi. And the Supreme Court’s
core holding in that case was that where testimony
was critical to the accused’s defense and
“constitutional
rights
directly
affecting
the
ascertainment of guilt are implicated, the hearsay
rule may not be applied mechanistically to defeat the
ends of justice.” Chambers, 410 U.S. at 302. Yet, that
is exactly what the Appellate Court did here to
exclude the fact that Hiland confessed in front of a
defense attorney. It mechanistically applied a single
factor for reliability it derived from one Illinois case,

96a
People v. Human, 773 N.E.2d 4, 11 (Ill. App. Ct. 2002),
to insist that the information must make it more
likely that Hiland would be prosecuted and refused to
entertain Smith’s contentions as to why the fact that
the confession occurred in front of a defense attorney
made it more reliable.8
Although the fact that Hiland confessed in front
of an attorney might not have made it more likely that
he would be prosecuted, the Court nonetheless finds
that it provides important context to his confession
and enhances its reliability. In asking the jury to
disregard the DeCicco Group’s various confessions,
the State sought to convince the jury that each
member was simply lying. And certainly, a jury could
believe that confessions to friends and family could
simply be the tall tales of drug addicts or attempts to
prove their toughness. Indeed, at one point, the State
suggested that Hiland confessed to his sister
McCauley in an attempt to convince her to give him
money for drugs. (App., Ex. 25 at R006762–64.)
The Appellate Court’s citation to cases applying the againstpenal-interest exception to the rule against hearsay to justify its
affirmance of the exclusion of the fact that Hiland confessed in
front of an attorney is particularly non-sensical given that the
actual fact of confession was admitted. Yet, the exception
concerns the admissibility of the confession rather than the
details that render it reliable. Specifically, “[w]here there are
sufficient indicia of trustworthiness” of the confession, it may be
admissible under the exception. House, 566 N.E.2d at 289. Thus,
under the Appellate Court’s logic, the trial court could reach the
paradoxical conclusion that the fact of the confession was
trustworthy enough to be admitted even though pertinent
contextual details surrounding the confession did not imbue the
confession with trustworthiness such that they were relevant.
8

97a
However, the fact that Hiland sought out a defense
attorney tends to show how seriously he took the legal
jeopardy he was facing on account of the acts to which
he confessed. That Hiland took the affirmative step to
seek out legal counsel adds important context to that
particular confession and enhances its credibility.
Thus, the Appellate Court was simply wrong to
conclude that the fact that Hiland confessed to a
defense attorney did not enhance the credibility of the
confession.
Even if the trial court erred in preventing
Trumble from testifying that Hiland confessed to a
defense attorney, the Appellate Court stated that the
error would have been harmless. It reasoned that the
jury had already heard from DeCicco that Hiland had
spoken to an attorney out of fear of being prosecuted
for his role in the Burrito Express shooting. Omitted
from DeCicco’s testimony was the fact that Hiland
confessed his involvement to the attorney. It should
be obvious that one who fears prosecution would seek
legal counsel regardless of whether he actually
committed the crime of which he is accused. The fact
that Hiland confessed to that attorney provides
critical detail as to the purpose of his meeting with an
attorney that DeCicco’s testimony did not supply.
Moreover, the Appellate Court’s erred in conflating
corroborative testimony with cumulative testimony.
“[T]estimony of additional witnesses cannot
automatically be categorized as cumulative and
unnecessary.” Crisp v. Duckworth, 743 F.2d 580, 585
(7th Cir. 1984). While DeCicco provided only a
hearsay recollection of the fact, Trumble’s excluded
testimony would have been direct testimonial
evidence that Hiland sought legal counsel for his

98a
involvement in the Burrito Express robbery. These
two independent sources, taken together, strengthen
the factual assertion that Hiland, in fear of legal
jeopardy, actually sought out a defense attorney. And
evidence that adds significant weight and credibility
to evidence already in the record is not merely
cumulative. See Washington v. Smith, 48 F. Supp. 2d
1149, 1164 (E.D. Wis. 1999). In preventing Smith
from eliciting from Trumble that he witnessed Hiland
confess in front of an attorney, the trial court
hindered Smith’s ability to present a complete
defense. The Appellate Court’s conclusion to the
contrary was an unreasonable application of clearly
established federal law.
B. Limitations on Cross-Examination
The Sixth Amendment to the United States
Constitution gives an accused the right “to be
confronted with the witnesses against him.” U.S.
Const. amend. VI. A criminal defendant’s
confrontation rights include more than simply “being
allowed to confront the witness physically.” Davis v.
Alaska, 415 U.S. 308, 315 (1974). Rather, the
Supreme Court has held that “[t]he main and
essential purpose of confrontation is to secure for the
opponent the opportunity of cross- examination.” Id.
at 315–16 (internal quotation marks omitted). “Crossexamination is the principal means by which the
believability of a witness and the truth of his
testimony are tested.” Id. at 316. Of course, “trial
judges retain wide latitude insofar as the
Confrontation Clause is concerned to impose
reasonable limits on such cross-examination based on
concerns about, among other things, harassment,

99a
prejudice, confusion of the issues, the witness’ safety,
or interrogation that is repetitive or only marginally
relevant.” Delaware v. Van Arsdall, 475 U.S. 673, 679
(1986). Under the Confrontation Clause, an opponent
is guaranteed “an opportunity for effective crossexamination, not cross-examination that is effective
in whatever way, and to whatever extent, the defense
might wish.” Id. Still, the cross-examiner must be
sufficiently able to “delve into the witness’ story to
test the witness’ perceptions and memory” and also be
“allowed to impeach, i.e., discredit, the witness.”
Davis, 415 U.S. at 316.
i. Impeachment of Pardo’s Identification of Green
Jacket
Smith contends that his Confrontation Clause
rights were violated because he was not allowed to
pursue a line of questioning on cross-examination
that would discredit Pardo’s in-court identification of
the green jacket linking Houghtaling and, in turn,
Smith, to the Burrito Express shooting. During his
trial testimony, Pardo was shown the green jacket
that Houghtaling wore the night of the crime. The
jacket, which was submitted into evidence, was
predominantly green with small areas of black on the
front, and had a green collar, three large front
pockets, a front zipper with a flap covering it, and
black elbow patches. Pardo testified that the jacket
appeared to be the same jacket that was worn by the
masked man without the gun.
On cross-examination, Pardo was asked about a
description of the green jacket he gave to the police in
the immediate aftermath of the shooting. Just hours

100a
after the shooting, Pardo described the jacket as
having black around the collar and stated that it did
not have pockets or a zipper. Yet, at trial, Pardo
stated he could not recall giving such a description. In
order to perfect the impeachment, Smith called the
officer to whom Pardo had described the jacket that
night. That officer was prepared to confirm that Pardo
had described the jacket as having dissimilar features
to the jacket submitted into evidence. However, the
trial court precluded Smith from asking the officer
questions regarding Pardo’s earlier description of the
jacket. The Appellate Court did not even try to defend
the trial court’s decision to disallow such questioning,
and instead simply held that any error was harmless.
The trial court’s decision to preclude Smith from
perfecting his impeachment of Pardo’s identification
of the green jacket based on its erroneous
interpretation of a state evidentiary rule clearly
violated Smith’s rights under the Confrontation
Clause. The trial court seemed to think that Pardo’s
description of the jacket on the night of the shooting
was not inconsistent with his trial testimony because
Pardo did not deny his description that night, but
simply stated he could not recall it. Of course, he did
identify a jacket at trial that had several features
inconsistent with the description he gave on the night
of the shooting. A past description of the jacket as
having green around the collar and no pockets and
zipper is certainly inconsistent with a later
identification of a jacket with none of those features.
See People v. Martinez, 810 N.E.2d 199, 210 (Ill. App.
Ct. 2004) (“The prior testimony need not directly
contradict testimony given at trial to be considered
‘inconsistent,’ and is not limited to direct

101a
contradictions but also includes evasive answers,
silence, or changes in position.” (citations omitted)).
Neither the Appellate Court nor the State argue
otherwise. Thus, the trial court deprived Smith of an
opportunity to effectively cross-examine Pardo
regarding his identification of the jacket by
preventing him from perfecting his impeachment of
Pardo’s identification based on its misapplication of
Illinois’ rules of evidence. Without the officer’s
testimony, Pardo’s identification was not fully
impeached. See United States v. Rivas, 831 F.3d 931,
934 (7th Cir. 2016) (“A Sixth Amendment violation
occurs when cross- examination limitations . . . deny
the defendant the opportunity to elicit testimony that
would be relevant and material to the defense.”
(internal quotation marks omitted)); United States v.
Scott, 145 F.3d 878, 888 (7th Cir. 1998) (“In
determining whether the Sixth Amendment is
implicated in a cross-examination denial, we focus on
whether there was sufficient information presented to
the jury for its appraisal of the witness.”). At most, the
jury learned that Pardo could not recall his previous
description of the jacket. But it did not learn that the
jacket he described that night actually varied in a
significant manner from the jacket submitted into
evidence at trial.
While implicitly conceding error, the Appellate
Court nonetheless concluded that the trial court’s
error was harmless. The harmless error analysis
applies when a court has denied a defendant an
opportunity to impeach a witness in violation of the
Confrontation Clause. Van Arsdall, 475 U.S. at 684.
In undertaking the harmless error analysis in a

102a
Confrontation Clause case, courts consider a variety
of factors, including:
the importance of the witness’ testimony in the
prosecution’s case, whether the testimony was
cumulative, the presence or absence of evidence
corroborating or contradicting the testimony of
the witness on material points, the extent of
cross-examination otherwise permitted, and, of
course, the overall strength of the prosecution’s
case.
Id.
Here, the Appellate Court found that the trial
court’s error was harmless beyond a reasonable
doubt. In reaching that conclusion, it failed to address
any of the factors courts look to in determining
whether a Confrontation Clause violation is
harmless. Instead, it simply stated that the
discrepancies between Pardo’s earlier description of
the jacket and the jacket submitted to the jury were
minor. The Court disagrees with the characterization
of those inconsistencies as minor. While Pardo told
the police that the jacket had black just around the
collar area, Houghtaling’s jacket submitted into
evidence had an entirely green collar. The Appellate
Court dismissed the inconsistency by pointing out a
small black patch underneath the collar. However, a
small black embellishment underneath the back of
the collar hardly equates to black around the collar.
In addition, the Appellate Court excused Pardo’s
earlier failure to observe a zipper by noting that the
zipper on Houghtaling’s jacket was obscured by a flap.
That conclusion is more justifiable, although the flap

103a
itself quite visibly divides the jacket in the same
manner as a zipper. Finally, the Appellate Court
simply ignores the fact that Pardo previously stated
that the green jacket had no pockets in the front even
though the jacket viewed by the jury had three large
and easily visible front pockets. Thus, the jacket seen
by the jury had at least two significant deviations
from the jacket Pardo described to police.
The Appellate Court further asserted that the
jury was made aware of inconsistencies in Pardo’s
identification of the jacket because on direct
examination Pardo described a green jacket, but the
jurors viewed the jacket and saw areas of black.
Furthermore, the Appellate Court noted that in his
closing statement, Smith argued that Pardo could not
recall whether he told the police that the jacket had
zippers or pockets and therefore had put the issue of
Pardo’s lack of memory before the jurors. Both these
contentions simply highlight the Appellate Court’s
critical analytical error. The issue was not simply
about Houghtaling’s imperfect memory. Rather, it
was about the fact that his memory of the jacket at
trial—almost eleven years after Burrito Express
shooting—was inconsistent with his description given
just hours after the shooting. And the jury never
learned of that inconsistency. The excluded testimony
would have directly called Pardo’s trial identification
of the green jacket into question by highlighting how
it materially differed from his near-contemporaneous
description of the jacket to police.
Applying the Van Arsdall factors demonstrates
the substantial and injurious influence the trial
court’s error had on the jury verdict. First, as the sole

104a
available eyewitness to the crime, Pardo’s testimony
was undeniably critical to the prosecution’s case.
Similarly, his testimony was not cumulative because
Pardo was the only person who could describe the
green jacket worn by the masked man without a gun
to the jury. And not only was there no evidence
corroborating Pardo’s identification of Houghtaling’s
green jacket worn as the same one worn by one of the
masked men, but the trial court excluded the only
available evidence contradicting Pardo’s testimony
when it prohibited Smith from perfecting his
impeachment. Thus, Smith was effectively prevented
from impeaching the only eyewitness testimony
linking Houghtaling, and therefore Smith, to the
scene of the crime.
Finally, and most critically, the Court must
consider the strength of the prosecution’s case. As
explained above, the prosecution’s case against Smith
was extremely weak. Its primary evidence in support
of Smith’s guilt were Houghtaling’s recanted
confessions and the green jacket. And Pardo’s
identification of the green jacket worn was key to
tying Houghtaling and Smith to the scene of the
crime. In turn, that link easily could have led the jury
to believe Houghtaling’s confession over the DeCicco
Group’s various confessions. But without the
perfected impeachment, “the jury was left without
key facts relevant to” evaluating the credibility of
Pardo’s trial identification. Rhodes, 903 F.3d at 667;
see also Van Arsdall, 475 U.S. at 680 (holding that
there is a violation of the Confrontation Clause when
a “reasonable jury might have received a significantly
different impression of [the witness’s] credibility had
[defense] counsel been permitted to pursue his

105a
proposed line of cross-examination”); Jones v.
Basinger, 635 F.3d 1030, 1040 (7th Cir. 2011) (“A
rigorous cross-examination may bring to light a
variety of reasons to doubt a witness’s testimony,
ranging from innocent failures in perception and
memory to biases, prejudices, or ulterior motives, or
outright inconsistencies and falsehoods.”). In a case
built on a legally sufficient but extremely weak
evidentiary foundation, the trial court’s erroneous
exclusion of admissible impeachment testimony had a
substantial injurious effect on the jury’s deliberations
to Smith’s great prejudice. Consequently, the
Appellate Court’s conclusion that the trial court’s
error was harmless was an unreasonable application
of clearly established federal law.
ii.

Limitation on
Examination

Houghtaling’s

Cross-

The trial court limited Houghtaling’s crossexamination in two ways. First, it precluded Smith
from asking Houghtaling questions about how he
learned of basic facts concerning the shooting that he
supplied in his recanted confessions. It also sustained
the State’s objections to questions seeking to elicit
testimony concerning Houghtaling’s refusal to testify
at the first trial. Smith argues that by affirming the
trial court’s limitations, the Appellate Court violated
his rights under the Confrontation Clause.
The jury did hear Houghtaling testify that, prior
his Omaha interrogation, he had learned details of
the Burrito Express shooting from newspaper articles
and word of mouth. When Smith began to ask about
where Houghtaling learned each discrete fact he

106a
disclosed during that interview, the State objected
and the trial court sustained its objections due to lack
of foundation. The trial court insisted that, for each
fact, Houghtaling needed to supply which newspaper
or person he learned the fact from. Given the passage
of time, Houghtaling was not able to supply such
detail and consequently Smith abandoned this line of
questioning. The Appellate Court agreed with the
trial court’s decision to exclude the testimony for lack
of foundation.
This Court finds that the Appellate Court did not
unreasonably apply Davis and Van Arsdall in
foreclosing Smith from questioning Houghtaling as to
where he learned each individual fact he supplied in
his first confession. Judges are permitted to impose
reasonable limits on cross- examination. Van Arsdall,
475 U.S. at 679. This particular limitation was not
unreasonable. The jury heard Houghtaling testify
generally that he learned about the crimes from the
press and word of mouth. Furthermore, it learned
during trial that each of the facts that Houghtaling
set forth in his confession was publicly known at the
time, a point that Smith emphasized in his closing
argument. Allowing Houghtaling to testify how he
learned each fact he disclosed to the police would not
significantly add to what the jury already knew. Thus,
there was no Sixth Amendment violation because the
trial court’s limitation did not prevent Smith from
eliciting testimony that was relevant and material to
his defense. See Rivas, 831 F.3d at 934.
Smith further argues that the Appellate Court
committed a clear factual error in affirming the trial
court’s exclusion of Houghtaling’s testimony that he

107a
refused to testify at Smith’s first trial because Smith
was innocent. The Appellate Court concluded that
Houghtaling’s decision not to testify does not
necessarily reflect that he would have exculpated
Smith. Instead, Smith may well have inculpated him.
In response, Smith says that the Appellate Court’s
conclusion is belied by Smith’s offer of proof that
Houghtaling would testify that the reason for his
refusal to testify is because he believed that neither
he nor Smith was involved in the Burrito Express
shooting.
The
Appellate
Court
determined
that
Houghtaling’s testimony was a prior consistent
statement used to corroborate his testimony at the
third trial and thus was only admissible to rebut an
accusation that Houghtaling was motivated to lie or
his testimony was of recent fabrication. See People v.
Smith, 841 N.E.2d 489, 504–505 (Ill. App. Ct. 2005)
(“A witness’s prior consistent statement is admissible
only to rebut a charge or inference that he was
motivated to lie or that his testimony was of recent
fabrication, so long as he made the prior statement
before either the motive arose or the alleged
fabrication was made.”). In observing that
Houghtaling may well have inculpated Smith at the
first trial, the Appellate Court was simply explaining
its conclusion that Houghtaling’s invocation of the
Fifth Amendment was not necessarily corroborative
of his testimony at the third trial. That conclusion was
not unreasonable, as Houghtaling’s explanation of his
refusal to testify at Smith’s first trial—made almost
eight years after the fact—does not irrefutably
establish the substance of what his testimony at the
first trial would have been. As an additional basis for

108a
affirming the trial court, the Appellate Court
explained that Houghtaling’s testimony was
inadmissible because Smith failed to establish that
Houghtaling did not have the same motivation to lie
at the first trial as he did at the third trial.
Presumably, Houghtaling’s motive to lie at Smith’s
most recent trial was to protect Smith, and there is no
reason to believe that the same motive did not exist
when he refused to testify at the first trial.
Consequently, excluding Houghtaling’s testimony
about his refusal to testify at Smith’s first trial was
reasonable. And given all the other testimony and
evidence the jury heard concerning Houghtaling’s
belief in Smith’s innocence, this limitation on crossexamination did not violate the Sixth Amendment.
iii. Limitation on Wigman’s Cross-Examination
During Wigman’s testimony, Smith attempted to
ask questions regarding the John Reid interrogation
method. His purpose for this line of questioning was
to show that Houghtaling’s first confession was
unreliable and did not contain any corroborating
details. The trial court excluded the testimony as
irrelevant because Wigman was not the officer who
interrogated Houghtaling in Omaha. In affirming, the
Appellate Court also noted that the testimony would
have been cumulative since the officer that did
interview Houghtaling, Brogan, was cross-examined
concerning the John Reid method.
The Court agrees that the excluded testimony
was cumulative. While Wigman may have been able
to add additional details not elicited from Brogan,
Smith fails to explain what exactly Wigman would

109a
add to Brogan’s testimony or how any additional
information would have been more than marginally
relevant. The Sixth Amendment guarantees only the
“opportunity for effective cross-examination, not
cross-examination that is effective in whatever way,
and to whatever extent, the defense might wish.” Van
Arsdall, 475 U.S. at 679. Here, Smith had the
opportunity to cross-examine a witness regarding the
John Reid method. The fact that he was unable to
engage in a similar line of questioning with another
witness, by itself, does not amount to a Sixth
Amendment violation.
C. Cumulative Error
In addition to the previously identified
constitutional errors, Smith argues that there were
several other trial errors that, taken together,
deprived him of his due process right to a fair trial.
Normally, “[b]ecause a state trial court’s evidentiary
rulings . . . turn on state law, these are matters that
are usually beyond the scope of federal habeas
review.” Perruquet v. Briley, 390 F.3d 505, 511 (7th
Cir. 2004). Such errors are only cognizable by a
habeas court when the “erroneous evidentiary rulings
were so prejudicial that they compromised the
petitioner’s due process right to a fundamentally fair
trial.” Anderson, 243 F.3d at 1053 (internal quotation
marks omitted). The Supreme Court has held that
trial errors that, when considered alone, were
harmless may nonetheless violate the due process
guarantee of fundamental fairness when considered
cumulatively. Taylor v. Kentucky, 436 U.S. 478, 487
n.15 (1978). In the Seventh Circuit, a habeas court
may consider whether the cumulative effect of a trial

110a
court’s harmless errors violated a defendant’s due
process rights. Alvarez v. Boyd, 225 F.3d 820, 824 (7th
Cir. 2000) (“Trial errors which in isolation are
harmless might, when aggregated, alter the course of
a trial so as to violate a petitioner’s right to due
process of law.”).9
Smith asserts that his cumulative error claim is
subject to de novo review rather than AEDPA
deference. Specifically, he says that while the
Appellate Court recognized two harmless errors, it
failed to adjudicate his cumulative error claim on the
merits because it did not consider whether the errors
were still harmless when considered collectively.
Smith is incorrect, as the Appellate Court explicitly
stated that “[l]ooking at the matters cumulatively, the
record reveals that the trial, taken as a whole, was
fair.” Smith, 2013 WL 2382284, at *52. And while it
cited only state law cases, those cases contained no
indication or state law procedural principles
suggesting the federal issue was not also decided. As
a result, the Court will apply AEDPA deference to
Smith’s cumulative error claim.

Not all Circuits accept that cumulative error is cognizable on
habeas review. See Dixon v. Hardy, No. 10 C 06727, 2013 WL
5518902, at *6 (N.D. Ill. Oct. 4, 2013) (noting that the Fourth,
Sixth, and Eighth Circuits do not recognize cumulative error
claims as cognizable in habeas proceedings). In Alvarez, the
Seventh Circuit recognized as much but declined to consider the
issue because neither party raised it. Notwithstanding this
caveat, the Seventh Circuit has subsequently treated Alvarez as
standing for the proposition that a claim of cumulative error is
cognizable in habeas proceedings. See Anderson, 243 F.3d at
1055.
9

111a
i. Additional State Court Evidentiary Errors
In undertaking its cumulative error review,
Smith asks the Court to consider not only the trial
court’s errors of constitutional significance, but also
four
additional
errors
predicated
on
the
10
misapplication of Illinois evidentiary rules.
Thus,
the Court will first consider whether those additional
evidentiary rulings were in fact erroneous before
undertaking its cumulative error review.
a) Weisenberger’s Testimony About Drug Use
Over Smith’s objection, the trial court allowed
Smith’s friend Jimmy Weisenberger to testify about
his own drug use and that Smith, Houghtaling, and
Collett were smoking marijuana the night of the
shooting. Both the State and the Appellate Court
concede that this decision was an error. Nonetheless,
the Appellate Court agreed with the State that the
error was harmless, as it was cumulative of a
statement Houghtaling made during his Omaha
confession that he was smoking a joint the night of
the shooting with his purported accomplices. Because
the court’s evidentiary ruling was concededly an
Normally, the rule is that errors that are purely errors of state
evidence law cannot be the basis for habeas relief. Buie v.
McAdory, 341 F.3d 623, 625 (7th Cir. 2003). While it seems
incongruous then for a federal court to review the merits of a
state court’s evidentiary rulings as part of a cumulative error
claim, Seventh Circuit precedent suggests that it is permissible.
See Anderson, 243 F.3d at 1053–55. In any case, to the extent
such rulings are not reviewable even when determining
cumulative error, the State has failed to raise that argument and
therefore it is waived. Sanders v. Cotton, 398 F.3d 572, 582 (7th
Cir. 2005).
10

112a
error, the Court will consider it in the cumulative
error analysis.
b) Brogan’s Testimony Repeating Hearsay from
McMullan
During cross-examination, Smith asked Sergeant
Brogan, the lead detective investigating the Burrito
Express shooting, why he believed the weapon used
in the shooting was a revolver. In response, Brogan
stated that the police “believed it was a revolver based
on statements made by Miss McMullan.” (App., Ex.
23, at R006380.) At that point, Smith attempted to
withdraw the question. However, the State objected,
and the trial court instructed Brogan to finish his
response. Brogan proceeded to testify that “Miss
McMullan, for one, told us that she had seen Kenneth
Smith with a revolver.” Smith objected to the
testimony, but the trial court overruled the objection
because it was in response to Smith’s own question.
Smith argues that Brogan’s testimony was nonresponsive and designed to place inadmissible
evidence before the jury. He contends that the State
declined to call McMullan because of concerns about
her truthfulness and therefore it should not have been
allowed to bring her statements favorable to its case
through Brogan. However, the Appellate Court
affirmed the admission of that testimony, finding that
Smith had invited the error.
Under the invited error doctrine, a defendant is
barred “from claiming error in the admission of
improper evidence where the admission was procured
or invited by the defendant.” People v. Harvey, 813

113a
N.E.2d 181, 192 (Ill. 2004). Here, the Appellate Court
held that because Smith elicited Brogan’s testimony
through his cross-examination, Smith invited the
error. The Illinois Supreme Court has held that the
State is “not responsible for the questions asked by
the defense counsel on cross-examination nor the
answers thereto given by the State’s witness.” People
v. Burris, 273 N.E.2d 605, 610 (Ill. 1971). And courts
have applied the doctrine where a defendant’s
question on cross-examination elicits improper
testimony that otherwise would be excludable. See,
e.g., People v. Gray, 520 N.E.2d 93, 97 (Ill. App. Ct.
1988) (“It would be, of course, improper for the State
to elicit evidence of a defendant’s election to remain
silent after receiving the Miranda warnings.
However, here the information was given as an
answer to a question by defense counsel during crossexamination.” (citation omitted)). The Appellate
Court did not err in finding that the doctrine applied
to Brogan’s testimony regarding McMullan’s
statement. Smith cannot ask a question and then
withdraw it when he realizes that he is receiving an
answer that is unhelpful or even detrimental to his
case. For this reason, the admission of McMullan’s
statement will not be included in the cumulative error
analysis.
c) Collett’s Statements
Smith contends that the Appellate Court erred in
affirming the admission of several out-of- court
statements made by Smith’s purported accomplice,
David Collett. In particular, Smith asserts that the
trial court should not have allowed the admission of
Collett’s guilty plea based on his alleged role in the

114a
Burrito Express shooting, his apology to Briseno’s
family at his sentencing hearing, and three
statements he made to police regarding events on the
night of the shooting.
Each contested statement was admitted under
Illinois’ prior inconsistent statement exception to the
rule against hearsay. In Illinois, a prior inconsistent
statement is not rendered inadmissible by the
hearsay rule and may be admitted as substantive
evidence if
(a) the statement is inconsistent with [the
witness’s] testimony at the hearing or trial, and
(b) the witness is subject to cross-examination
concerning the statement, and
(c) the statement—
(1) was made under oath at a trial, hearing, or
other proceeding, or
(2) narrates, describes, or explains an event or
condition of which the witness had personal
knowledge, and
...
(B) the witness acknowledged under oath the
making of the statement either in his testimony
at the hearing or trial in which the admission into
evidence of the prior statement is being sought, or
at a trial, hearing, or other proceeding . . . .

115a
725 ILCS 5/115-10.1. A statement that fails to meet
any of the above criteria can still be used for
impeachment purposes. Id. However, a prior
inconsistent statement is only admissible to impeach
a party’s own witness where the witness’s testimony
“does ‘affirmative damage’ to the party’s case.” People
v. McCarter, 897 N.E.2d 265, 278 (Ill. App. Ct. 2008).
The Appellate Court held that Smith had
forfeited any challenge to the substantive admission
of Collett’s prior inconsistent statements because he
conceded in his post-trial motion that the statements
met the requirements of 725 ILCS 5/115-10.1. Smith
denies any such forfeiture and asserts that the record
shows that he made multiple objections to the
admission of the statements. It is true that Smith did
object to the admission of the statements. However,
at trial, the basis for his objections was that Collett
had not affirmatively damaged the State’s case and
therefore
his
inconsistent
statements
were
inadmissible for impeachment. And where a party
makes a specific objection, he “waive[s] all grounds
not specified.” People v. Eyler, 549 N.E.2d 268, 289
(Ill. 1989). Nonetheless, in his post-trial motion,
Smith explained that “the State’s sole purpose for
calling [Collett] was to impeach [him] with [his] prior
statements,” and those statements were hearsay that
“would have been inadmissible except as
impeachment.” (App., Ex. 6 at C004109, Dkt. No. 11.) Although Smith primarily challenged the
admissibility of the statements for impeachment,
implicit in his assertion that the statements could be
admissible only for impeachment was an objection to
their substantive use as well. Thus, the Appellate

116a
Court was incorrect to find that Smith forfeited any
challenge to the substantive use of the statements.
Despite its finding of forfeiture, the Appellate
Court nonetheless conducted plain error review of
Smith’s challenges to the substantive admission of
Collett’s prior inconsistent statements and concluded
that the trial court had committed no error in
admitting them. This Court analyzes each challenged
statement in turn.
First, while Smith states that Collett’s guilty plea
was improperly admitted, he does not make an
argument as to why it is not admissible under 725
ILCS 5/115-10.1. The fact that Collett testified that it
was a plea of convenience makes no difference. A prior
inconsistent statement “does not have to directly
contradict the testimony given at trial to be
considered ‘inconsistent.’” so long as the statement
“has a tendency to contradict the trial testimony.”
People v. Zurita, 693 N.E.2d 887, 891 (Ill. App. Ct.
1998). “Inconsistencies may be found in evasive
answers, silence, or changes in position.” Id. Thus,
Collett pleading guilty to his role in the Burrito
Express shooting certainly is inconsistent with his
trial testimony that he had “no clue” who attempted
to rob the Burrito Express.
Next, Smith argues that Collett’s apology to
Briseno’s widow at his sentencing hearing was not
inconsistent because he did not admit his guilt. It is
true that Collett’s apology did not directly admit guilt,
but a direct admission was not necessary for the
statement to be deemed inconsistent. At the very
least, the apology had the tendency to contradict his

117a
testimony that he had no knowledge concerning the
shooting. While the apology is undoubtedly open to
interpretation, the Appellate Court could reasonably
conclude that the trial court did not abuse its
discretion by finding that Collett’s apology was not for
Briseno’s widow’s grief, but for his role in causing the
grief. See id. (“The determination of whether a
witness’s prior testimony is inconsistent with his
present testimony is left to the sound discretion of the
trial court.”). Moreover, by saying during his apology
that “if I would have known that any of this would
have happened, I really would have tried to do
something to stop it,” Collett at least implicitly
suggests some knowledge. Again, the language is
open to multiple interpretations, but one reasonable
interpretation is that Collett confessed that he was
sufficiently involved in the crime such that he was in
the position to stop it.
Finally, Smith challenges several statements
Collett made to police two months after the shooting.
At trial, Collett said on the night of the shooting he
was walking to Cloud 9 when he heard a noise that
sounded like a car backfiring. By contrast, in his
statement to police, Collett described hearing
gunshots. Smith argues that Collett’s statement to
the police was taken out of context. What he said was
that he heard what sounded like a car backfiring and
then answered in the affirmative when the police
asked whether the sound could have been gunshots.
The Appellate Court found that it did not matter that
the police first suggested the possibility that the
sound could be gunshots. What mattered is that
Collett agreed. And by not mentioning in his
testimony at trial the possibility that the sound could

118a
have been gunshots, Collett’s answer could be deemed
sufficiently evasive such that the trial court did not
abuse its discretion in deeming his statement to police
inconsistent.
In addition, Collett told the police that shortly
after the shooting, Smith told him that some kids
robbed the Burrito Express. And when Collett asked
Smith what happened at the Burrito Express, Smith
replied “just had some fun.” Smith argues that those
statements were not substantively admissible
because they do not meet the personal knowledge
requirement of 725 ILCS 5/115-10.1. “For the
personal knowledge requirement to be satisfied, the
witness whose prior inconsistent statement is being
offered into evidence must actually have seen the
events which are the subject of that statement.”
McCarter, 897 N.E.2d at 276 (internal quotation
marks omitted). However, personal knowledge
requires that “the witness must have observed the
events being spoken of, rather than simply hearing
about them afterwards.” Id. Here, Smith contends
that Collett’s statements failed to meet the personal
knowledge requirement because he was simply
recounting what Smith told him. The Appellate Court
found that its decision was controlled by an Illinois
Supreme Court precedent finding admissible as a
prior inconsistent statement a witness’s statement in
which she recounted hearing the defendant confess to
the crime during the course of an argument with a
third person. See People v. Thomas, 687 N.E.2d 892,
902–03 (Ill. 1997). Instead of requiring the witness to
have personal knowledge of the underlying crime, the
Illinois Supreme Court simply held it sufficient that
the witness saw “the argument between defendant

119a
and [the third person] and her statement described
and narrated the event.” Id. at 902. While the
Appellate Court noted that other Illinois appellate
courts have uniformly disagreed that Thomas
established a rule that personal knowledge
encompasses not just what a witness has seen but
what he has been told, see People v. Morgason, 726
N.E.2d 749, 753–54 (Ill. App. Ct. 2000), it nonetheless
felt itself bound by the Thomas precedent. On habeas
review, where courts generally do not revisit purely
state law evidentiary issues, this Court does not
believe it appropriate to wade in on the disagreement
between appellate courts concerning the impact of
Thomas. See Bradshaw v. Richey, 546 U.S. 74, 76
(2005) (“We have repeatedly held that a state court’s
interpretation of state law, including one announced
on direct appeal of the challenged conviction, binds a
federal court sitting in habeas corpus.”). For present
purposes, it is enough that the Appellate Court’s
decision was grounded in Illinois Supreme Court
precedent.
In addition, the Appellate Court also concluded
that the contested statements were admissible for
impeachment because Collett’s trial testimony
affirmatively damaged its case. “For witness
testimony to be affirmatively damaging, it must do
more than fail to support the State’s position; it must
give ‘positive aid’ to the defendant’s case, for instance,
by being inconsistent with the defendant’s guilt under
the State’s theory of the case.” McCarter, 897 N.E.2d
at 278. Here, Collett’s testimony that he had no clue
who robbed the Burrito Express affirmatively
damaged the State’s case. The State’s theory of the
case was that Collett acted as a lookout while Smith

120a
and Houghtaling robbed the restaurant. That theory
was supported by Houghtaling’s Omaha confession
and his testimony at Smith’s second trial, where he
stated that Collett and McMullan were waiting in the
car to which Smith and Houghtaling fled immediately
after the shooting. By testifying that he had no
knowledge of who was involved in the shooting,
Collett went further than simply giving the State an
answer that did not support its theory of the case; he
also contradicted important evidence in support of its
theory. See People v. Amato, 471 N.E.2d 928, 930 (Ill.
App. Ct. 1984) (“No possible reason exists to impeach
a witness who has not contradicted any of the
impeaching party’s evidence, except to bring
inadmissible hearsay to the attention of the jury.”).
Moreover, it positively aided Smith’s case because it
lent credence to his insistence that he, Collett,
Houghtaling, and McMullan were not involved in the
shooting. Consequently, Collett’s statements were
properly admitted for impeachment.
d) Briseno’s Autopsy Photographs
Smith also complains that the Appellate Court
erred by affirming the trial court’s admission of
graphic autopsy photos of Briseno’s body. The photos
were introduced into evidence at Smith’s second trial
over his objection. On appeal from that conviction, the
Appellate Court agreed that the photos were
gruesome, but they were nonetheless relevant to
corroborate Pardo’s testimony that Briseno coughed
up blood after being shot. At his third trial, Smith
again objected to the introduction of the photos into
evidence. However, the trial court overruled his
objection and the Appellate Court again affirmed, this

121a
time finding that the law of the case doctrine
precluded it from revisiting the issue.
This Court reviews the Appellate Court’s decision
in the appeal from the second trial, as it is the last
court to address the merits of the issue. See Garth v.
Davis, 470 F.3d 702, 710 (7th Cir. 2006) (noting that
on habeas review, the “relevant state court decision is
that of the last state court to address the claim on the
merits”). Generally, “[t]he decision of whether a jury
should be allowed to see photographs of a decedent is
a decision that rests within the sound discretion of the
trial judge.” People v. Chapman, 743 N.E.2d 48, 69
(Ill. 2000). And in a murder case, admitting
photographs of the victim is proper where they are
submitted “to prove the nature and extent of the
injuries.” Id. That is exactly the purpose for which
Briseno’s autopsy photos were admitted. Thus, there
is no basis for finding that the Appellate Court erred
in concluding that the trial court did not abuse its
discretion in allowing the jury to see the photos.
ii. Whether the Cumulative Errors Denied Smith
a Fair Trial
To succeed on a cumulative error claim, a habeas
petitioner must establish two elements: “(1) at least
two errors were committed in the course of the trial;
[and] (2) considered together, along with the entire
record, the multiple errors so infected the jury’s
deliberation that they denied the petitioner a
fundamentally fair trial.” Alvarez, 225 F.3d at 824.
Here, the first element of a cumulative error claim
has been satisfied. Already, the Appellate Court
conceded two errors arising from the trial court’s

122a
decision to prevent Smith from perfecting his
impeachment of Pardo’s identification of the green
jacket and its admission of Weisenberger’s testimony
about his past drug use and Smith’s use of marijuana
on the night of the shooting. This Court has further
found that the trial court committed two more errors
of a constitutional magnitude by excluding testimony
regarding Briseno’s drug dealing and Hiland’s
confession to a defense lawyer. (It also found that the
trial court’s error in preventing Smith from perfecting
his impeachment of Pardo to be an error of
constitutional magnitude.) Accepting each of the four
errors as harmless,11 the Court now must determine
whether, taken together, the errors deprived Smith of
a fundamentally fair trial.
The due process guarantee of a fundamentally
fair trial entitles a defendant a fair trial, but not a
perfect one. Alvarez, 225 F.3d at 825. When
considering the significance of evidentiary errors, “a
court must examine ‘the entire record, paying
particular attention to the nature and number of
alleged errors committed; their interrelationship, if
any, and their combined effect; how the trial court
dealt with the errors, including the efficacy of any
remedial measures; and the strength of the
prosecution’s case.’” Anderson, 243 F.3d at 1053
(quoting Alvarez, 225 F.3d at 825). At the same time,
a habeas court should “be careful not to magnify the
significance of errors which had little importance in
the trial setting.” Alvarez, 225 F.3d at 825. Relief is
While the Court holds that each of the three constitutional
errors identified above in Section II.B were not harmless and
therefore standing alone warrant a new trial, it will treat them
as harmless for the purpose of its cumulative error analysis.
11

123a
warranted only where the court is “firmly convinced
that but for the errors, the outcome of the trial
probably would have been different.” Id
As discussed above, the trial court’s evidentiary
errors significantly impaired Smith’s ability both to
introduce important evidence in his defense, and also
to impeach evidence critical to the State’s case. The
constitutional errors in particular were far from
minor. Testimony concerning the DeCicco Group’s
knowledge of Briseno’s drug dealing was critical in
establishing why the DeCicco Group targeted the
Burrito Express. Without the evidence, the jury was
faced with confessions on both sides but no clear
motive for either to specifically target the Burrito
Express. Had the jury heard the excluded testimony,
it would have bolstered the credibility of the DeCicco
Group’s confessions. In particular, Smith argued that
the evidence showed that the DeCicco Group ran out
of drugs and were looking for money to buy more. Had
the jury heard that members of the DeCicco Group
previously learned that Briseno kept drugs and
money at the Burrito Express, it very well could have
believed that individuals looking for money for drugs
would be drawn to rob a restaurant that they believed
was a source of both. Such motive evidence could have
tilted the scales for a jury weighing the credibility of
DeCicco
Group’s
many
confessions
against
Houghtaling’s confessions. Further, the jury did not
learn that Hiland confessed in front of a defense
attorney. The fact that Hiland sought out legal
counsel could have bolstered the reliability of his
confession because it would have tended to show that
he believed he was in real legal jeopardy and his
confession was not simply empty bluster. Ultimately,

124a
the trial hinged in large degree upon which set of
confessions the jury believed. And the trial court’s
erroneous exclusion of motive evidence was
compounded by the exclusion of evidence bearing on
the trustworthiness of the confession of one member
of the DeCicco Group, such that in conjunction they
were not harmless but in fact deprived Smith of a
fundamentally fair trial.
Those errors were only further magnified by the
trial court’s erroneous limitation of crossexamination. Another important piece of evidence
tying Smith to the crime was Pardo’s identification of
Houghtaling’s green jacket as the same one worn by
the masked man without the gun. Yet, immediately
after the shooting, Pardo described a different green
jacket than the one submitted to the jury. Thus, the
trial court excluded both evidence that would bolster
exculpating evidence while limiting Smith from
properly impeaching a witness as to important
inculpating evidence. The combined effect of these
erroneous exclusions significantly weakened Smith’s
defense.
In addition, the trial court admitted prejudicial
evidence concerning a defense witness’s drug use.
That witness testified to seeing Smith, Houghtaling,
Collett, and McMullan just after the shooting and
observing no blood or scratches on their bodies. Then,
he rode in the purported getaway car and did not
observe any blood, masks, bullets, or a gun in the car.
The witness’s testimony tended to show that Smith
and his friends were not involved in the Burrito
Express shooting. Yet, the jury might have discounted
his testimony due to the fact that he had previously

125a
used drugs. See United States v. Galati, 230 F.3d 254,
262 (7th Cir. 2000) (“Frequently, evidence that a
witness has used illegal drugs may so prejudice the
jury that it will excessively discount the witness’
testimony.” (internal quotation marks omitted)).
Similarly, his testimony that Smith used marijuana
the night of the crime may well have inflamed the jury
against him. See Brinkley v. Santiago, No. 11 C 6282,
2013 WL 12309671, at *2 (N.D. Ill. July 11, 2013)
(excluding evidence of a party’s use of alcohol and
marijuana because it would “raise the danger of
unfair prejudice in the jury because of distaste for
substance abusers”). While the testimony by itself
likely did not have a decisive impact on the jury’s
verdict, when combined with the three constitutional
errors, its admission further tipped the scales of
justice against Smith.
Given the weakness of the prosecution’s case
against Smith, the combined effect of the four
evidentiary errors had a highly significant effect. The
Court has already explained the various weaknesses
of the State’s evidence against Smith. And due to the
trial court’s evidentiary errors, Smith was deprived of
important opportunities to cast additional doubt on
the State’s case against him. Nor were the errors
directed to minor or ancillary matters. Rather, they
affected core components of both the State’s case and
Smith’s defense. Viewing these errors cumulatively in
light of the entire record, this Court concludes that,
but for the errors, Smith probably would have been
acquitted. The Appellate Court’s conclusion to the
contrary was an unreasonable application of Taylor v.
Kentucky.

126a
***
In sum, the Appellate Court affirmed three trial
court errors that violated Smith’sconstitutional
rights. Specifically, the Appellate Court’s decision
improperly affirmed evidentiary exclusions that
violated Smith’s right to present a complete defense
and his right to engage in effective cross-examination.
Although the trial court’s errors were not harmless,
even if they were, when evaluated cumulatively they
deprived Smith of his right to a fundamentally fair
trial. For that reason, Smith’s petition for habeas
corpus is granted and his convictions and sentence
are vacated, subject to the State’s decision to retry
him.
CONCLUSION
For the foregoing reasons, Smith’s petition for a
writ of habeas corpus (Dkt. No. 1) is granted due to
evidentiary errors that violated his constitutional
rights. This Court accordingly orders that the State
either initiate proceedings to retry Smith within 120
days or release him from custody immediately. The
Clerk is directed to enter Judgment in favor of Smith.
ENTERED:
Dated: March 10, 2020 /s/ Andrea R. Wood
Andrea R. Wood
United States District Judge

127a
APPENDIX C
Supreme Court of the United States
Kenneth SMITH, petitioner,
v.
Illinois.
No. 13-883.
March 24, 2014.
Case below, 2013 IL App (2d) 120508-U.
Petition for writ of certiorari to the Appellate Court
of Illinois, Second District, denied.

128a
APPENDIX D
(The decision of the Court is referenced in the North
Eastern Reporter in a table captioned “Supreme
Court of Illinois Dispositions of Petitions for Leave to
Appeal”.)
Supreme Court of Illinois
People
v.
Kenneth E. Smith
No. 116291
SEPTEMBER TERM, 2013
September 25, 2013
Lower Court: No. 2-12-0508
Disposition: Denied.

129a
APPENDIX E
2013 IL App (2d) 120508-U
No. 2-12-0508
Order filed May 29, 2013
NOTICE: This order was filed under Supreme
Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances
allowed under Rule 23(e)(1).
_________________________________________________
IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
_________________________________________________
THE PEOPLE OF THE
STATE OF ILLINOIS,

)
)
)
Plaintiff-Appellee,
)
)
v.
)
)
KENNETH SMITH,
)
)
Defendant-Appellant. )

Appeal from the
Circuit Court of
McHenry County.
No. 01-CF-363
Honorable
Sharon L. Prather,
Judge, Presiding.

JUSTICE JORGENSEN delivered the judgment of
the court. Justices Zenoff and Spence concurred in
the judgment.

130a
ORDER
Justice JORGENSEN delivered the judgment of the
court:
¶ 1 Held: The evidence was sufficient to sustain
defendant’s conviction of first-degree murder and
attempt armed robbery. The court’s evidentiary
rulings did not deprive defendant of a fair trial.
Affirmed.
¶ 2 Following a third jury trial, defendant, Kenneth
Smith, was convicted of two counts of first-degree
murder (720 ILCS 5/9–1(a)(2), (3) (West 2002)) and
one count of attempt armed robbery (720 ILCS 5/8–
4(a), 18–2(a)(2) (West 2002)). After the court merged
the murder convictions, defendant was sentenced to
67 years’ imprisonment for first-degree murder
(including a 25–year add-on for discharging the
firearm (730 ILCS 5/5–8–1(d)(3) (West 2002))) and a
concurrent 7 years’ imprisonment for attempt armed
robbery. Defendant appeals, arguing that: (1) the
evidence was insufficient to sustain his convictions;
and (2) numerous evidentiary rulings constituted an
abuse of discretion and violated his due process
rights. We affirm.
¶3

I. BACKGROUND

¶ 4 On March 6, 2001, two masked men attempted to
rob the Burrito Express restaurant in McHenry and
one of them shot and killed its owner, Raul Briseno.
In May 2001, defendant (age 25), Justin Houghtaling
(19), Jennifer McMullan (19 and defendant’s
girlfriend), and David Collett (18) were arrested for
the incident. On May 12, 2001, Houghtaling was

131a
arrested in Omaha, Nebraska, and gave a statement
to police, implicating himself and defendant. The
State indicted defendant on May 31, 2001, based on
Houghtaling’s statement. Houghtaling pleaded guilty
on November 14, 2001, and was sentenced to 20 years’
imprisonment in exchange for his testimony against
the others. Collett also pleaded guilty. Following a
trial that included Houghtaling’s testimony,
McMullan was convicted of first-degree murder and
attempt armed robbery; she was sentenced to 27
years’ imprisonment.
¶ 5 Defendant’s first trial occurred in 2003. There, the
State called Houghtaling, who refused to testify,
invoking his fifth amendment right against selfincrimination (U.S. Const., amend. V; Ill. Const.1970,
art. I, § 10). The trial court declared Houghtaling
unavailable and allowed the State to present
Houghtaling’s testimony from McMullan’s trial
(implicating himself and defendant in the crimes).
Defendant was convicted of attempt armed robbery
and first-degree murder (and was also found to have
personally discharged the firearm that proximately
caused Briseno’s death); he was sentenced to
concurrent terms of 67 and 12 years’ imprisonment.
However, on appeal, this court reversed and
remanded for a new trial, holding that, under the
subsequently issued opinion in Crawford v.
Washington, 541 U.S. 36, 53, 54 (2004)1,
Houghtaling’s prior statements were testimonial,
were admitted in violation of defendant’s right to
Holding that a testimonial statement, including testimony at a
former trial, of a witness absent from trial may be admitted only
if the witness is unavailable and if the defendant has had a prior
opportunity to cross-examine the witness. Id.
1

132a
confront witnesses, and that the error was not
harmless because the testimony was the only direct
evidence linking defendant to the shooting. This court
remanded for a new trial after concluding that the
remaining evidence, absent the erroneously admitted
statements, was sufficient to prove defendant guilty
beyond a reasonable doubt. People v. Smith, No. 2–
03–1076 (2005) (unpublished order under Supreme
Court Rule 23).
¶ 6 Defendant’s second trial occurred in 2008. There,
the State again called Houghtaling. On direct
examination, Houghtaling testified that he and
defendant robbed the Burrito Express. Specifically, at
7:20 p.m., on March 6, 2001, while wearing masks,
they went to the restaurant and, with defendant
holding a pistol, announced a robbery. Briseno then
picked up a knife and chased Houghtaling and
defendant outside. Houghtaling slipped on ice and the
other man working with Briseno, Eduardo Pardo,
grabbed him. Someone pulled up Houghtaling’s ski
mask. Briseno and Pardo wrestled with Houghtaling
until defendant walked back, fired shots, and Briseno
jerked and let go of Houghtaling. When Pardo let go,
Houghtaling ran to McMullan’s waiting car. Collett
was in the rear of the car. Defendant told Houghtaling
that he did what he had to do. The group then drove
to a nearby house, where defendant’s friend, James
Weisenberger, resided, and they drank through the
night and remained until the next morning.
Houghtaling testified that he wore a green jacket on
the night of the murder and that police later took the
jacket. Houghtaling further testified that, in
exchange for his testimony against defendant, he
agreed to a plea deal with the State of 20 years’

133a
imprisonment (he faced a possible sentence of 20 to 60
years).
¶ 7 On cross-examination at the second trial,
however, Houghtaling recanted, stating that the
testimony he had just given was not true and that he
was being forced to lie because the State wanted to
convict defendant. He testified that he had been with
defendant, Collett, and McMullen that night and that
the group had observed the police activity down the
road, but were unaware of the shooting. On re-direct
examination, the State impeached Houghtaling with
statements he made to police in Omaha, Nebraska, in
May 2001.
¶ 8 The defense’s theory at the 2008 trial was that
another group (not connected to defendant)
committed the crime. This group, known as the
DeCicco group, was linked to a gun—the Brummett
gun—recovered in the case. The defense argued that
Russell (Rusty) Levand killed Briseno. Defendant
called Susanne Dallas DeCicco (Levand’s one-time
girlfriend) and Adam Hiland (age 15 and DeCicco’s
cousin), who each denied their involvement in the
shooting. Defendant then sought to introduce their
prior confessions, but the trial court barred the
evidence of Hiland’s confessions. Defendant was
convicted of murder and attempt armed robbery and
was sentenced to 67 years’ imprisonment for murder
and a concurrent term of 7 years’ imprisonment for
the attempt armed robbery conviction. On appeal,
this court reversed and remanded for a new trial,
holding that the trial court erred in: (1) not allowing
the defense to impeach its own witness (Hiland) with
a prior inconsistent statement because that witness’s

134a
testimony affirmatively damaged defendant’s case;
and (2) admitting certain character evidence. This
court also determined that the evidence was sufficient
to allow a retrial without a double jeopardy bar.
People v. Smith, No. 2–08–1106 (2010) (unpublished
order under Supreme Court Rule 23).2
¶ 9 At the third trial in 2012, which is the subject of
this appeal, the State’s theory was that defendant
(carrying a .22–caliber handgun) and Houghtaling
entered the Burrito Express, wearing ski masks and
with the intention of robbing it. During the attempted
robbery, Briseno pulled a knife and, along with his
employee, Pardo, chased the two masked men out of
the restaurant. Pardo caught Houghtaling after he
slipped on a patch of ice and dragged him toward the
restaurant. Defendant then started shooting,
ultimately hitting Briseno, who died. Defendant and
Houghtaling fled. Collett waited outside, and
McMullen drove the getaway car.
¶ 10 The defense theory was, again, that defendant
was not involved in the crimes and that the DeCicco
group was involved.
¶ 11

A. Pretrial Proceedings

¶ 12 Prior to trial, defendant sought leave to admit
evidence, specifically, Patrick Anderson’s testimony,
showing that Briseno sold cocaine from the Burrito
Express and that Levand knew of Briseno’s drugdealing, giving Levand a motive to rob the restaurant.
Subsequently, Houghtaling was convicted of perjury based on
his testimony at defendant’s second trial.
2

135a
¶ 13 Initially, defense counsel submitted a December
29, 2011, letter Anderson wrote to defense counsel
while Anderson was incarcerated. He stated that,
close to the time Briseno was shot, he and Levand
went to the Burrito Express to purchase cocaine.
Levand knew Briseno was the source of the cocaine
Anderson sold, and Anderson had told him that, “at
times,” Briseno kept large amounts of money and
cocaine at the restaurant. Anderson also stated that
he had become friends with Briseno through a man
named “Serge,” who was a cook at one of Briseno’s
restaurants. Anderson would buy cocaine from Serge
and Briseno, and he sold it in the McHenry area,
including to DeCicco and Levand. Anderson further
stated that, after the shooting, he had heard rumors
that the DeCicco group committed the crime. In June
or July 2011, while incarcerated in the McHenry
County jail, he again met Levand, who confessed to
him about the shooting after Anderson told him that
he believed Levand had a motive to commit the crime
since Anderson had told him that Briseno was his
source. Finally, Anderson stated that he was coming
forward with this information because he had once
been wrongly accused and wished that someone had
come forward to help him.
¶ 14 The State offered to stipulate that Anderson
would testify in accordance with his letter. Following
some discussion as to whether Anderson should be
brought into court for a formal offer of proof, the trial
court then inquired how defense counsel would
overcome hearsay issues raised by the contents of the
letter. Defense counsel argued to the court that
Anderson’s statements to Levand and Levand’s

136a
statements to Anderson were offered to show
Levand’s knowledge of Briseno’s drug-dealing and not
for the truth of any matters asserted. Defense counsel
also argued that the letter was being offered to show
what Levand did as a result of receiving that
information and that this tended to show that
defendant did not commit the crime and that
somebody else did. The State argued that the
evidence, including that of two other witnesses that
defense counsel had sought to introduce, was
“collateral” and “confusing” and did not relate to any
alleged motive.3
¶ 15 The court initially noted that, at defendant’s
second trial, it had excluded the testimony of the
other two individuals and that the only new evidence
at the third trial was Anderson’s letter. The trial court
excluded Anderson’s testimony, finding that the letter
Anderson wrote “contains numerous hearsay
statements that would be inadmissible.” Further, it
was “highly suspect” because Anderson came forward
“ten years after the fact.” The court further found that
the letter did not establish a motive for the DeCicco
group to commit a robbery and that there was “no
Defendant also sought to introduce testimony from Guilermo
Quinones, an undercover operative with the Metropolitan
Enforcement Group in Lake County, and Richard Solarz, a
detective sergeant. Quinones would have testified that, less than
six months before the shooting, he met Briseno and, on one
occasion, spoke to him about his cocaine business and Briseno
offered to sell him cocaine, which he subsequently did. Solarz
would have testified that he conducted a search of the Burrito
Express on March 7, 2001, with a K–9 handler and narcoticssniffing dog. During the search, the dog indicated the possible
detection of narcotics inside the restaurant. The trial court
excluded this testimony.
3

137a
close connection to the drugs and to this crime for
which the defendant is on trial.”
¶ 16 Defense counsel then requested the opportunity
to make a live offer of proof, which the trial court
granted. Anderson took the stand and testified that
he is currently incarcerated for possession of a
handgun by a felon and delivery of a controlled
substance. He also has convictions for domestic
battery, retail theft, and possession of a controlled
substance. In 2001, he knew Briseno well and
purchased cocaine from him (at least 20 times)
through a man named Serge, who worked in one of
Briseno’s restaurants. Anderson stated that he never
directly purchased cocaine from Briseno, but
understood that the drugs Serge sold to him came
from Briseno.4 About one week before the March 2001
shooting, Levand (a friend Anderson knew from his
school days) accompanied Anderson (in DeCicco’s car)
to the Burrito Express to purchase drugs from Serge.
Levand learned from Anderson that Briseno was his
source of the high quality cocaine he was purchasing.
(In the live proffer, Anderson did not state, as he had
in his letter, that he told Levand that Briseno was
known to keep, “at times,” large quantities of money
and cocaine at the restaurant.)
¶ 17 Anderson also offered testimony about why he
did not come forward prior to December 2011 with
Anderson explained that, at times, he and Serge would have to
wait at the Burrito Express for Briseno to arrive, after which,
Serge would run in and return with drugs. At other times, when
Anderson believed he was charged an unfair price, he would
speak to Briseno, who would tell him to speak to Serge and the
price would be reduced.
4

138a
this information. It was not until the summer of 2011
that Levand confessed to him while they were both at
the McHenry County jail. “I always had an inkling
after the situation in the parking lot, our
conversation, and a week after the incident happened,
you know, happening and me knowing Rusty, I
always had an inclination. And that [i.e., the
confession] kind of confirmed it at that point.”
Anderson stated that he came forward with the
information shortly thereafter because he had once
been wrongly accused of a crime and he thought that,
if someone had information to help him, he would
have wanted that person to come forward. Anderson
first tried to provide the information to authorities
through a “tip line;” next, he sent the 2011 letter to
defense counsel.
¶ 18 After Anderson took the stand to testify for a
formal offer of proof, the trial court summarily
reaffirmed its ruling excluding his drug testimony.
¶ 19 The defense also sought to exclude accomplices’
Houghtaling’s and Collett’s testimony on the basis
that the State had no good faith basis to call them and
sought to call them solely to impeach them with outof-court statements implicating defendant. The State
argued with respect to Collett’s testimony that he
helped its case against defendant by placing
defendant’s group at the scene. As to Houghtaling’s
testimony, the assistant State’s Attorney noted that
he had not spoken to Houghtaling since the second
trial and argued that, if Houghtaling recanted, he
would be impeached with prior testimony, which
could only help the State’s case. When the trial court
asked defense counsel to distinguish the defense’s

139a
calling DeCicco (who had also recanted) from the
State’s desire to call Houghtaling, defense counsel
stated that its purpose in calling her was not to
impeach her (because her confession was going to be
substantively admitted), but to establish other facts:
her group was near the crime scene, had a gun, and
her car was burned after the fact. The trial court
overruled defendant’s objections. After trial
commenced, defense counsel spoke with Houghtaling,
who confirmed that he would deny any involvement
in Briseno’s death. Defendant renewed his objection
before Houghtaling testified, and the trial court again
overruled the objection.
¶ 20
¶ 21

B. Trial
1. Eduardo Pardo

¶ 22 Eduardo Pardo testified through an interpreter
that he worked as a cook at the Burrito Express on
March 6, 2001. At about 7:15 p.m. that day, two men
wearing black masks (through which one could see
only their eyes) entered the restaurant; one of them
had a gun and wore dark clothing. Pardo was in the
back area with Briseno. No customers were in the
restaurant at this time. Pardo explained that the man
with the gun, who was the taller of the two, entered
first and spoke (in a language Pardo did not speak)
while pointing the gun at Pardo and Briseno. Briseno,
who had been preparing food before the men entered,
raised the knife he had in his hand. The men ran out
of the restaurant, and Briseno and Pardo chased after
them. Pardo ran around in front of a nearby dry
cleaners, and Briseno ran around the back of it.

140a
¶ 23 The men ran across Third Street and ran out of
sight between a house at the corner of Third Street
and Waukegan Road. At some point when Pardo and
Briseno were chasing the men, Pardo saw Briseno
stop and talk to someone in a car, but he could not
hear what was said. Across the street from the dry
cleaners, behind the Sullivan’s Foods store, Pardo
saw the man who did not have a gun (whom the State
asserted was Houghtaling). He wore a green jacket.
Pardo saw no one else at this time. Pardo caught up
to the man in the green jacket after the man slipped
and fell (backwards) on ice. It was nighttime and dark
out. Pardo called out to Briseno and told him that he
had one of the men; Briseno instructed him to walk
the man back to the restaurant and call police. Pardo
grabbed the man’s arms from behind, and then
walked him back toward the restaurant. When they
reached Third Street, Pardo stopped and heard a
gunshot. Pardo saw the man who held the gun in the
restaurant (defendant, under the State’s theory), and
he saw Briseno. The man fired again. Briseno was
close to Pardo, and he was coming toward Pardo and
the man in the green jacket; all of the men were across
Third Street from the restaurant. Briseno asked
Pardo to walk him to the store so that they could call
the police. The man with the gun followed them.
Pardo heard two gunshots. Pardo held the man in the
green jacket from behind with his arms hooked
underneath the man’s arms and raised up toward his
neck. Briseno walked next to them. Pardo walked
backwards, and Briseno walked forward.
¶ 24 After the second group of shots, the man with the
gun came closer to Pardo and Briseno and started to
shoot again. Pardo heard Briseno make a sound kind

141a
of like, “aah,” and he spit blood out of his mouth.
Briseno was facing the shooter and away from the
man with the green jacket. Pardo could not see if
Briseno spit any blood on the man wearing the green
jacket. After Briseno spit blood, Pardo dropped the
man in the green jacket, ran to the restaurant
kitchen, and called 911. This took three to five
minutes.
¶ 25 While Pardo was on the phone, he could see
outside into the parking lot. He observed Briseno
holding the man in the green jacket in front of him
(with his arms outstretched and his hands just lightly
on the shoulders) and using him as a shield. “[H]e was
moving him around while the other person kept
shooting.” Briseno moved one-half step to the left and
then one-half step to the right. After he called 911,
Pardo exited the restaurant. The two men were gone.
He saw Briseno lying face down. There was a lot of
blood, including foamy blood coming out of his mouth.
After about 10 minutes, the police arrived. While he
waited, Pardo tried to stop some cars on Route 120 to
get help.
¶ 26 Addressing whether he saw the face of the man
in the green jacket, Pardo testified that, behind the
grocery store and before he picked him up, Pardo
pulled off the man’s mask while the man was still on
the ground. About two seconds passed from the time
he pulled it off and when he grabbed the man from
behind. Also, it was dark behind the store. Pardo got
a good look at his face: he observed the man’s
silhouette and all of his facial features. Addressing
the shooter, Pardo stated that, at one point, the
shooter had pulled up his mask to just above his

142a
eyebrows. The closest that Pardo got to the shooter
after the shooter’s mask was raised, and for only a
couple seconds, was about 25 to 40 feet. Pardo further
testified that he never saw a third man.
¶ 27 Subsequently, Pardo was interviewed by police
and worked with a police sketch artist, who compiled
sketches of the two men that he saw. When asked
about the green jacket, Pardo described it as long and
maybe made of leather. He could not recall if it had
any other colors on it. Reviewing People’s exhibit No.
66, Houghtaling’s green jacket, Pardo stated that the
jacket looked like the one he saw on the man during
the shooting. (Houghtaling’s jacket looks like green
leather, does not have black around the collar, but has
three front pockets and a zipper with a zipper flap;
the jacket has areas of black on: the elbows, a patch
just below the center of back of the collar, around the
snaps for the zipper flap, horizontal strips above the
lower pockets, and the logo on the breast pocket).
¶ 28 On cross-examination, Pardo testified that he
could not recall telling a police interviewer four hours
after the shooting that: the green jacket had some
black and that the black was around the collar area,
to his best recollection. He testified that he told the
truth to the investigator, but was scared. Pardo also
stated he could not recall if he told the investigator
that he did not see any pockets on the front of the
jacket, or that there was no zipper up the front.
¶ 29 According to Pardo, at one point, the shooter
pointed a gun at him, while walking toward him with
his mask pulled up above his forehead. Pardo had his
back to the man and was running to call the police.

143a
He could not recall if he saw facial hair on the man’s
chin. He also could not recall if he told the sketch
artist whether the shooter had a beard or mustache.
(The two resulting sketches do not depict men with
any facial hair.) While working with the sketch artist
and on another occasion two days after the shooting,
Pardo was shown photographs by police. He never
identified anyone in the photos (which included
photos of defendant, Houghtaling, and Collett).
¶ 30

2. Lieutenant Gary Wigman,
Joanne McIntyre, and Medical Testimony

¶ 31 Gary Wigman, a lieutenant in 2001 with the
McHenry police department, was in charge of the
crime scene. He testified that police used metal
detectors and magnets in their search for the murder
weapon. None of the physical evidence gathered was
connected to defendant or any of his alleged
accomplices. Also, police never recovered any
potential murder weapon linked to defendant or
Houghtaling. Wigman explained that there are two
broad categories of handguns: automatics and
revolvers. An automatic ejects bullet casings after
firing, and a revolver does not. Police found no casings
in the vicinity of the Burrito Express and, so, they
concluded that the gun used was a revolver.
¶ 32 Wigman further testified that he attended
Briseno’s autopsy and observed a laceration and
abrasion on his upper forehead. Wigman stated that
he has training in interviewing and interrogations,
including at the John Reid school. Some information
concerning the investigation was not released to the
public and press, including the fact that Briseno had

144a
a head wound and that Pardo stated that Briseno had
yelled into a passing car. This information was
deliberately held back to assess the credibility of the
people the police interviewed; if they had information
that was not released, then that information carried
more weight. The facts that were withheld from the
public were included in the police reports that were
eventually released to the defendants in the cases, as
was the coroner’s report. The fact of Briseno’s head
injury had not appeared in the press as of November
2001. Certain other information, including that the
men wore ski masks and that Briseno struggled with
one of the men in the parking lot, was released to the
public. Wigman testified that warrants were obtained
for the suspects in this case around May 6, 2001, and
they were arrested either the following day or the day
after that. After suspects are arrested, police reports
are written and forwarded to the State’s Attorney’s
office and any defendants. McMullen’s 2002 trial and
defendant’s 2003 trial (both of which included
testimony about Briseno’s head wound) were covered
in detail by the media.
¶ 33 Wigman confirmed that the police received leads
concerning the DeCicco group members. On
November 16, 2001, Wigman received a call from
Vicki Brummett. He went to the Brummett residence
and retrieved a .22–caliber revolver, which, under the
defense’s theory of the case, was linked to the crime.
He forwarded the gun to the state police for testing;
the gun was returned to its owner, David Brummett,
on October 7, 2002. He spoke to the Brummetts five
or six times.

145a
¶ 34 Joanne McIntyre, an Illinois State Police
firearms expert, testified that she examined the bullet
recovered from Briseno’s body and was able to identify
the bullet as a .22–caliber long rifle bullet with six
lands and grooves; she was unable to determine its
twist. In December 2001, Mclntyre received the
Brummett gun, a single-action revolver, and fired 10
test shots with it and examined the fired bullets
alongside the bullet recovered from Briseno’s body.
The Brummett gun is a .22–caliber revolver with six
lands and grooves with a right-hand twist. Mclntyre
testified that she could not identify the Brummet gun
as having fired the bullet that killed Briseno and she
could not exclude it. Mclntyre further stated that a
.22–caliber is a very common type of gun, as are six
lands and grooves.
¶ 35 Dr. Larry Blum, a forensic pathologist,
performed the autopsy on Briseno on March 7, 2001.
Blum observed a laceration on Briseno’s head caused
by contact with a blunt object. He testified that the
injury was consistent with being pistol-whipped with
the barrel of a gun. The injury was not consistent with
falling on pavement. However, Blum made no
determination as to when the wound might have
occurred in relation to Briseno’s time of death.
¶ 36

3. Justin Houghtaling

¶ 37 (a) Direct Testimony at Defendant’s Third Trial
¶ 38 In his direct testimony, Houghtaling denied any
involvement in the shooting. He stated that he never
went to the Burrito Express on March 6, 2001.
Houghtaling had known defendant for about three

146a
weeks as of that date. Defendant was dating
McMullen at that time, and McMullan lived across
the street from Houghtaling in Round Lake Beach.
¶ 39 On March 6, 2001, at about 6:30 p.m., McMullan
and defendant came to Houghtaling’s house, picked
him up, and McMullan drove the group to pick up
Collett and then to Cally Brown’s (McMullen’s
friend’s) house in Wisconsin so that McMullan could
borrow a laptop computer. From Brown’s home,
McMullen drove the group to McHenry, stopping first
at Cloud 9, a “head” shop, and then went to Jimmy
Wiesenberger’s house. Wiesenberger was defendant’s
friend.
¶ 40 Houghtaling admitted that, in 2001, he pleaded
guilty to the first-degree murder of Briseno and was
sentenced to 20 years’ imprisonment. When asked
why he pleaded guilty to something he alleges he did
not do, Houghtaling stated that he “was young. I was
scared, and I thought it would be the quickest route
to save myself from doing the extended time in prison
of 60 years.” He regretted it. Houghtaling conceded
that, at his guilty plea, he told the court that he
pleaded guilty of his own free will. Further, at his
guilty plea, when asked if he wanted to say anything,
he stated that he “ ‘wanted the family to know that
I’m sorry that it went down. It wasn’t meant to go
down that way, and I hope you guys will find it in your
heart to forgive me, okay.’ “ The following additional
testimony was admitted substantively.
¶ 41

(b) May 12, 2001, Interrogation
in Omaha, Nebraska

147a
¶ 42 The State read a transcript of Houghtaling’s May
12, 2001, interrogation in Omaha, Nebraska, and an
audio recording of the interview was played to the
jury. During the interrogation, Houghtaling told
police that, on March 6, 2001, he, Collett, “J.D.” (i.e.,
McMullen), and defendant went to a house behind the
Burrito Express and drank. Houghtaling and
defendant went outside to smoke a “joint” and
defendant stated to Houghtaling: “ ‘It was like come
with me, I want to go do something.’ “
¶ 43 Houghtaling agreed and followed defendant to
the Burrito Express. At this point in the interview,
police interrogators started asking some leading
questions about face coverings. One investigator
asked Houghtaling if he wore a ski mask. He replied,
“I can’t remember.” The investigator then asked, “You
had your face concealed? Some how [sic ] you had your
face concealed is that correct?” Houghtaling replied in
the affirmative. When asked, “How did you conceal
your face? With some kind of a hat?” Houghtaling
replied “Yes.” Interrogators then asked, “With a mask
over your face?” Houghtaling replied in the
affirmative.
¶ 44 The police interrogators asked Houghtaling who
first entered the restaurant, and Houghtaling replied
that it was defendant (which was consistent with
Pardo’s testimony). Houghtaling also related, without
suggestion, that only defendant carried a gun,
specifically, a “little .22.” When defendant demanded
money after they entered the restaurant, one of the
men behind the counter grabbed a knife and
Houghtaling and defendant ran outside. The owner
chased after them. When asked if Houghtaling ran

148a
toward a busy street or a side street, he replied that
it was a side street and not Route 120 (i.e., the busy
street). When asked if anyone other than the owner
chased them, Houghtaling replied, “not that I know
of.” At some point, someone grabbed Houghtaling, but
he could not explain how the person grabbed or held
onto him. He heard gunfire, and “I thought the dude
let go of me and I ran. I was scared.” Defendant was
firing the gun toward the man with the knife (i.e.,
Briseno). When asked again if more than one person
was involved in resisting Houghtaling’s and
defendant’s robbery, Houghtaling replied, “That could
be—I can’t—it happened so long ago and I don’t
remember. I’m not a hundred per cent [sic ] positive,
but it could be.”
¶ 45 After Houghtaling was nonresponsive to a
question asking where he went after he ran away, one
of the interrogators asked, “Was anyone waiting
anywhere with a car or anything like that?”
Houghtaling replied that he could not recall and that
he suspected they met back at the house and then left.
When asked where they went, he stated that they
took Collett home. The police then asked if they
stopped at a head shop, specifically Cloud 9.
Houghtaling replied that they did and that Collett
went inside and Houghtaling stayed in McMullen’s
car. The police asked Houghtaling to clarify whether,
after the shooting, he entered McMullen’s car or went
to Cloud 9, and he agreed with the suggestion that
McMullen waited for Houghtaling and defendant in
her car on the street. When asked again later in the
interview, he replied, “I think we got into a car.
McMullen and Collett were in the car.”

149a
¶ 46 After police told Houghtaling that they had
witnesses who saw him at Weisenberger’s house after
the shooting, he agreed that he went there.
Houghtaling further stated that defendant planned
the robbery. When asked again when he had the
conversation with defendant about robbing the
restaurant, Houghtaling replied, “I think a little bit
in the car [on the way to McHenry] and at
[Weisenberger’s] house.” They sat in the back of the
car.
¶ 47 Initially, Houghtaling could not recall what he
wore on the night of the shooting. Police then asked
him if he had borrowed someone’s jacket that night,
and he replied that he had borrowed Collett’s green
jacket. Houghtaling did not see any scar on the
victim’s forehead. Defendant fired three or four shots.
¶ 48 Houghtaling described the gun. After noting that
he knew what a semi-automatic is, he stated that the
gun defendant used “looked like a revolver.” However,
Houghtaling could not explain the difference between
a revolver and an automatic. After one of the
interrogators drew a revolver and an automatic for
Houghtaling, Houghtaling picked the drawing of the
automatic.
¶ 49(c) April 3, 2002, Testimony at McMullen’s Trial
¶ 50 Houghtaling testified at McMullen’s trial on
April 3, 2002. (At the third trial, Houghtaling testified
that no one forced him to testify at McMullen’s trial
and that he made the statements of his own free will.)
He stated that, on the day of the shooting, he and
defendant first discussed the robbery earlier that day

150a
at Houghtaling’s house. While there, defendant gave
Houghtaling a ski mask. Houghtaling wore Collett’s
green jacket. Defendant and Houghtaling put on ski
masks before they entered the Burrito Express;
defendant entered first with the gun in his hand.
There were two people in the restaurant, and no
customers were inside. Defendant, pointing his gun at
Briseno, demanded that they give him all of their
money. Briseno picked up a knife, and Houghtaling
and defendant ran outside. Houghtaling ran up an
incline behind the cleaners, slipped, was grabbed by
Briseno and Pardo, and dragged back to the
restaurant. While being dragged, one of the men
grabbed Houghtaling’s hat; he heard shots fired.
Houghtaling was facing outwards and saw defendant
firing the shots; defendant fired about four to six shots
toward Briseno.
¶ 51 After the last shot was fired, Houghtaling that
he felt a jerk/twitch; Briseno had been hit. Briseno
fell, and Pardo ran to the restaurant. When Briseno
let go of Houghtaling, Houghtaling ran away.
McMullen suggested that they should go to Cloud 9
for an alibi.
¶ 52

(d) August 13, 2008,
Testimony at Defendant’s Second Trial

¶ 53 On August 13, 2008, Houghtaling testified at
defendant’s second trial. In his direct testimony,
Houghtaling stated that he and defendant, wearing
masks, went to the Burrito Express at about 7:21 p.m.
Defendant, holding a pistol (a revolver), announced a
robbery. The owner picked up a knife, and
Houghtaling and defendant ran outside. Houghtaling

151a
slipped on ice, and Briseno and Pardo wrestled with
him. During the struggle, Briseno and Pardo pulled
up Houghtaling’s mask. Houghtaling tried to escape,
but Pardo put a knife to Houghtaling’s throat.
Houghtaling then stopped struggling. Defendant
began firing shots. Houghtaling felt Briseno jerk and
let go and then Pardo let go. Houghtaling ran to
McMullen’s (white) car. Houghtaling did not know
where defendant went. McMullen and Collett were in
the car; McMullen drove. However, he also testified
that, when he got back in the car, he said to
defendant, “Are you fucking out of your mind.”
Defendant replied, “I did what I had to do.” They went
to Weisenberger’s house and stayed until 7 a.m. the
next day. Houghtaling wore a green jacket on the
night of March 6, 2001.
¶ 54 On cross-examination at defendant’s second
trial, Houghtaling recanted his direct testimony,
stating that he had been forced to lie, “because they
want to convict [defendant] for a crime he didn’t
commit, none of us committed.” He claimed that,
“They said if I don’t give the testimony that they want
me to testify to that they would revoke my plea
agreement.” He further testified that he read about
the case in newspaper articles and read discovery
and, thus, was able to testify about it on direct
examination. Houghtaling admitted that he wore the
green jacket on the day of the shooting and on the
following day.
¶ 55 On redirect, Houghtaling acknowledged that,
when he told police in Omaha that defendant planned
the robbery, Houghtaling had not negotiated any plea
with the State. He also acknowledged that he did not

152a
have any police reports at the time of the Omaha
interview.
¶ 56

(e) Cross–Examination and
Additional Testimony at the Third Trial

¶ 57 On cross-examination during defendant’s third
trial, Houghtaling denied involvement in the
shooting. Houghtaling testified that he met with
police on March 7, 2001, the day after the shooting.
Between March 6, and May 12, 2001, (the Omaha
interview), Houghtaling learned certain details about
the case, including from newspaper accounts. In his
Omaha statement, Houghtaling included the fact that
the shooting occurred at the Burrito Express, a fact
he learned from newspapers and talking to people.
¶ 58 Houghtaling testified that, on the day of the
shooting, he was at his house. At about 6:20 or 6:30
p.m., defendant and McMullan came to his house.
They stayed for 10 to 15 minutes and then the group
went to Collett’s house. It took about 20 minutes to
reach Collett’s house. After about 5 or 10 minutes, the
group went to Twin Lakes, Wisconsin, to Cally
Brown’s (McMullen’s friend’s) house. McMullen
wanted to borrow a laptop from Brown (Cally’s
mother refused permission for McMullen to use it).
The group left Brown’s house at about 8 p.m. or
earlier. On the way back, they stopped at Cloud 9;
Collett wanted to go there. Collett went inside for 5 to
10 minutes. Next, the group went to Weisenberger’s
house, which was next to the Burrito Express. On the
way there, Houghtaling noticed police cars with
flashing lights near the Burrito Express. The group
spent the night at Weisenberger’s house. Houghtaling

153a
wore Collett’s green jacket, including to the police
station on March 7, 2001.
¶ 59 Addressing the Omaha interview, Houghtaling
testified that he was on his way to California, when
police pulled him off of a bus and arrested him. He
was 19 years old and had taken hallucinogenic drugs.
He was high. The 45–minute interview commenced at
1:30 p.m. At this point, the tape recorder was not
turned on. Houghtaling told the officers that he had
taken drugs earlier that day. Houghtaling denied
involvement in the shooting. The officers (falsely)
informed Houghtaling that defendant, McMullen, and
Collett had already been charged and had given
statements. The interrogators told Houghtaling that,
if he told them what happened, they would help him
out. Next, at 1:45 p.m., they turned on the tape
recorder and elicited his statement. Houghtaling
testified that the officers asked leading questions. On
November 14, 2001, Houghtaling pleaded guilty; he
was sober.
¶ 60 Houghtaling stated that, after he testified at
McMullan’s trial and after she was convicted, he
wrote her an apology. He further testified that, at the
time of defendant’s second trial in 2008, he had access
to all of the discovery in the case, including police and
forensic reports. Also, before he testified against
McMullen, he prepared with representatives from the
State and his recollection was refreshed. After he
testified at defendant’s second trial, Houghtaling was
charged with perjury, (voluntarily) pleaded guilty to
that charge on June 23, 2009, and was sentenced to 5
1/2 years’ imprisonment. He also stated that he could
be charged with perjury for his testimony at the third

154a
trial. Houghtaling explained, “I’m tired of lying. The
truth has to come out sooner or later.”
¶ 61 Houghtaling conceded that he testified at the
second trial that he wrote letters to the State’s
Attorney requesting a reduced sentence and money in
exchange for testimony. He also referred to assistant
State’s Attorney Robert Beaderstadt as “a little bitch
faggot.” At the third trial, he further testified that
Beaderstadt offered him money for his testimony, but
never gave Houghtaling the money.
¶ 62 Two aspects of Houghtaling’s testimony were
excluded from trial. First, defendant sought to elicit
testimony from Houghtaling that he had been called
to testify against defendant at his first trial in 2003;
that Houghtaling refused to testify; and that the
reason he refused was that defendant was not
involved in the shooting. The State raised a relevance
objection to this testimony, and the trial court
sustained the objection. Second, defendant sought to
elicit testimony from Houghtaling that he learned the
basic facts in his May 2001 Omaha statement from
news accounts and word of mouth. The State raised
hearsay and foundation objections. The trial court
sustained the objections. Defense counsel made an
offer of proof:
“Your Honor, I would ask Mr. Houghtaling and I
believe he would testify as follows: That the
following items he had learned either from the press
or from people in the time frame prior to his May
2001 statement: That the police thought that the
shooting was about 7:20 p.m.; that the police
thought that there were two young men involved.

155a
The police thought that one man had a handgun;
that the police thought that both went into the
store; that the police thought that both were
wearing black ski masks with eye holes; that the
police thought that Mr. Briseno was in the Burrito
Express with one employee; that the police thought
that Mr. Briseno was using a butcher knife at the
time; that the police thought masked men ordered
Briseno to give them money.
***
That the police thought that Mr. Briseno and the
employee chased two men out of the restaurant;
that the police thought that Mr. Briseno caught one
of the masked men outside the restaurant; that the
police thought Mr. Briseno struggled with one of the
masked men in the parking lot; that the police
thought Mr. Briseno was shot by another masked
men [sic ].
I would also ask Mr. Houghtaling whether he
understood that the possibility that Mr. Briseno
had been pistol[-]whipped was in the public [sic ],
and he would testify that he understood that was
not in the public [sic ].”
¶ 63 The trial court sustained a foundational objection
to the testimony, noting that it would not allow
defense counsel to ask the questions “without giving
some specificity to where Mr. Houghtaling had
learned that specific information. From the
newspaper? From an individual? From what officer?
Who, what, when and where.” Defense counsel urged
that, over the many years since the crime occurred,

156a
Houghtaling would not be able to supply such a level
of detail. The court reiterated that it sustained the
objection.
¶ 64

4. Detective Sergeant William Brogan

¶ 65 On May 12, 2001, William Brogan, a detective
sergeant with the McHenry police department,
interrogated Houghtaling in Omaha. (McHenry police
department detective John Jones was also present.)
Brogan was the lead detective. Houghtaling was
Mirandized. He showed no signs of being under the
influence of drugs or alcohol; however, Brogan did not
ask Houghtaling if he was on drugs that day.
¶ 66 Brogan also spoke to Houghtaling on November
12, 2001, at the McHenry County correctional facility.
Houghtaling told Brogan that, as they walked to the
Burrito Express, defendant “gave him a black knit ski
mask and told him to put it on.” Houghtaling told
Brogan that he wanted defendant to think he was a
tough “gang banger” and could handle himself. He
also related that he and defendant ran out of the
restaurant with Houghtaling being in the lead and
that Briseno and the other man chased after them.
Brogan asked Houghtaling how he knew that Briseno
had been shot and he replied, “it doesn’t take a genius
to figure it out.”
¶ 67 On cross-examination, Brogan testified that he
had training in the John Reid interrogation
technique. Part of the training is that intentional
abuses of medications or drugs can cause an innocent
subject to appear confused or disoriented. During an
interrogation, police attempt to elicit information to

157a
corroborate a confession, which can take two forms:
(1) independent corroboration, which involves the
subject supplying information unknown to the
investigator, such as the location of an unrecovered
murder weapon, which can be verified; and (2)
dependent
corroboration,
where
a
suspect
demonstrates knowledge of facts about a crime that
police have kept secret from the public (e.g., the pistolwhipping or the shout into a passing car). Brogan
further testified that investigators try to avoid using
leading questions, which are less reliable than
nonleading
questions.
During
Houghtaling’s
interrogation, the investigators first used certain
words, including “handgun,” “grabbed,” and “gunfire.”
¶ 68 Brogan testified that the following information
was public at the time of the Omaha interview: the
shooting occurred at 7:20 p.m. at the Burrito Express;
two men were involved and one had a handgun; that
they entered the store wearing black ski masks with
eye holes; Briseno and Pardo were in the restaurant
when the men entered; the men order Briseno to give
them money; police thought that Briseno and his
employee chased two men out of the restaurant;
Briseno had a butcher knife when he was in the
restaurant; Briseno, after he and his employee chased
the two men outside, caught one of the masked men;
Briseno struggled with one of the masked men in the
parking lot and was shot by the masked man with
which he was not struggling. However, Brogan
testified that the fact that Briseno had a wound on his
head caused by the blunt object (i.e., a pistolwhipping) was not publicly disclosed, nor was the fact
that Briseno had yelled something into a car.

158a
¶ 69 Brogan further stated that about 15 minutes of
interrogation preceded the recorded portion.
(Detective Jones prepared a summary of the 15–
minute portion of the interview.) During that time
(i.e., at the beginning of the Omaha interview),
Houghtaling denied involvement in the shooting.
Police (falsely) told him that defendant, McMullen,
and Collett had been charged in the case (actually,
McMullen had given a statement) and that
Houghtaling could help himself if he gave a
statement. Houghtaling then said that he was
involved and wanted to give a statement. Brogan
further testified that, also at this time, police believed
that the murder weapon was a .22–caliber revolver.
This was based on McMullan’s statement that she
had observed defendant with a revolver and because
there were no casings found at the scene. Further
addressing the interview, Brogan testified that there
were a number of long pauses before Houghtaling
answered a question.
¶ 70 According to Brogan, during the Omaha
interview in May 2001, Houghtaling first suggested
the following answers in response to nonleading
questions: that the gun was a .22–caliber weapon and
that his jacket was green.
¶ 71

5. Detectives John Jones and Jeff Rhode

¶ 72 McHenry police detective John Jones testified
that he spoke to defendant on May 12, 2001, asking
who he was with on the night of the shooting.
Defendant stated that he was with Collett and
McMullen; when asked whether he was also with

159a
Houghtaling, defendant replied that he did not know
Houghtaling.
¶ 73 Jeff Rhode, who was a detective with the City of
Woodstock and a member of the Major Investigations
Assistance Team assisting in the Burrito Express
shooting, testified that he interviewed Pardo on the
evening of the shooting. He asked Pardo if the jacket
worn by one of the suspects was a solid color, and
Pardo replied that it was green with some black on it,
but that he did not remember well. The next day, at
11:30 a.m., Rhode interviewed defendant, asking him
who he was with the prior evening. Defendant
responded that he was with “Jennifer, Justin and
Dave as I recall. Culick (phonetic) I believe is how he
stated his last name.”
¶ 74

6. David Collett

¶ 75 On direct examination, David Collett denied
knowledge of who robbed the Burrito Express. He
testified that he does not know who shot Briseno. On
September 13, 2001, he pleaded guilty to attempt
armed robbery of the Burrito Express. He explained
that he did so because it was “a plea of convenience”
and because he did not want to take any chances.
Collett wanted to avoid a long prison term if he was
convicted. He was represented by an attorney, and no
one forced him to plead guilty.
¶ 76 At his sentencing hearing, Collett stated to
Briseno’s widow (who had testified to the impact his
death had on her life):

160a
“ ‘I’d just like to say that I’m no—no apology—
nothing I can possibly say can help the victims with
what they’re dealing with, but I can offer my
apologize apology [sic ]. I really if I would have
known that any of this would have happened, I
really would have tried to do something to stop it,
but, honestly, I mean, I really didn’t think that
anything like that would have happened was going
to happen. If the judge, [sic] I will follow through
with it completely and to the Court’s satisfaction. I
would just like to apologize again to the victims for
their loss. Thank you.’ ”
Collett denied that he apologized because he had
remorse for what he did, explaining that he
apologized because “of the grief she was going
through.”
¶ 77 Collett further testified that, on the evening of
March 6, 2001, he was with defendant and
Houghtaling. Collett had known defendant for a
couple of months and currently has no relationship
with him. They were at Collett’s father’s house near
Fox Lake. McMullen picked them up, and they left for
Wisconsin to obtain a laptop from Cally Brown. On
the way back, they planned to go to Weisenberger’s
house behind the Burrito Express, but Collett got into
an argument with Houghtaling. According to Collett,
Houghtaling would not return his green coat and it
was cold out. McMullen, who drove, pulled the car
over, and defendant told Collett to get out to blow off
some steam. Collett walked to Weisenberger’s house
(which took a couple of minutes), but Weisenberger
was not home. Collett then went to Cloud 9, which
had recently opened. On his way, he heard a noise

161a
that sounded like a car backfiring. However, on May
12, 2001, Collett told police that, as he walked behind
the Burrito Express and up to Weisenberger’s
backyard, he heard what could have been two
gunshots. Collett explained at the third trial that the
police suggested that the noise could have been
gunshots; Collett never heard shots.
¶ 78 Collett could not recall where defendant and
Houghtaling were when Collett heard the car
backfiring and could not recall if, on the way to Cloud
9, he turned around and walked back toward
McMullen’s car. However, on May 12, 2001, he told
police that he walked back to the car and that
defendant and Houghtaling were in the car. At the
third trial, Collett denied talking to defendant
afterwards about what happened at the restaurant.
On May 12, 2001, however, he told police that, when
he got into McMullen’s car, defendant stated that
some “kids” just robbed the Burrito Express.
¶ 79 Collett went to Cloud 9. As recorded on a
surveillance tape, he first appeared in a back room
area at 7:38 p.m. and left that area at 7:44 p.m. After
he walked out, he got in the car with McMullen,
defendant, and Houghtaling, and went to
Weisenberger’s house. (Collett was the only one with
valid identification, which was required to enter
Cloud 9.) He drank and watched television. Collett
denied that he spoke to defendant about the incident.
He explained that they only discussed what they
learned in news reports. On May 12, 2001, Collett told
police that he asked defendant what happened at the
Burrito Express and that defendant stated “ ‘just had
some fun.’ “ Collett testified that he would not have

162a
lied to the police “beside the fact that I was 18 and
scared.”
¶ 80 On cross-examination, Collett testified that,
after he had visited Cloud 9 and on the way to
Weisenberger’s house in McMullen’s car, he saw
police, squad lights, and a crowd. He stated, “I wonder
what’s going on,” and the others in the car replied that
they did not know. When they reached
Weisenberger’s house, Weisenberger had returned
home and the group went inside. At some point,
Weisenberger’s brother joined them that night.
Collett could not recall any scratches, bruises, or
blood on defendant or Houghtaling. At one point,
Collett and Weisenberger left to purchase beer. The
group spent the night at Weisenberger’s house.
Collett drank all night.
¶ 81 Collett denied seeing any weapon on the night of
the shooting or seeing anybody with a ski mask. He
also denied knowing DeCicco, Hiland, or Levand.
¶ 82 7. Defendant’s Case–Detective Richard Solarz
¶ 83 Detective Richard Solarz interviewed
Houghtaling on March 7, 2001, at the McHenry police
department. Houghtaling wore the green jacket to the
police station. Solarz did not observe any blood stains
on the jacket, nor did he notice any scratches on
Houghtaling’s face or hands.
¶ 84

8. Sergeant Michael Brichetto

¶ 85 Sergeant Michael Brichetto of the McHenry
County Major Investigations Assistance Team

163a
testified that he interviewed Pardo on March 8, 2001.
Brichetto showed Pardo a photo array of five
photographs, including those of defendant, Collett,
Weisenberger, and Houghtaling. Pardo did not
identify any of the photos as being someone involved
in the incident. Brichetto testified that he was
unaware when the photos of defendant and his group
were taken that were included in the photo array. He
stated that Pardo was not shown photos of defendant
and Houghtaling that were taken after the incident.
The photo of defendant in the photo array depicts him
with facial hair. Pardo was not shown a photo lineup,
which is a photo setup where individuals with similar
characteristics are selected so as not to tilt the
selection in any particular way.
¶ 86

9. James Weisenberger

¶ 87 James (Jimmy) Weisenberger, age 34, testified
that he has known defendant since Weisenberger was
14 years old and that they are good friends. On the
evening of March 6, 2001, defendant, Houghtaling,
Collett, and McMullen came to his house. Before they
arrived, Weisenberger observed police activity in the
area around the Burrito Express in the plaza behind
his house. Addressing defendant’s appearance that
evening, Weisenberger testified that defendant had
facial hair (a moustache and goatee). Houghtaling
wore a green jacket. He could not recall what Collett
wore that evening. Weisenberger did not notice any
blood or scratches on his guests, nor did he observe
ski masks, weapons, bullets, or bullet shells.
Weisenberger did notice that defendant and
Houghtaling were about the same height. Later that
evening, Weisenberger rode in McMullen’s car and

164a
did not notice any blood, guns, bullets, or ski masks
inside the car. Over defense counsel’s objection,
Weisenberger testified that he has twice tried cocaine,
taken “random pills,” and smoked marijuana (as a
teenager).
¶ 88 10. Levand’s Confession to Patrick Anderson
¶ 89 Patrick Anderson testified that he is currently
incarcerated. He lived in McHenry in 2001 and was
good friends with Levand, whom he called Rusty. He
also knew Susanne Dallas DeCicco, who was Levand’s
girlfriend at the time.
¶ 90 In the summer of 2011, Anderson was
incarcerated in the McHenry County jail, as was
Levand. In July, Levand told Anderson that he was
involved in the Burrito Express shooting. Levand
related that he and DeCicco’s cousin (i.e., Hiland)
attempted to rob the restaurant. Briseno chased them
outside, and Levand fired over his shoulder and shot
Briseno. Hiland called Levand for help, and Levand
hit Briseno on the head with the gun. They fled and
met with DeCicco. Levand and Hiland got into
DeCicco’s car and went to Levand’s mother’s house to
clean up (Hiland was covered in blood). They burned
the masks and clothes they wore and tried to clean up
DeCicco’s car (there was blood on the back seat). They
were unable to clean the car, and, several month later,
Levand stole DeCicco’s car and burned it somewhere
in Wisconsin.5 Levand further told Anderson that he
By stipulation, defendant presented police testimony that
DeCicco’s car was found on June 27, 2001, in Racine, Wisconsin,
destroyed by fire. A preliminary investigation revealed that an
accelerant burned the vehicle.
5

165a
was not worried about being prosecuted because the
State had the gun for several years and nothing had
come of it.
¶ 91 Anderson was incarcerated in McHenry in 2001
at the same time as defendant, but he does not know
defendant. Defendant never told Anderson about this
case. Anderson approached defendant with the
information he had from Levand and wrote to defense
counsel.
¶ 92 On cross-examination, Anderson was told that
Levand was actually in jail from June 6 through June
10 of 2011. Anderson testified that “when you’re in
jail, you really don’t pay attention to the months
because you’re doing time” and that the date could
have been June instead of July. In 1993, Anderson
was convicted of aggravated criminal sexual assault;
in 2001 and 2005, of possession of a controlled
substance; and in 2005 and 2006, he was convicted of
retail theft. Anderson was found guilty in 2011 of
attempted unlawful possession of a handgun by a
felon and delivery of a controlled substance.
¶ 93.

11. DeCicco’s Confessions to Sergeants
Doug Vandermaiden and Virgil Schroeder

¶ 94 Susanne Dallas DeCicco gave two videotaped
confessions to police: one in November 2005 and
another in January 2006. Both were played to the
jury.
¶ 95

(a) DeCicco’s 2005 Confession in Quincy

166a
¶ 96 Sergeant Doug Vandermaiden, a patrol sergeant
with the Quincy police department, testified that he
participated in the first interview, on November 19,
2005. Vandermaiden testified that in November 2005,
he worked as a patrol officer with the Quincy police
department and came into contact with DeCicco on
November 5, 2005, at a Kohl’s retail store to
investigate a retail theft; DeCicco was a suspect.
DeCicco provided as her name “Elizabeth Schwartz.”
He arrested her, and she was released the same day.
Vandermaiden testified that he next spoke to DeCicco
on November 18, 2005, on the telephone; he wanted
her to come to the police station to discuss why she
gave a false name and to discuss the Burrito Express
shooting. He promised her that, if she was truthful,
he would issue a citation and release her.
Vandermaiden interviewed DeCicco two times on
November 19, 2005. DeCicco arrived with her mother
and her boyfriend. The first interview was
videotaped. DeCicco was questioned about her prior
statements concerning the Burrito Express shooting
and stated that she had made up her story and that it
was a joke. She denied involvement in the shooting.
In the second interview, most of which was recorded,
DeCicco denied involvement in the shooting.
Vandermaiden issued DeCicco a citation for retail
theft and released her that day. Vandermaiden spoke
with DeCicco’s boyfriend and with Elizabeth
Schwartz. During the completion of the booking
process, Vandermaiden made a comment about the
shooting and DeCicco bowed her head, started crying,
and stated that “ ‘they made me do it.’ “ As
Vandermaiden walked out to commence a third
interview, DeCicco stated that she was surprised that
nothing happened when they picked up the gun and

167a
that her cousin had hired an attorney because he
thought something was going to happen. DeCicco
stated on an audiotape that, on the night of the
shooting, she was with Levand and Hiland and that
Levand was the shooter. Vandermaiden promised
DeCicco that she would not be arrested until after
Thanksgiving (the following Thursday).
¶ 97 During the (third) videotaped interview, DeCicco
stated that Briseno was murdered on March 5, 2001,
the date her niece was born. She, her boyfriend
Levand, and her cousin Hiland committed the crime.
DeCicco’s sister went into labor that day, and the
group went to the hospital. DeCicco sent Levand and
Hiland to her mother’s house to get the maternity bag.
They took DeCicco’s vehicle, a 2001 silver, 2–door,
Chevy Cavalier, and were gone about 1 1/2 hours. (It
should have taken 30 minutes.) When Levand and
Hiland returned, they were acting funny. DeCicco
further stated that, from the hospital, the three went
to her biological father’s, Ben DeCicco’s, house and,
outside, Levand and Hiland started going through her
car’s trunk; inside was a gun (a revolver) wrapped in
a towel. It was her stepfather’s, David Brummett’s,
revolver. (One day, DeCicco saw Levand and Hiland
going through her stepfather’s bedroom and they
mentioned a gun.) DeCicco saw the gun and told
Levand and Hiland to put it back. Levand and Hiland
left at one point, and, after 20 minutes, DeCicco drove
to look for them. (“ ‘[T]hey had talked before about
snatching purses or robbing somebody to get money.’
”) She found them near the Burrito Express. She saw
them run into the restaurant and, later, run back out,
as did the two men who worked there. All four ran
across the street in front of her car, and one of the

168a
Hispanic men turned around and yelled something
inside DeCicco’s car. She kept driving.
¶ 98 DeCicco returned to her driveway and heard six
gunshots. Levand and Hiland ran out of the woods
behind her house. Hiland’s face was covered in blood,
and he had a cut on his hand. The men got into
DeCicco’s car (Levand in front and Hiland in back)
and ordered her to drive way. When Hiland entered
her car, DeCicco saw blood. Hiland told her it was not
his own blood. She knew at this point that they had a
gun. Levand threw the gun on the back seat, and
Hiland cleaned it. First, DeCicco drove to Levand’s
grandmother’s house (where they threw out a scarf or
gloves) and then she drove to her mother’s, Vicki
Brummett’s, house. At this point, Hiland carried the
gun. Hiland put the clothes in a bag and burned them
the next day. Hiland and Levand cleaned the gun (he
pulled out Briseno’s hair from it) and returned it to
her stepfather’s home. DeCicco told her sister of the
incident, who, in turn, told their mother. DeCicco’s
mother called the police, who subsequently collected
the gun. (DeCicco also told her story to her friend
Brittany Tyda.)
¶ 99 DeCicco then stated that a detective, Roger
Pechous, came to her McHenry County jail cell at one
point late at night and told her that the wrong people
had been arrested. However, he next stated that he
was joking. He also stated that a detective Brown was
a new detective for the “bad guys” and that DeCicco
did not have to speak to him and that there were
rumors that he had beaten a confession out of one of
the suspects. Brown was trying to help defendant.
DeCicco stated that Pechous did not intimidate or

169a
coerce her or promise her anything. Pechous
recommended to her that she not speak with Brown
and that she not tell anyone that Pechous came to
speak to her. DeCicco believed that Pechous knew
that her group was guilty.
¶ 100 Levand told her that one of the men in the
restaurant threw a knife at him and Hiland, who then
ran out of the restaurant. Levand also told DeCicco
that one of the restaurant workers caught Hiland and
dragged him across the parking lot. Levand became
frantic and started shooting. The final shot hit
Briseno. Levand heard him say “uhhhh” and spit
blood on Hiland. Briseno raised his knife and
struggled with Hiland and Levand came up and hit
him on the head. Months later, DeCicco’s car was
stolen. Levand and Hiland took her car to Wisconsin
and burned it because it had bloodstains on the back
seat.
¶ 101 DeCicco also related that she told her sister,
mother, and a friend that Levand and Hiland
committed the robbery, but she did not contact police
out of fear of being hurt by Levand and Hiland. Her
mother and sister spoke to police about the incident.
¶ 102

(b) DeCicco’s 2006 Confession

¶ 103 Turning to DeCicco’s second confession,
Sergeant Virgil Schroeder of the Illinois State Police
testified that, in January 2006, he (and William
Kroncke) interrogated DeCicco, who was incarcerated
at the Dwight correctional facility (for retail theft).
They interviewed her at the State’s request. The state
police never arrested DeCicco, Levand, or Hiland for

170a
the Burrito Express shooting. Schroeder testified that
DeCicco made accusations against members of the
McHenry police department. The state police
investigated such allegations, and there was no
finding of malfeasance by the McHenry police
department.
¶ 104 In DeCicco’s 2006 version of the events, she
stated that the shooting occurred either on March 5,
or 6, 2001. She first mentioned that Levand and
Hiland each wore masks when they entered the
Burrito Express, but later, when asked why Levand
or Hiland (it is unclear to whom the interrogators are
referring) had to clean blood off his face when he wore
a mask, she stated that Levand wore a mask and
Hiland wore a scarf over his face. She also stated that
Hiland had (Briseno’s) blood on his face and that had
dripped onto his shirt. At another point in the
interrogation, DeCicco described Hiland and Levand
as both covered in blood (“ ‘they were covered in blood’
”). By the time they reached DeCicco’s mother’s house
in Johnsburg, Levand had cleaned off the blood from
his face. When asked how she knew that Levand and
Hiland had a gun when they arrived at her father’s
house from the hospital, DeCicco stated that she saw
them looking through her car’s trunk and, although
she did not actually see the gun, she knew for certain
later when she saw it near the restaurant that that
was what they were handling in her trunk. (In her
2005 version, DeCicco stated that she did see the gun
when Levand and Hiland unwrapped the towel; she
described it as a revolver; and stated that she told
them to put it back inside the house.) In 2006, DeCicco
stated that she saw the gun twice: when Levand and
Hiland entered the restaurant and when Levand ran

171a
toward her car. Also in this version, DeCicco stated
that Levand sat in the front seat with the gun. (In
2005, she told the interrogators that Levand threw
the gun on the back seat.)
¶ 105 DeCicco also stated that Pechous came to her
cell in the jail late at night and told her not to speak
to the new detectives and not to tell them that
Pechous came to see her. When the interrogators told
her that Pechous’ visit was not secret (because he had
written a report about it), that he reported a second
visit, and that he did not report that he met with her
in the middle of the night, DeCicco responded, “It’s
been a while.”
¶ 106 DeCicco noted for the interrogators that the fact
that Briseno was hit in the head with the gun “ ‘was
not in the papers anywhere. How would I know that
unless the people who did it actually told me?’ “ She
was uncertain if she heard six gunshots.
¶ 107 DeCicco stated that she spoke to McMullen
while they were both incarcerated in the McHenry
County jail and that McMullen stated that another
woman in the jail was claiming that she was involved
in the shooting. McMullen denied that she was
involved in the shooting. DeCicco had told McHenry
police that she never told anyone that she was
involved and that she never told a cell mate. When
confronted with these inconsistencies, DeCicco stated
that she was scared.
¶ 108 DeCicco also mentioned during the
interrogation that Hiland told her that he saw an
attorney because “they thought—after they took,

172a
after they took the weapon, everybody thought we
were going to jail.”
¶ 109 The interrogators next confronted DeCicco
about statements she had made to the McHenry
police department. DeCicco had initially told the
police that she lied about her group’s involvement in
the shooting. DeCicco denied this to the interrogators
and denied that she told them she had never been in
a cell with McMullen. DeCicco also told interrogators
that she first told her sister about the incident, but
later told her it was not true.
¶ 110 12. DeCicco’s Confession to Vicki Brummett
(DeCicco’s Mother)
¶ 111 Vicki Brummett, DeCicco’s mother, testified
that she is married to David Brummett. She has been
convicted of possession of a controlled substance. In
March 2001, DeCicco, Levand, and Hiland lived, off
and on, with Brummett in her home in Johnsburg.
When she was not living with Brummett, DeCicco
lived with Ben DeCicco, her biological father, in
McHenry on Waukegan Avenue near the Burrito
Express. On March 6, 2001, Brummett was at the
hospital with her daughter Elizabeth Schwartz, who
had just had a baby. She left the hospital after dark
and went home. On her way, she saw police activity
near the Burrito Express. When she arrived home,
DeCicco, Levand, and Hiland were at her house in the
basement. Prior to the shooting, Hiland did not have
scratches on his body; however, afterwards, his hand
and knees had scratches on them.

173a
¶ 112 Brummett’s husband, David, owned a handgun
that he kept in their bedroom closet; it was wrapped
in a blue towel. Others in the household had access to
the bedroom. Around November 2001, Brummett
gave the gun to police. At about the same time, she
had a conversation with DeCicco about the Burrito
Express shooting. DeCicco confessed to her mother,
telling her that, on the evening of March 6, 2001,
DeCicco drove to pick up Levand and Hiland and
found them standing outside the restaurant. Levand
and Hiland ran inside and, later, everyone ran out.
One man ran in front of DeCicco’s car and yelled for
her to call the police. DeCicco told Brummett that she
drove home. She also told her mother that the gun
belonged to the Brummetts and that “the guy was hit
with the gun and that she thought they’d find out—
we’d find out that they used the gun because there
was a crack in the barrel—or the handle.”
¶ 113 Brummett’s granddaughter was born on March
5, 2001, not the following day. Brummett conceded
that DeCicco has a drug problem and has asked
Brummett for money and has lied to her on more than
one occasion. The day that Brummett heard the sirens
was the day after her granddaughter was born.
¶ 114

13. Brittany Tyda, Elizabeth
Schwartz, and Carly Rexford

¶ 115 Brittany Tyda, a childhood friend of DeCicco’s
and Levand’s, testified that DeCicco confessed to her
about the Burrito Express shooting in October 2001.
DeCicco and Levand were at Tyda’s apartment in
McHenry. DeCicco spoke to Tyda about the shooting;
she cried and was upset and stated that she saw

174a
Levand and Hiland attempt to rob the Burrito
Express. DeCicco related that the store manager
grabbed Hiland and had a knife; Hiland screamed for
Levand, and Levand shot the manager. DeCicco made
another statement about the shooting. While they
were in Tyda’s apartment, DeCicco told Levand that,
if he went to the police about DeCicco writing bad
checks (which he had threatened to do), then “she
would go to the police about him shooting someone.”
They were having an argument. Within one year of
the shooting, Tyda spoke to McHenry police. She
could not recall if she told police that DeCicco lived
with her and that she kicked out DeCicco.
¶ 116 Elizabeth Schwartz, DeCicco’s sister and
Hiland’s cousin, testified that she is currently
incarcerated for retail theft and has previous
convictions for forgery and burglary. Schwartz
testified that DeCicco visited her in the hospital on
March 6, 2001. Schwartz’s daughter was born the
previous day. At that time, DeCicco lived with Ben
DeCicco near the Burrito Express. About three weeks
after the shooting, while they were at the Brummett
residence, DeCicco told Schwartz that Hiland was
involved in the Burrito Express shooting. DeCicco did
not provide any additional information. Schwartz told
her mother. Schwartz further testified that, in the
week following the shooting, she noticed that Hiland
had cuts on the inside of his hand and bruises on his
arm. He told Schwartz that he had fallen down her
father’s (Ben DeCicco’s) back stairs.
¶ 117 Two to three months after the shooting, Hiland
confessed to his cousin, Schwartz. They were in her
van outside a restaurant near the Burrito Express.

175a
Hiland did not want to exit the van, fidgeted, became
irritated and panicked. Schwartz told Hiland that
DeCicco told her that he was involved in the shooting.
He replied, “ ‘She is a fat fucking bitch and she can’t
keep her mouth shut. She needs to keep her mouth
shut.’ “ Hiland asked Schwartz to drive away. As they
drove away, Hiland stated that the DeCicco group had
been smoking crack on the night of the shooting and
that DeCicco dropped off Hiland and Levand at the
Burrito Express. Hiland and Levand went inside the
restaurant to rob it, but they were chased out.
Schwartz explained that, “Well, one of them got ahold
of my cousin [i.e., Hiland] with a knife and when he
was trying to stab him, he was forced to grab hold of
it, yelling for [Levand] to help. And I’m not—I can’t
remember which way it went, whether [Levand] was
shooting while he was running or if he had to come up
and hit him in the head and he still wouldn’t stop, so
then he shot him. I can’t remember how it went.”
Schwartz clarified that she could not recall if Levand
hit Briseno first (she was uncertain with which part
of the gun) or shot him first. DeCicco picked them up
afterwards. In 2003, Schwartz stated in a written
statement that Levand hit Briseno with the butt of
the gun.
¶ 118 Schwartz further testified that, when DeCicco
is arrested, she sometimes uses Schwartz’s name.
Addressing DeCicco’s reputation for truthfulness,
Schwartz testified that she is not always truthful with
others.
¶ 119 Carly Rexford, DeCicco’s half-sister (their
father is Ben DeCicco), testified that she visited
Schwartz at the hospital on March 6, 2001. DeCicco

176a
was there, too, but left before Rexford, stating that
Levand and Hiland were waiting for her in her car. At
the end of 2005, DeCicco and Vicki Brummett were at
Rexford’s home in McHenry. DeCicco told Rexford
that she confessed to police about the Burrito Express
shooting because it had been weighing on her
conscience. DeCicco told Rexford that Hiland and
Levand took David Brummett’s gun and that the
victim grabbed Hiland and that Levand shot him.
Levand had threatened her that, if she ever told
anyone about their involvement, she would be
punished. Rexford had heard that DeCicco and
Levand had a stormy relationship, but never
witnessed it. She had also heard that DeCicco used
narcotics, but never witnessed it.
¶ 120 14. Hiland’s Confession to R. Daniel Trumble
¶ 121 R. Daniel Trumble testified that he has a
conviction related to writing bad checks. He knows
DeCicco; she is the sister of a longtime friend
(Christopher Schwartz). Trumble lived with Hiland in
2001 or 2002. Trumble testified to about three
conversations he had with Hiland in the summer of
2002. During the first conversation at their home,
Hiland told Trumble that the wrong people had been
arrested for the murder and that he was involved in
it, along with two others (DeCicco and Rusty). During
his confession to Trumble, Hiland was shaking and
crying. They had been drinking. Hiland further told
Trumble that the three went to rob the restaurant
and that “it had gone wrong” because one of the
workers pulled a knife; Levand shot him.

177a
¶ 122 At this point in the proceeding, the trial court
sustained the State’s relevance objection to Trumble’s
testimony concerning Hiland seeing an attorney.
Defense counsel made the following offer of proof.
Trumble would testify that he told Hiland to see an
attorney. Trumble arranged a meeting with attorney
Ed Edens. The three met at a restaurant, Hackney’s,
in Lake Zurich in 2002. Trumble would testify to
certain inculpatory statements that Hiland made and
would testify that Edens told Hiland that he should
not come forward with his statement given that other
arrests had been made.
¶ 123 After the offer of proof, Trumble resumed his
testimony before the jury. Trumble testified that, a
few days after the first conversation with Hiland, he
had a second conversation with him about the
shooting at a restaurant in Lake Zurich. This time,
Hiland was sober and repeated the confession he had
given at the apartment. He emphasized that Levand
was the shooter. Hiland was upset.
¶ 124 During a third conversation, which occurred on
the way home from the restaurant, Hiland told
Trumble that, since someone else was arrested, he
was not going to do anything. Trumble further
testified that he never went to the police with the
foregoing information.
¶ 125 15. Hiland’s Confession to Gina Kollross
¶ 126 Gina Kollross testified that Hiland once lived
with her and that he is her sister’s (Charlene
McCauley’s, formerly Nicky Hiland’s) brother.

178a
Kollross knew DeCicco and Levand. Kollross dated
Andrew Hiland, Adam Hiland’s brother, in 2001.
¶ 127 Kollross testified that Adam Hiland first spoke
to her about the shooting a couple of days after it
occurred and while they were in Vicki Brummett’s
basement. Andrew was also present. During a second
conversation, one to two weeks after the shooting, in
an apartment in Hebron, Hiland confessed to
Kollross. He told her that the group had planned to go
in and rob the restaurant, but the owner chased him
with a knife and then Levand shot him to free Hiland.
Briseno “was going after his arm and his hand.”
¶ 128 When Kollross saw Hiland in the days after the
shooting, she noticed that his hand was wrapped up.
He first stated that he fell down stairs, but later
stated that he was cut with a knife during the
shooting. Levand, DeCicco, and Hiland are drug
users.
¶ 129

16. Hiland’s Confession to
Charlene Nicky McCauley

¶ 130 Charlene Nicky McCauley testified that she is
Hiland’s sister. In 2001, McCauley lived with Vicki
and David Brummett (Vicki is her aunt, and DeCicco
is her cousin). DeCicco, Levand, Hiland, and
Schwartz also lived with the Brummetts. While living
there, McCauley observed the DeCicco group pick the
lock to and enter the Brummetts’ bedroom. One day
after the shooting, McCauley observed Hiland with
bandages on his forearms. He explained that he slid
on icy stairs at Ben DeCicco’s house.

179a
¶ 131 McCauley moved out of the Brummett house in
the summer of 2001. Right before Christmas 2001,
Hiland confessed to McCauley. He told McCauley that
the DeCicco group was at DeCicco’s father’s house,
smoking crack in the garage. They ran out of drugs
and wanted to get more money. The group decided to
rob the Burrito Express. Levand and Hiland went
inside, and the owner started to chase after them. One
of the men grabbed Hiland, they fought, and Levand
shot him. After Hiland confessed to McCauley, he
appeared depressed, ashamed, and relieved.
¶ 132 McCauley denied telling representatives of
defendant that, after her conversation with Hiland,
she gave him money. Hiland did not tell McCauley
that he was cut during the shooting. She might have
told the representatives that Hiland was cut during
the shooting because she assumed that to be the case.
McCauley never contacted the police.
¶ 133

17. State’s Rebuttal—Roger Pechous

¶ 134 Roger Pechous testified that he was a detective
with the McHenry police department in 2001. At that
time, he had known DeCicco in his professional
capacity for seven years. He denied ever going to the
correctional facility in the middle of the night to
interview her. Pechous also testified that he did not
tell DeCicco that there was a detective Brown
working for the “bad guys.” He did not know a
detective Brown and never told DeCicco that his
department had arrested the wrong individuals.
Finally, Pechous testified that he never told DeCicco
not to speak to a detective Brown.

180a
¶ 135

18. Russell (Rusty) Levand

¶ 136 Russell (Rusty) Levand testified that Patrick
Anderson is an acquaintance and that they were both
incarcerated in the McHenry County jail from June 6,
through June 11, 2011. Levand was incarcerated for
drug possession and burglary. (At the time of trial, he
was on probation for theft and drug possession.)
Levand denied that he confessed to Anderson and
denied that he was at the Burrito Express on the
night of the shooting. Levand dated DeCicco from
when he was ages 14 to 17. He broke up with DeCicco
on March 7, 2001. He met his wife, Wanda Levand, on
March 10, 2001.
¶ 137 On cross-examination, Levand testified that, in
2003, he was convicted for aggravated battery in
McHenry County. In 2004, he was convicted of
obstructing justice; in 2005, he was convicted of
possession of a controlled substance in Cook County;
and in 2006, he was convicted of theft in McHenry.
Levand denied that he “played” with the Brummett
gun and denied that he was involved in the Burrito
Express shooting, ever shooting a gun, or telling
DeCicco that he was involved. Levand testified that
he was at a hotel when DeCicco’s car was stolen in
June 2001. He did not have a conversation with
Anderson about the car in the summer of 2011.
¶ 138

19. Susanne Dallas DeCicco

¶ 139 Susanne Dallas DeCicco, age 29, testified that
she dated Levand for a few years. In 2002, DeCicco
was convicted of obstructing justice and possession of
a controlled substance; in 2004, she was convicted of

181a
theft; in 2005, of retail theft (twice) and obstructing
justice; and she is currently incarcerated for unlawful
possession of prescription medication.
¶ 140 DeCicco denied that Roger Pechous came to see
her in the middle of the night while she was in a
correctional facility. She told state police that he had
done so. When initially asked why she told the story,
she replied, “I don’t have an answer for that. I can’t
make sense of a lot of things that I said.” When asked
again about her statements to state police, DeCicco
stated that she was in the Department of Corrections
and “they then came to see me and knowing that I had
lied to the Quincy Police Department, I feared further
charges before I was released from prison at the time.
It just somehow made sense to me that if I just lied a
little longer, I’d be able to get out and deal with it
later. * * * I wanted to get out and I thought if I told
them I lied, I would have got in more trouble.”
¶ 141 Addressing McMullen, DeCicco stated that she
has met her on two occasions, including at the Dwight
correctional facility. DeCicco denied that she ever had
a conversation with McMullen about the shooting.
DeCicco followed the story in the news. She told her
family that she was involved in the shooting because
she is a heroin addict and her family gave her money
for drugs. Initially, the story was “a joke” between
DeCicco and her sister, Elizabeth Schwartz.
¶ 142 When questioned why she told personnel from
the Quincy police department that she had knowledge
of the Burrito Express shooting, DeCicco testified that
“because when I said no, it wasn’t a good enough
answer and I was told that I would definitely be

182a
leaving that day if I basically said something different
and I was ready to go home.” One of the interrogators
had called her the previous day and told her that she
would be able to leave if she told the truth. DeCicco
arrived with her mother and boyfriend. The interview
was on Saturday, November 19, 2005, and she wanted
to be released before Thanksgiving the following
Thursday. She confessed during the interview
because she wanted to leave jail that day. She did not
contemplate that confessing to a role in a murder
could possibly involve additional incarceration time.
¶ 143 DeCicco denied that she read police reports in
this case. She acknowledged testifying in 2008, but
testified that she could not recall if she stated at that
time that she had reviewed police reports. On the day
of the shooting, DeCicco was in the process of moving
from her biological father’s, Ben DeCicco’s, house to
her mother’s, Vicki Brummett’s, house. She visited
her sister in the hospital. Levand and Hiland were
there. They left for about one hour to retrieve
Schwartz’s maternity bag. They returned, and
DeCicco then left with them. They drove to Ben
DeCicco’s house, which is around the corner from the
Burrito Express. Hiland and Levand were helping
DeCicco move. DeCicco denied (but also stated that
she did not remember) that she saw a blue towel in
the trunk of her car when Hiland and Levand were
standing by it. (She could not recall if she had testified
in 2008 that she saw it.) She knew that David
Brummett kept a gun in his closet wrapped in a blue
towel.
¶ 144 In June 2001, DeCicco attended a party for her
brother at a hotel in Gurnee. Her brother drove

183a
DeCicco in his car. Hiland and Levand came to the
party in DeCicco’s car. When she woke the next
morning, DeCicco noticed that her car was gone. She
contacted the police and later learned that her car
was burned.
¶ 145

20. Adam Hiland

¶ 146 Adam Hiland testified that he is currently in
custody for fleeing and eluding (out of Wisconsin). He
has been convicted of attempted burglary, possession
of a controlled substance (twice in 2004), aggravated
fleeing of police in 2005, aggravated battery in 2008
and 2011, and fleeing or eluding an officer (in 2011).
Hiland denied that he has ever been cut with a knife
on his hands or arms. (The State had Hiland show his
hands and arms to the jury.) Hiland testified that he
does have a scar on his hand from when he was tased
on his most recent fleeing and eluding case; he “hit
the pavement and it knocked a chunk of skin out of
my hand.” The police tased him because he was
running. Hiland denied that he told his cousin
Elizabeth Schwartz that he got the scar by grabbing
a knife at the Burrito Express.
¶ 147

21. Verdict and Sentence

¶ 148 On February 29, 2012, the jury returned a
guilty verdict on all counts and found that defendant
personally discharged the firearm that killed Briseno.
On April 26, 2012, the trial court sentenced defendant
to 67 years’ imprisonment for first-degree murder6
The court found that the two first-degree murder convictions
merged and specified that the 67–year total sentence was
6

184a
and a concurrent sentence of 7 years’ imprisonment
for attempt armed robbery. On May 9, 2012, the trial
court denied defendant’s motion to reconsider the
sentence. Defendant appeals.
¶ 149
¶ 150

II. ANALYSIS
A. Motion Taken with the Case

¶ 151 Preliminarily, we address the State’s motion,
taken with the case, to strike defendant’s statement
of facts and order defendant to submit a new
statement of facts in compliance with Illinois
Supreme Court Rule 341(h)(6) (eff. July 1, 2008). The
State argues that defendant’s statement of facts is
“permeated” by argumentative statements and
comments, including a hypothetical that he asks this
court to consider. Defendant responds that, with one
exception, none of the statements about which the
State complains will hinder our review of the case and
requests that we deny the motion to avoid needless
delay. Rule 341(h)(6) provides that an appellant’s
brief include a statement containing “the facts
necessary to an understanding of the case, stated
accurately and fairly without argument or comment.”
The court has discretion to strike an appellate brief.
People v. Thomas, 364 Ill.App.3d 91, 97 (2006).
Generally, a reviewing court will not strike portions
of a party’s brief unless it includes such flagrant
improprieties that it hinders our review of the issues.
Id. Our review of defendant’s statement of facts and
comprised of 42 years for the murder conviction (on a sentencing
range of 20 to 60 years) with a 25–year firearm enhancement.

185a
the record indicates that it contains impermissible
argument; however, they do not hinder our review of
the case. We decline the State’s request to strike
defendant’s statement of facts, but we will disregard
any inappropriate or argumentative statements,
including the hypothetical. See Jane Doe–3 v. McLean
County Unit District No. 5 Board of Directors, 2012 IL
112479, ¶ 10 fn. 4.
¶ 152

B. Sufficiency of the Evidence

¶ 153 Defendant argues that the evidence was
insufficient to sustain his convictions. Defendant
argues that the evidence reflected that: he made no
incriminating statement; there was no physical
evidence (i.e., gun, fingerprints, DNA, or blood)
connecting him to the crimes; there was no eyewitness
testimony that he was involved or live sworn
testimony from any purported accomplice linking
defendant to the crimes; and the only incriminating
evidence was Houghtaling’s prior inconsistent
statements (admitted as substantive evidence), and
recanted on the stand. Defendant contends that the
State’s case rested entirely on Houghtaling’s
uncorroborated and unreliable prior statements and
was simply insufficient to convince a reasonable juror
beyond a reasonable doubt. Defendant also asserts
that the physical and circumstantial evidence and
eyewitness testimony not only was insufficient to
convict, but also cut against the State. Further, when
the case against the DeCicco group is considered, no
reasonable trier of fact, defendant argues, could have
convicted him. For the following reasons, we reject
defendant’s argument.

186a
¶ 154 In reviewing the sufficiency of the evidence in a
criminal case, our inquiry is whether, after viewing
the evidence in the light most favorable to the
prosecution, any rational trier of fact could have
found the essential elements of the offense beyond a
reasonable doubt. People v. Davison, 233 Ill.2d 30, 43
(2009) (quoting Jackson v. Virginia, 443 U.S. 307, 319
(1979)). Under this standard, all reasonable
inferences from the evidence must be allowed in favor
of the State. People v. Martin, 2011 IL 109102, ¶ 15.
¶ 155 Here, the State was required to prove as to firstdegree murder that defendant killed Briseno while
attempting or committing armed robbery. The armed
robbery statute (720 ILCS 5/18–2 (West 2002))
provides that a person “commits armed robbery when
he or she violates Section 18–1 while he or she carries
on or about his or her person, or is otherwise armed
with a dangerous weapon.” The robbery statute
provides that “[a] person commits robbery when he
takes property from the person or presence of another
by the use of force or by threatening the imminent use
of force.” 720 ILCS 5/18–1 (West 2002). Finally, a
“person commits an attempt when, with intent to
commit a specific offense, he does any act which
constitutes a substantial step toward the commission
of that offense .” 720 ILCS 5/8–4(a) (West 2002).
¶ 156 We conclude that the evidence was sufficient in
this case to convict defendant. The jury heard that
Houghtaling pleaded guilty to participating in the
shooting at the Burrito Express. Further, the jury
heard Houghtaling’s prior statements—the Omaha
interview (which, significantly, was conducted before
any plea deal), his testimony at McMullen’s trial, and

187a
his direct testimony at defendant’s second trial—
incriminating defendant, which were the strongest
evidence against defendant and sufficiently
corroborated Pardo’s (the only eyewitness’s)
testimony of the events. This evidence, along with the
additional evidence presented against defendant and
his group, was such that any rational trier of fact
could have found beyond a reasonable doubt that
defendant committed the crimes.
¶ 157 Houghtaling testified that he pleaded guilty to
the crime in November 2001, about eight months after
it occurred, was represented by an attorney, and he
agreed to testify truthfully against defendant,
McMullen, and Collett in exchange for receiving a 20–
year sentence. In his Omaha statement, which, again,
was conducted before the plea deal, Houghtaling
stated, without suggestion, that defendant carried a
“little .22,” which was consistent with the type of gun
the police believed was used in the shooting, and he
stated that his jacket was green, which was consistent
with Pardo’s testimony. On redirect examination at
defendant’s second trial, Houghtaling acknowledged
that he did not have any police reports at the time of
the Omaha interview. Further, as the State notes, the
sketch of the man wearing the green jacket that was
prepared from Pardo’s statements bears a striking
resemblance to Houghtaling and does not bear a
strong resemblance to Hiland.
¶ 158 Defendant himself, according to police
detectives, gave conflicting statements about his
relationship with Houghtaling. According to
Detective John Jones, defendant stated on May 12,
2001, that he was with Collett and McMullen on the

188a
night of the shooting; however, when asked if he was
also with Houghtaling, defendant did not
acknowledge or deny it, but stated that he did not
know Houghtaling. This was contradicted by
Houghtaling (even in his direct testimony), Collett,
and Weisenberger, who testified they were with
defendant and Houghtaling on the night of the
shooting. Further, defendant himself contradicted
this statement when he spoke to Detective Jeff Rhode,
who testified that defendant stated on the day after
the shooting that he was with Houghtaling (and the
rest of his group) the prior evening.
¶ 159 As to Collett, although he denied involvement
in the crime, the jury could have found this incredible
and instead found significant his apology to Briseno’s
widow and inferred that he had remorse for
committing the crime with his group. Also, notably,
the jury could have placed significant weight on the
fact that Collett pleaded guilty to attempt armed
robbery and discounted his explanation that it was
merely “a plea of convenience.” The jury heard that
Collett had initially told police that he heard gunshots
from the area of the restaurant. (The jury also heard
that McMullen was convicted for her participation
(with defendant and his group) in the crime.)
¶ 160 We disagree with defendant’s argument that
Houghtaling’s prior inconsistent statements were
insufficiently trustworthy to sustain his convictions.
Houghtaling’s
prior
statements
implicating
defendant and his group in the shooting were
consistent with each other and corroborative of
Pardo’s testimony. Houghtaling stated twice (in
Omaha and at McMullen’s trial) that defendant

189a
entered the restaurant first and carried the gun; this
was consistent with Pardo’s testimony that the man
with the gun entered first and the man in the green
jacket followed him. Houghtaling also stated in three
statements (albeit, the first time in Omaha, in
response to a leading question) that he and defendant
concealed their faces and twice stated (at defendant’s
second trial and McMullen’s trial) that they wore ski
masks. This was consistent with Pardo’s testimony
that the men wore masks covering all but their eyes.
Houghtaling also testified three times that defendant
announced the robbery after he and Hougtaling
entered the Burrito Express; this was consistent with
Pardo’s statement that the man with the gun stated
something in English to Briseno, which resulted in
Briseno raising his knife and chasing them out of the
restaurant. (Houghtaling also related the chase in his
statements.) During the Omaha interview,
Houghtaling was asked whether he ran toward the
busy street or the side street and he responded,
without suggestion, that he ran toward the side
street. This was consistent with Pardo’s testimony
that he chased Houghtaling across Third Street. At
both McMullen’s trial and defendant’s second trial,
Houghtaling testified that he fell on ice and one of the
men caught him. This testimony was consistent with
Pardo’s statement that the man in the green jacket
fell on ice. Pardo, further, was asked about the green
jacket that Hougtaling wore on the night of the
shooting and stated that it looked like the one the
man involved in the crime had worn. Houghtaling
also related in three statements that he was caught
while defendant was outside his view and that
defendant later arrived/came into view and fired
shots. Pardo similarly testified that he ran in front of

190a
a nearby dry cleaners and that Briseno ran behind it
and, at one point, he could see only the man in the
green jacket, with whom he caught up after the man
slipped and fell on ice. Pardo testified that he did not
again see the man with the gun until he had reached
Third Street (while he was dragging the man in the
green jacket).
¶ 161 We reject defendant’s argument that
Hougtaling’s Omaha confession was given while he
was under the influence of drugs and, thus, was
inherently unreliable. The jury heard Detective
Brogan testify that Houghtaling showed no signs of
being under the influence of drugs or alcohol. It was
the jury’s function to weigh the witnesses’ credibility,
and, viewing the evidence in the light most favorable
to the State, we cannot quarrel with its resolution.
¶ 162 Pardo’s failure to identify defendant or
Hougtaling from the photo array was known to the
jurors, as was the fact that the sketch prepared of
defendant from Pardo’s description did not show
facial hair (defendant’s booking photo, taken within
days of the shooting, showed that he had facial hair).
The jury weighed this evidence, and the jurors were
aware that it was dark out during the shooting and
that defendant’s face was visible only when he was
about 25 to 30 feet away from Pardo.
¶ 163 We reject defendant’s argument that
Houghtaling’s
statements
were
inherently
unbelievable (because: (1) they were inconsistent; (2)
he was an alleged accomplice who received a plea deal
and thus had a motive to lie; and (3) his testimony
was the only evidence inculpating defendant). A

191a
conviction supported by a prior inconsistent
statement admitted as substantive evidence may be
upheld, even though the witness recants the prior
statement at trial. People v. McCarter, 2011 IL App
(1st) 092864, ¶ 23; 725 ILCS 5/115–10.1 (West 2012);
see also People v. Island, 385 Ill.App.3d 316, 347
(2008) (a recanted prior inconsistent statement
admitted pursuant to section 115–10.1 can support a
conviction even in the absence of other corroborative
evidence). “The trier of fact may consider a prior
inconsistent statement introduced as substantive
evidence under section 115–10.1 the same as direct
testimony by that witness. The trier of fact is free to
accord any weight to such properly admitted
statements based on the same factors it considers in
assessing direct testimony.” McCarter, 2011 IL App
(1st) 092864, ¶ 23. “Once a jury or trial court has
chosen to return a guilty verdict based upon a prior
inconsistent statement, a reviewing court not only is
under no obligation to determine whether the
declarant’s
testimony
was
‘substantially
corroborated’ or ‘clear and convincing,’ but it may not
engage in any such analysis.” (Internal quotation
marks omitted.) (Emphasis in original.) People v.
Morrow, 303 Ill.App.3d 671, 677 (1999) (quoting
People v. Curtis, 296 Ill.App.3d 991, 999 (1998)). Here,
any inconsistencies in Houghtaling’s testimony or
statements were before the jury and did not render
his testimony inherently unreliable, but merely
affected the weight to be given to the testimony, which
was the jury’s role to assess. We cannot conclude that
any inconsistencies cast doubt on the jury’s verdict.
¶ 164 We also reject defendant’s argument that the
physical and circumstantial evidence (other than

192a
Houghtaling’s statements) did not support a
conviction. Defendant contends that there was no
physical evidence linking defendant to the crime,
arguing that the crime scene was bloody, but that
neither defendant nor Houghtaling had blood on their
clothes that night or the next day. Nor did McMullen’s
car have blood stains, and neither defendant nor
Houghtaling showed signs of injury.
¶ 165 Defendant’s characterization of the crime scene
as bloody is not supported by the evidence, where the
only testimony on that point concerned Briseno
coughing up blood after being shot. At this point,
according to Pardo, Briseno was using Houghtaling as
a shield, but held him at arm’s length and moved onehalf step to the left and then one-half step to the right.
Further, Pardo did not testify that he saw blood on
the man with the green jacket, and there was no
testimony that the shooter was close to Briseno after
he coughed up blood. As to McMullen’s car, it was not
recovered until more than two months after the
shooting, which provided sufficient time to clean or
destroy any physical evidence. Also, the lack of
physical injuries to Houghtaling do not cast doubt on
his credibility, where it was undisputed that the
green leather jacket he wore covered his arms.
Finally, we also reject defendant’s argument that it
was unbelievable that, after the shooting, Collett
walked into Cloud 9. His actions are consistent with
providing an alibi for the group. Further, we note that
Houghtaling told police in Omaha, without
suggestion, that only Collett went inside Cloud 9.
¶ 166 As to defendant’s theory that the DeCicco group
committed the crime, we reject defendant’s argument

193a
that he presented compelling evidence of that group’s
culpability that overwhelmed the State’s case against
him. Although DeCicco knew two facts that were not
made public—i.e., that Briseno was hit in the head
with a gun and that he shouted into a passing car—
we disagree that the evidence against the DeCicco
group was far stronger than that against defendant.
DeCicco’s confessions to police, which were central to
defendant’s case, were fraught with significant
inconsistencies. She told police in 2005 in Quincy that
she saw the Brummett gun when Levand and Hiland
were going through her car trunk (and before she
drove and found them at the Burrito Express).
However, in 2006, she told police that she did not see
the gun until later while near the restaurant: when
the men entered the restaurant and when Levand ran
toward her car. DeCicco’s recollection of the date of
her group’s alleged involvement in the shooting was
incorrect, because she stated that it occurred on the
date of her niece’s birth, which was March 5, 2001,
whereas the shooting took place on March 6, 2001.
¶ 167 DeCicco also told police in Quincy that
Detective Pechous had come to her jail cell in the
middle of the night to tell her that another officer was
trying to help defendant and that Pechous knew that
her group was guilty. This statement was
contradicted by Pechous, who had prepared a report
of his conversation with DeCicco, wherein he reported
that he did not meet with her at night and that he
visited her twice. (When confronted with this,
DeCicco stated that, “It’s been a while.”) Also,
Sergeant Schroeder testified that state police
investigated the allegations and that there were no
findings of malfeasance by the McHenry police

194a
department. DeCicco also told police that Briseno
threw a knife at the two men after they entered the
restaurant, but no knife was ever recovered from the
floor and Pardo did not mention this in his testimony;
a knife was recovered near Briseno’s body. Further,
DeCicco’s description of the mens’ facial coverings
were not consistent with Pardo’s description that both
men wore masks: DeCicco stated first in 2006 that
both Levand and Hiland wore masks; however, she
later stated that Hiland cleaned blood off of his face
and that he had worn a scarf. (She also testified that
both men were covered in blood.)
¶ 168 The jury also heard that DeCicco used drugs
(like Houghtaling and defendant) and, further, that
she lied to obtain money for drugs. DeCicco testified
that, when she spoke to state police in 2006, she
confessed to being involved in the shooting because
she could get “out on the streets faster” so she could
buy drugs. Also in 2006, she first stated that she had
not read the confessions in the case and then stated
she had (before catching herself): “Me too and I’ve
also, or I haven’t seen.” She then explained that she
had read newspaper accounts and not read the actual
confessions. DeCicco’s testimony concerning Hiland
cutting his hand with the knife is also suspect because
the DNA recovered from the knife belonged only to
Briseno.
¶ 169 As to DeCicco’s statement that Briseno shouted
out something at her while she was allegedly in her
car and leaving the scene, the details that she related
about the incident cast doubt on her involvement.
DeCicco stated in 2005 to police that she followed
Levand and Hiland after they started walking to the

195a
Burrito Express; she was in her car. She saw them
run into the restaurant and DeCicco started to pull
away in her car. However, “all four of them * * *
darted across the street in front of me. One of the
Hispanic men turned around and yelled something in
my car. I just kept driving.” However, Pardo did not
testify that the four men ran as a group across the
street. He stated that, after the two men ran out of
the restaurant, he ran in one direction in front of the
cleaners and Briseno ran behind the cleaners. Pardo
lost sight of the two men after they crossed Third
Street and ran near a house. At one point, as Briseno
and Pardo followed the men, Pardo saw Briseno stop
and talk to someone in a car. Thus, he did not state
that all four men ran across the street at the same
time in a group. Further, Pardo testified that he did
not see defendant outside until defendant approached
from about 25 to 30 feet away and after Pardo had
caught the man in the green jacket.
¶ 170 As to the Brummett gun (a .22–caliber revolver
with six lands and grooves), although McIntyre could
not identify it as having fired the bullet that killed
Briseno, she could not exclude it. However, she stated
that a .22–caliber gun is a very common type of gun,
as are six lands and grooves. DeCicco’s statement that
Briseno was pistol-whipped was consistent with what
the detectives believed occurred during the shooting
and was information that was not released to the
public. However, Pardo never testified that he
witnessed the shooter strike Briseno with his gun and
Dr. Blum, the pathologist, concluded only that the
laceration of Briseno’s head was caused by contact
with a blunt object and that this was consistent with
being pistol-whipped with the barrel of a gun;

196a
however, he made no determination as to the timing
of the wound. Finally, DeCicco told state police during
her 2006 interview not only that Briseno was hit in
the head with a gun, but also that this information “
‘was not in the papers anywhere. How would I know
that unless the people who did it actually told me?’ “
The fact that DeCicco stated that the pistol-whipping
was not in the papers could reflect merely that she
read new reports of the crime or reflect that this nonpublic information was not kept as secret from the
public as the police desired. It was the jury’s function
to assess this testimony, and we cannot conclude,
given the foregoing, that her testimony render’s
Houghtaling’s testimony inherently unreliable.
¶ 171 Finally, as to the DeCicco group’s confessions to
third parties, the jury heard that testimony, including
that several witnesses had prior convictions involving
deceit (Anderson, Schwartz, and Trumble) and that
several of the alleged confessions occurred long after
the shooting (Hiland’s confession to Anderson;
DeCicco’s confession to Rexford; and Hiland’s
confession to Trumble). It was the jury’s function to
assess the witnesses’ credibility. It found
Houghtaling’s prior statements credible and the
DeCicco group’s confessions incredible. We also reject
defendant’s contention that Hiland’s repeated
confessions raised a reasonable doubt about the
State’s case, including because they contained details
that explained the gaps in the State’s case against
defendant. Defendant focuses on the scrapes and
bruises the witnesses observed on Hiland in the days
following the shooting. Pardo’s description of the
shooting does not necessarily lead to the conclusion
that the man in the green jacket sustained such

197a
injuries. Further, the witnesses also testified that
Hiland offered an alternative explanation for his
injuries: he had slipped and fallen on icy stairs at
Benjamin DeCicco’s house.
¶ 172 A trier of fact is not required to accept any
possible explanation compatible with a defendant’s
innocence and elevate it to the status of reasonable
doubt (People v. Siguenza–Brito, 235 Ill.2d 213, 229
(2009)), or to accept a defendant’s version of events
from competing versions of events (People v.
Villarreal, 198 Ill.2d 209, 231 (2001)). Here, the jury
was presented with two versions of the events and,
given its verdict, it found the State’s version
persuasive. The State’s evidence, most notably
Houghtaling’s prior statements, was not so
unreasonable, improbable, or unsatisfactory that it
raised a reasonable doubt as to defendant’s guilt. In
summary, the evidence was sufficient to sustain
defendant’s convictions.
¶ 173

C. Evidentiary Rulings

¶ 174 Next, defendant challenges the trial court’s
evidentiary rulings, arguing that the court actions
denied him his federal and state constitutional due
process right to a fair trial and that the court abused
its discretion. He argues that the court excluded
competent and admissible evidence relevant to his
defense and erred in ruling on the admissibility of
certain other evidence. For the following reasons, we
reject defendant’s arguments.
¶ 175 “A criminal defendant, whether guilty or
innocent, is entitled to a fair, orderly, and impartial

198a
trial” conducted according to law. People v. Bull, 185
Ill.2d 179, 214 (1998). This due process right is
guaranteed by the federal and state constitutions. Id.
at 214; U.S. Const., amend. XIV, § 1; Ill. Const.1970,
art. I, § 2; see also People v. Peeples, 155 Ill.2d 422,
480 (1993).
¶ 176 Generally, evidentiary rulings are reviewed for
an abuse of discretion. People v. Patrick, 233 Ill.2d 62,
68 (2009). A court abuses its discretion where its
ruling is arbitrary, fanciful, or unreasonable. Id. “
‘Moreover, even where an abuse of discretion has
occurred, it will not warrant reversal of the judgment
unless the record indicates the existence of
substantial prejudice affecting the outcome of the
trial. [Citation.]’ “ People v. Jackson, 232 Ill.2d 246,
265 (2009) (quoting In re Leona W., 228 Ill.2d 439, 460
(2008)).
¶ 177

1. Exclusion of DeCicco Group’s
Motive/Anderson’s Testimony

¶ 178 First, defendant argues that the trial court
erred in excluding Patrick Anderson’s testimony,
which demonstrated that the DeCicco group had a
motive to rob and ultimately kill Briseno. He notes
that the jury heard testimony from multiple
witnesses that Hiland confessed that the motive for
the robbery was to obtain cocaine and drug money
because he and Levand were drug users who ran out
of drugs. The excluded evidence, defendant urges,
corroborated this testimony: Briseno was a drug
dealer who often had drugs and cash at his
restaurant, and, one week before Briseno’s death,

199a
Levand (the shooter) learned that there were often
drugs and cash at the Burrito Express.
¶ 179 To be admissible, evidence must be relevant,
meaning that it is “evidence having any tendency to
make the existence of any fact that is of consequence
to the determination of the action more probable or
less probable than it would be without the evidence.”
Ill. R. Evid. 401 (eff.Jan.1, 2011); see also People v.
Kirchner, 194 Ill.2d 502, 539 (2000); People v. Cruz,
162 Ill.2d 314, 348 (1994) (generally, “all relevant
evidence is admissible unless otherwise provided by
law”). However, “a court may generally exclude
relevant evidence if its probative value is outweighed
by such dangers as unfair prejudice, jury confusion,
or delay.” Id. Further, evidence may be excluded as
irrelevant where it is remote, uncertain, or
speculative. People v. Ursery, 364 Ill.App.3d 680, 686
(2006).
¶ 180 Anderson came forward with the evidence in
2011, when he wrote a letter to defense counsel,
stating that he purchased drugs from Briseno and
sold them to Levand, whom he took to the restaurant
one week before the shooting. The trial court excluded
Anderson’s testimony, finding that it contained
numerous hearsay statements; that it was “highly
suspect” given that Anderson came forward 10 years
after the shooting; and that the testimony did not
establish a motive for the DeCicco group to commit
the crime because there was no close connection to the
drugs and the shooting. (The court allowed
Anderson’s testimony concerning Levand’s confession
to him while they were incarcerated. During his

200a
testimony, Levand denied that he confessed to
Anderson.)
¶ 181 As to the court’s finding that the motive
evidence was not closely connected to the crime,
defendant contends that Anderson would have
testified from personal knowledge that Levand
purchased drugs sold by Briseno shortly before the
shooting and that Levand was aware that Briseno
sold drugs from the restaurant and kept large
quantities of drugs there. He asserts that this
evidence, combined with evidence the jury heard—
namely, about the DeCicco group’s drug use and need
for drugs on the night at issue, that the robbers
walked past the cash register and into the rear of the
restaurant, and that the DeCicco group’s version of
the events matched the facts much better than
Houghtaling’s version—the excluded evidence made
the DeCicco group’s guilt more likely and the State’s
version of the events less credible. Defendant further
argues that Anderson’s testimony that Levand knew
Briseno had drugs and money at the restaurant was
essential to the jury’s weighing of the competing
theories.
¶ 182 Defendant relies on People v. Neely, 184
Ill.App.3d 1097 (1989). In that case, the defendant
was convicted of robbery, intimidation, and
aggravated battery. Prior to trial, the trial court
granted the State’s motion to exclude evidence of an
alleged cocaine delivery by the victim to the
defendant’s co-defendant on the evening of the alleged
offenses. At trial, the victim testified that he met the
co-defendant at a tavern and later drove with another
individual to pick up the defendant at a low income

201a
housing unit. They drove to the other man’s trailer,
where they played music and drank beer. Later, they
returned to the housing unit where they had picked
up the defendant, and the defendant approached the
victim from behind and hit him on the back of the
head, kicked him in the face, and stepped on his
forehead. After kicking him again, the defendant took
$20 from the victim’s pocket and stole his wallet. The
defendant and co-defendant then blindfolded the
victim and drove him to the countryside and left him.
The co-defendant, who had pleaded guilty to
aggravated battery and who was the defendant’s
cousin, testified for the defense that he had beaten the
victim because, earlier in the evening, the victim had
sold him something that the co-defendant did not
believe was worth the $20 he had paid for it.
¶ 183 On appeal, the court held that the trial court
erred in excluding the evidence of the drug delivery.
Id. at 1110. The court determined that the evidence
“lent credibility” to the co-defendant’s testimony that
he, rather than the defendant, attacked the victim. Id.
“Though there was evidence that [the victim] had
cheated [the co-defendant] in the sale of something,
the jury was left wondering why [the co-defendant]
would react so violently to having been cheated.” Id.
The appellate court concluded that the exclusion of
the evidence made the co-defendant’s account less
credible and, thus, offended the principle that a
defendant “is entitled to all reasonable opportunities
to present evidence which might tend to create doubt
as to his guilt.” Id.
¶ 184 Here, defendant argues that, like Neely, the
proposed evidence would have supported defendant’s

202a
other evidence pointing directly to the DeCicco
group’s guilt and away from his own. Anderson would
have testified from personal knowledge that Levand
purchased drugs sold by Briseno shortly before the
shooting and that Levand was aware Briseno sold
drugs from the restaurant and kept large quantities
of drugs there.
¶ 185 The State responds that this court can affirm
on any basis supported by the record and raises two
arguments. First, it argues that Anderson’s testimony
was properly excluded because it was speculative
(and, thus, irrelevant) and likely to confuse the jury
by suggesting that the robbery was related to a drug
business. The State contends that, assuming that
defendant’s offer of proof showed that Levand knew
that large amounts of cash and drugs were at times
present at the restaurant, that evidence is irrelevant
to show that the DeCicco group had a motive to
commit the charged crimes. It urges that the issue is
not whether the DeCicco group robbed the Burrito
Express, as opposed to some other establishment on
the date at issue, but whether they committed the
charged armed robbery and murder. The State
further asserts that the fact that a person may know
that a retail establishment that is open for business
has a large amount of cash on the premises does not,
in itself, provide a motive for someone to attempt to
rob the store.
¶ 186 As to Neely, the State responds that here, in
contrast, the excluded evidence would not have made
it more likely that Hiland and Levand would
determine that they were going out to commit a
robbery simply because they knew that a large sum of

203a
cash might be present at a particular establishment.
In Neely, the State asserts, the co-defendant’s anger
and need for vengeance explained his actions, which
formed the charged crime. Here, similar evidence
would be that which was already admitted: Hiland’s
explanation that he and Levand decided to go
somewhere to commit a robbery for money because
they ran out of drugs and wanted to buy more. That
was the motive evidence, according to the State, and
it was admitted at trial. The excluded evidence, it
urges, did not show motive and, so, was not relevant.
The State adds that the evidence was also not proper
to bolster the truth of the matter asserted in the
declarations against interest by Hiland and Levand
(that they committed the robbery and murder)
because it is a mere embellishment, not objective
indicia of trustworthiness, by the witness who is
testifying that a declaration against interest was
made.
¶ 187 Second, the State argues that the live offer of
proof reflected only that Anderson would have
testified that Levand was present when Anderson
tried to buy drugs from someone named “Serge” at the
Burrito Express or in its parking lot. The State
suggests that it is “a leap” from knowing those facts
to believing that drugs and a large amount of money
were stored at the restaurant (as was related in
Anderson’s letter ). It further notes that there was no
evidence that the crime was committed to steal drugs
and, thus, evidence concerning whether there were
drugs, as opposed to money and drugs, on the
premises was not relevant. The State also points out
that the offer of proof did not show that Briseno was

204a
present for and involved in a drug transaction one
week before his death.
¶ 188 Finally, the State argues that, even if
Anderson’s letter is considered (in conjunction with
the live offer of proof) part of defendant’s offer of
proof,7 the trial court’s exclusion of the evidence was
not an abuse of its discretion because the proposed
evidence was not specific. According to the State, even
considering that Anderson could have testified that
he told Levand that large sums of money and drugs
could be found on the premises at times, the
statement does not contain details as to a specific
amount or range of money reasonably expected to be
present and it did not give a specific time or day when
the money and drugs would be there. The “jurors
would be allowed to speculate that, without any
knowledge of the times or days that an unknown
quantity of cash or drugs could be found, it was very
likely that Hiland and Levand would rob the Burrito
Express and so the fact that it was robbed shows that
Levand and Hiland committed the crime.”
¶ 189 We conclude that the trial court did not abuse
its discretion in excluding the motive evidence. It was
not unreasonable to exclude the evidence on the bases
that it was not entirely consistent with the admitted
evidence (and thus did not entirely bolster that
The State cites no authority for the proposition that only the
live testimony constitutes defendant’s offer of proof. Indeed, this
approach has been criticized as “unduly strict,” as offers of proof
are not even required where the court is apprised of the nature
and character of the evidence that is sought to be introduced. See
Michael H. Graham, Handbook of Illinois Evidence § 103.7, at
37–39 (10th ed.2010).
7

205a
testimony) and that it would have confused the jury
as to the proper focus of the trial (i.e., the murder, as
opposed to Briseno’s alleged drug-dealing). As to
consistency, the evidence admitted at trial
(specifically, McCauley’s and DeCicco’s testimony)
reflected that the DeCicco group had been doing drugs
on the day of the shooting, ran out of drugs, and
allegedly decided to go out and commit a crime to
obtain cash so that they could purchase more drugs.
McCauley testified that, during his confession to her,
Hiland stated that the DeCicco group ran out of drugs
and wanted more money and decided to rob the
Burrito Express. DeCicco, however, stated during her
Quincy interview that she overheard Levand and
Hiland discuss stealing purses or robbing someone to
get money. The proffered testimony—i.e., that Levand
knew that Briseno kept drugs and money at the
restaurant and, as a result, decided with his group to
rob it—was not entirely consistent with the admitted
testimony.
¶ 190 As to relevance, the possible presence of drugs,
“at times,” in the restaurant or on Briseno is not
directly relevant because the admitted testimony
reflected that the DeCicco group allegedly decided to
go out to commit a crime to obtain cash (so that they
could purchase drugs). It did not reflect that they
decided to commit a crime to obtain both cash and
drugs. Anderson’s testimony as to the presence of
drugs was, therefore, not relevant. We further note
that defendant also sought to admit the testimony of
Quinones, who would have testified that he worked as
an undercover operative in a drug investigation in
August and September 2000 and that he spoke to
Briseno, who offered to, and did, sell him drugs. He

206a
also sought to admit the testimony of Solarz, who
would have testified that he searched the Burrito
Express on March 7, 2001, using a K–9 handler and
narcotic-sniffing dog, who indicated the possible
presence of narcotics inside the restaurant. We
conclude that it would not have been unreasonable to
exclude this testimony on the basis that it would have
confused the jury by directing its attention to
Briseno’s drug-dealing, and was not relevant to the
DeCicco group’s alleged plan to rob someone or some
establishment to obtain money to purchase drugs.
¶ 191 We further disagree with defendant that Neely
supports his argument. The Neely court explained
that the evidence should have been admitted to
explain the degree of the co-defendant’s reaction to the
transaction, thus, lending credibility to his testimony.
Neely, 184 Ill.App.3d at 1110. Here, in contrast, the
admitted evidence was that the DeCicco group had
been doing drugs on the day of the shooting, ran out
of drugs, and allegedly decided to go out and commit
a crime to obtain cash so that the group could
purchase more drugs. Anderson’s statement in his
letter to defense counsel that he told Levand that
Briseno was known to keep large amounts of cash at
his restaurant “at times” does not explain the degree
of Hiland’s and Levand’s actions.
¶ 192 Alternatively, even if it was error to exclude the
testimony, we conclude that the record does not
reflect that the error substantially prejudiced
defendant such that it affected the outcome of the
trial. The “State must prove beyond a reasonable
doubt that the jury verdict would have been the same
absent the error.” People v. Thurow, 203 Ill.2d 352,

207a
363 (2003). When deciding whether error is harmless,
a reviewing court may: (1) focus on the error to
determine whether it might have contributed to the
conviction; (2) examine the other properly admitted
evidence to determine whether it overwhelmingly
supports the conviction; or (3) determine whether the
improperly admitted evidence is merely cumulative or
duplicates properly admitted evidence. In re Rolandis
G., 232 Ill.2d 13, 43 (2008). As to cumulative evidence,
generally, where the admitted evidence is an
adequate substitute for the excluded evidence or if
such evidence adequately compensates for the
excluded evidence, any error should be deemed
harmless. People v. Booker, 274 Ill.App.3d 169, 174
(1995). We reject defendant’s claim that Anderson’s
testimony was of a different kind and character than
that admitted at trial in that it directly corroborated
one confession and, thus, “very likely” would have
affected the outcome of the trial. The evidence was
circumstantial, not direct as defendant suggests, and
cumulative to the direct evidence admitted at trial.
Other witnesses testified that the DeCicco group
attempted to rob the Burrito Express. Specifically,
Tyda, Rexford, and Vicki Brummett testified that
DeCicco confessed to them, and Trumble, Kollross,
McCauley and Schwartz testified that Hiland
confessed to them. Further, Anderson was allowed to
testify that Levand confessed to him while they were
both in jail. In contrast to this direct testimony (see,
e.g., People v. Spencer, 27 Ill.2d 320, 326 (1963) (“as
opposed to the circumstantial evidence relied upon by
defendant, there is the factor that his confession was
direct evidence of his guilt, [citation] which, in itself,
overcomes the circumstantial theories relied upon by
defendant and affords proof of his guilt beyond a

208a
reasonable doubt.”)), Anderson’s (excluded) testimony
concerning the presence “at times” of drugs and
money at the restaurant was circumstantial evidence
linking the DeCicco group to the crime and was
cumulative to the evidence concerning the DeCicco
group members’ confessions. Accordingly, we cannot
conclude that, if it was erroneously excluded, the
exclusion of this testimony substantially prejudiced
defendant such that it affected the outcome of the
trial.
¶ 193

2. Exclusion of Trumble’s Testimony
That He Took Hiland to an Attorney

¶ 194 Next, defendant argues that, although the trial
court permitted Trumble’s testimony that Hiland
confessed in the presence of another person, the court
erred in refusing to permit “the key foundational fact
that Edens was a lawyer from whom Hiland was
seeking advice.” According to defendant, because the
jury was deciding between the reliability of various
confessions, the exclusion of evidence making a
confession more reliable was highly prejudicial error.
For the following reasons, we disagree.
¶ 195 The testimony that was allowed at trial was as
follows. Trumble was allowed to testify that he had
three conversations with Hiland wherein Hiland
confessed. Trumble, who has a conviction related to
writing bad checks, related the details of the crime
that Hiland provided to him. Also, the jury heard
DeCicco’s testimony that Hiland told her that he saw
an attorney because “they thought—after they took,
after they took the weapon, everybody thought we
were going to jail.”

209a
¶ 196 An extrajudicial declaration not under oath, by
the declarant, that he or she, and not the defendant
on trial, committed the crime is inadmissible as
hearsay, even though the declaration is against the
declarant’s penal interest. People v. House, 141 Ill.2d
323, 389–90 (1990); People v. Bowel, 111 Ill.2d 58, 66
(1986). Such a declaration may, however, be admitted
where justice requires. House, 141 Ill.2d at 390;
Bowel, 111 Ill.2d at 66. Thus, where there are
sufficient indicia of trustworthiness of such
extrajudicial statements, a declaration may be
admissible under the statements-against-penalinterest exception to the hearsay rule. Bowel, 111
Ill.2d at 66. In Chambers v. Mississippi, 410 U.S. 284,
300–01 (1973), the Supreme Court held that a
declaration against penal interest is admissible
where there is sufficient indicia of trustworthiness in
that: (1) the statement was made spontaneously to a
close acquaintance shortly after the crime occurred;
(2) the statement was corroborated by other evidence;
(3) the statement was self-incriminating and against
the declarant’s interest; and (4) there was adequate
opportunity for cross-examination of the declarant.
The presence of all four factors is not a condition of
admissibility. “They are indicia, not hard and fast
requirements.” House, 141 Ill.2d at 390. The question
to be considered in deciding the admissibility of such
an extrajudicial declaration is whether it was made
under circumstances which provide “ ‘considerable
assurance’ “ of its reliability by objective indicia of
trustworthiness. Bowel, 111 Ill.2d at 67 (quoting
Chambers, 410 U.S. at 300–01). “A statement made to
a law [-]enforcement officer may be made in an
attempt to curry favor and obtain a reduced sentence;

210a
it may also be the product of coercion or force and be
involuntary. Such a statement might not be as
reliable as a statement made to a good friend or [a]
family member.” Tenney, 205 Ill.2d at 438–39.
However, statements made to police officers in
response to structured questioning may be more
reliable than casual statements supposedly made to
acquaintances. Statements to police officers while in
custody have been admitted in a number of cases. See,
e.g., People v. Human, 331 Ill.App.3d 809, 817 (2002);
People v. Kokoraleis, 149 Ill.App.3d 1000, 1020–21
(1986) (statements to an assistant State’s Attorney
and police officers while in custody more likely than
not were trustworthy despite unavailability of
declarants; “neither declarant stood to benefit by
disclosing his role in the offenses”).
¶ 197 In Human, upon which defendant relies, the
defendant challenged the trial court’s exclusion of a
third-party confession. The appellate court reversed,
holding that the circumstances under which the
third-party confessed, coupled with the selfincriminating nature of his statements, made his
confession reliable. Id. at 818. The third-party: (1)
was accompanied to the courthouse by his parents
and his attorney and confessed in the presence of an
assistant State’s Attorney and police officers; (2) his
confession was corroborated by other evidence at trial
(that left open the possibility that he was the shooter);
and (3) the third-party did not stand to benefit from
his statements because they were self-incriminating
and against his penal interest. Id. at 817–18.
¶ 198 Defendant argues that here, like Human,
Hiland’s confession to Trumble and attorney Edens

211a
was made under circumstances that provide
considerable assurance of its reliability: Hiland
confessed to an attorney for the purpose of seeking
legal advice. (The conversation was not privileged
because it took place in front of Trumble.) Defendant
further argues that the error was prejudicial because
the fact was critical to the jury’s assessment. He
contends that Hiland had no ulterior motive to
confess (such as to look tough or to convince his friend
to give him money for drugs) and that his statement
would have been corroborated by DeCicco’s
confession, in which she told police that Hiland had
met with an attorney. He further argues that there is
no plausible reason for someone to confess to murder
to an attorney (who is duty-bound not to repeat the
information) other than to seek legal advice for the
crime that the person actually committed. The State
would have been free to argue to the jury that Hiland
was merely boasting at the restaurant. Defendant
argues that the evidence would have strengthened his
case and asserts that the State cannot show beyond a
reasonable doubt that the exclusion of this evidence
was harmless.
¶ 199 We conclude that the trial court did not abuse
its discretion in excluding Trumble’s testimony. The
fact that Hiland confessed in Trumble’s presence was
admitted at trial. The exclusion of the fact that Hiland
did so to an attorney does not necessarily imbue the
confession with trustworthiness (and thus make it
more probable that defendant did not commit the
crime). Human, upon which defendant relies, is
distinguishable because it involved a confession to
law enforcement, where the party did not stand to
benefit from his statements. Human, 331 Ill.App.3d

212a
at 817 (quoting Kokoraleis, 149 Ill.App.3d at 1020–21)
(“statements ‘were more likely trustworthy because
they tended to intensify police efforts to prosecute’ the
declarants”). Here, in contrast, the evidence at issue,
that Hiland confessed to an attorney in a public place
and in the presence of a third person, did not make it
more likely that Hiland would be prosecuted.
¶ 200 Even if the court erred in excluding the
testimony, we conclude that the error was harmless
because the testimony was cumulative. An error may
be harmless if it did not contribute to the outcome of
an action, if overwhelming evidence supports the
order of the trial court, or if the error pertained to
evidence that was merely cumulative or corroborative
of other evidence. People v.. Fletcher, 328 Ill.App.3d
1062, 1071–72 (2002). Several witnesses (Trumble,
Kollross, McCauley and Schwartz) testified that
Hiland confessed to them. Further, the jury heard
DeCicco’s statement that Hiland told her that he
spoke to an attorney because, after the Brummett gun
was retrieved, he was worried that the group would
go to jail. The jury no doubt would have reasonably
inferred from DeCicco’s testimony that Hiland
confessed to the attorney. Thus, the evidence was
admitted at trial and the exclusion of duplicate
testimony from Trumble was harmless and did not
prejudice defendant. People v. Caffey, 205 Ill.2d 52, 92
(2001) (error in the exclusion of testimony is harmless
where the excluded evidence is merely cumulative of
the other evidence presented).
¶ 201

3. Admission of Collett’s
Out–of–Court Statements

213a
¶ 202 Defendant next argues that the trial court erred
in admitting Collett’s out-of-court statements after he
denied knowledge of or involvement in the shooting.
The admitted evidence included his guilty plea,
apology, and putatively inculpatory statements by
defendant. Defendant asserts that the evidence was
inadmissible: (1) as substantive evidence under
section 115–10.1 of the Code of Criminal Procedure of
1963 (725 ILCS 5/115–10.1 (West 2012)), in that four
statements were not proper impeachment because
they were not inconsistent with his testimony, and,
even if otherwise admissible, the two statements
attributed to defendant were not admissible against
him; and (2) Collett’s testimony did not affirmatively
damage the State’s case. For the following reasons, we
reject defendant’s argument.
¶ 203

(a) Admission as Substantive
Evidence under Section 115–10.1

¶ 204 Generally, a prior inconsistent statement may
be used only for impeachment purposes. People v.
Morgason, 311 Ill.App.3d 1005, 1010 (2000).
However, section 115–10.1 of the Code of Criminal
Procedure of 1963 (725 ILCS 5/115–10.1 (West 2012))
(as well as Illinois Supreme Court Rule 801(d)(1)(A)
(eff.Jan.1, 2011), which is “functionally completely
identical” to the statutory provision (Michael H.
Graham, Handbook of Illinois Evidence § 801.11, at
785 (10th ed.2010)) allows the admission of a
witness’s prior inconsistent statement as substantive
evidence under certain circumstances. It provides:

214a
“ § 115–10.1. Admissibility of Prior Inconsistent
Statements. In all criminal cases, evidence of a
statement made by a witness is not made
inadmissible by the hearsay rule if
(a) the statement is inconsistent with his
testimony at the hearing or trial, and
(b) the witness is subject to cross-examination
concerning the statement, and
(c) the statement—
(1) was made under oath at a trial, hearing, or
other proceeding, or
(2) narrates, describes, or explains an event or
condition of which the witness had personal
knowledge, and
(A) the statement is proved to have been written or
signed by the witness, or
(B) the witness acknowledged under oath the
making of the statement either in his testimony at
the hearing or trial in which the admission into
evidence of the prior statement is being sought, or
at a trial, hearing, or other proceeding, or
(C) the statement is proved to have been
accurately recorded by a tape recorder, videotape
recording, or any other similar electronic means of
sound recording.
Nothing in this Section shall render a prior
inconsistent statement inadmissible for purposes of
impeachment because such statement was not

215a
recorded or otherwise fails to meet the criteria set
forth herein.” 725 ILCS 5/115–10.1 (West 2012).8
¶ 205 Thus, to be admissible under section 115–10.1,
a statement must be inconsistent with the witness’s
testimony at trial, the witness must be subject to
cross-examination, and the statement must either: (1)
have been made under oath at a trial, hearing, or
other proceeding; or (2) narrate, describe, or explain
an event or condition of which the witness had
personal knowledge, and meet at least one of three
other requirements. If a prior inconsistent statement
meets the requirements of section 115–10.1, it may be
admitted as substantive evidence without an
independent determination of its reliability or
voluntariness. People v. Barker, 298 Ill.App.3d 751,
761 (1998); People v. Pursley, 284 Ill.App.3d 597, 609
(1996); People v. Carlos, 275 Ill.App.3d 80, 84 (1995).
¶ 206 Defendant first argues that four of Collett’s
statements were erroneously admitted as substantive
evidence under section 115–10.1 because they were
not inconsistent with Collett’s trial testimony. He
additionally argues that the two statements that
Collett attributed to defendant were not based on
Collett’s personal knowledge and, thus, did not meet
the standards of section 115–10.1. The State contends
that defendant forfeited review of these claims
because he never objected to the substantive
admission of the prior inconsistent statements on the
bases he now advances. It notes that, in his posttrial
motion, defendant conceded that the statements met
See also Illinois Rules of Evidence 801(d)(2) (Ill. R.
Evid.801(d)(2) (eff.Jan.1, 2011)).
8

216a
section 115–10.1’s requirements, but that the State
could not call Collett because it knew he would not
testify in a manner favorable to the State. See People
v. Eyler, 133 Ill.2d 173, 219 (1989) (a specific objection
waives all grounds not specified). We conclude that
the claims are forfeited, but address defendant’s
argument that the admission of the statements as
substantive evidence constituted plain error.
¶ 207 Defendant failed to object to the testimony at
trial or include the issue in his posttrial motion.
Accordingly, defendant has procedurally defaulted
the alleged error in admitting the testimony unless
we conclude that plain error affecting a substantial
right has occurred. See People v. Williams, 193 Ill.2d
1, 26–27 (2000). In order to obtain relief, defendant
must establish that an error occurred. People v.
Hillier, 237 Ill.2d 539, 545 (2010). The plain-error
doctrine allows errors not previously challenged to be
considered on appeal if either: (1) the evidence is so
closely balanced that the error alone threatened to tip
the scales of justice against the defendant; or (2) the
error was so fundamental and of such magnitude that
it affected the fairness of the trial and challenged the
integrity of the judicial process, regardless of the
closeness of the evidence. People v. Piatkowski, 225
Ill.2d 551, 565 (2007). We first consider whether error
occurred. Williams, 193 Ill.2d 1 at 27.
¶ 208 The first statement defendant challenges is
Collett’s guilty plea. Collett testified that he had no
idea who robbed the Burrito Express. The State asked
defendant if he had pleaded guilty to the offense, and
Collett testified that he had and that he had not been
forced to do so. The State next asked Collett why he

217a
pleaded guilty to attempted armed robbery if he was
not involved, and Collett replied that, based on his
attorney’s advice, he agreed to take a “plea of
convenience” to avoid a lengthy prison term if
convicted.
¶ 209 “[P]rior testimony need not directly contradict
testimony given at trial to be considered ‘inconsistent’
[citation] and is not limited to direct contradictions
but also includes evasive answers, silence, or changes
in position.” People v. Martinez, 348 Ill.App.3d 521,
532 (2004). We agree with the State that Collett’s
guilty plea is clearly inconsistent with his testimony
at defendant’s third trial that he had no knowledge of
who attempted to rob the Burrito Express on March
6, 2001.
¶ 210 The second statement defendant challenges
concerns Collett’s statement to Briseno’s widow. The
State asked Collett if he recalled Briseno’s widow
testifying at his sentencing hearing “to the impact
this had on her life” and read Collett’s apology. Collett
testified that he made the statement, but explained
that he was expressing sorrow for the family’s grief,
not personal remorse for committing the crime.
Defendant argues that the widow’s testimony
regarding the “impact on her life” was hearsay and
that Collett’s response (his apology) was not
inconsistent with his trial testimony, where he did not
admit involvement but apologized for her loss. We
reject this argument.
¶ 211 Collett’s statement at his guilty plea to
Briseno’s widow that, “I really if I would have known
that any of this would have happened, I really would

218a
have tried to do something to stop it, but, honestly, I
didn’t think that anything like that would have
happened was going to happen [sic ],” suggests
involvement in the incident to the point that he could
have, but did not, try to stop it (presumably the
murder). This contradicts his testimony that he had
no knowledge of who committed the crime.
¶ 212 The third statement that defendant challenges
addresses the sounds Collett stated that he heard.
After Collett testified that he heard what sounded like
a car backfiring, the State asked him about his prior
statement to police, on May 12, 2001, that the sound
he heard was gunshots. Defendant argues that
Collett’s statement was not inconsistent with his
prior statements, where Collett explained that the
police asked him if the sound of the car backfiring
could have been shots and he said that he did not
know. This claim also fails. Regardless of whether the
police first suggested the possibility of gunshots
instead of a car backfiring, Collett acknowledged that
he told the officers in 2001 that he heard shots and
that there could have been two of them. This
contradicted his testimony at trial that he heard a
noise that sounded like a car backfiring.
¶ 213 The fourth challenge defendant raises concerns
statements Collett made to police about potentially
inculpatory statements defendant allegedly made
shortly after the robbery: (1) defendant stated “that
some kids just robbed the Burrito Express;” and (2)
that he “just had some fun.” Defendant argues that
the statements were not inconsistent with Collett’s
testimony because they did not implicate Collett in

219a
any way, he did not change his testimony, and were
not based on Collett’s personal knowledge.
¶ 214 Collett’s trial testimony that he did not speak
to defendant about what had occurred at the
restaurant after the shooting was inconsistent with
his prior statements that defendant had made
statements to Collett relating to what had happened
at the Burrito Express. As noted, while in McMullen’s
car, defendant stated that some kids had just robbed
the restaurant and, later at Weisenberger’s house,
defendant stated, according to Collett, “just had some
fun.”
¶ 215 Defendant additionally argues that the
statements he made were not substantively
admissible because they were not within Collett’s
personal knowledge as required by section 115–10.1.
Defendant relies on case law that holds that, for a
witness to have personal knowledge, the witness must
have observed, and not merely heard, the subject
matter underlying the statement. Morgason, 311
Ill.App.3d at 1011 (noting that “personal knowledge”
excludes statements, including admissions, made to
the witness by a third party, where the witness has
no firsthand knowledge of the event that is the subject
of the statements made by the third party); People v.
McCarter, 385 Ill.App.3d919, 930–31 (2008); People v.
Coleman, 187 Ill.App.3d 541, 546–48 (1989) (for
witnesses to have “personal knowledge” of event or
condition within meaning of statute, “overwhelming
authority” supports interpretation that witness must
have personally observed underlying events; simply
overhearing incriminating statements made by the
defendant is not enough); see also People v. Fillyaw,

220a
409 Ill.App.3d 302, 312 (2011) (holding that a
statement made to a testifying witness by a third
party describing events of which the testifying
witness has no firsthand knowledge is inadmissible as
substantive evidence under section 115–10.1(c)(2));
People v. Bueno, 358 Ill.App.3d 143, 157–58 (2005);
People v. Fields, 285 Ill.App.3d 1020, 1028 (1996)
(“[t]he personal knowledge requirement limits the use
of out-of-court statements to those events the witness
actually observed”); People v. Morales, 281 Ill.App.3d
695, 700 (1996) (requirement is not satisfied when the
witness merely testifies as to what another claims to
have done); People v. Williams, 264 Ill.App.3d 278,
290 (1993); People v.. Saunders, 220 Ill.App.3d 647,
658 (1991); People v. Hastings, 161 Ill.App.3d 714, 720
(1987). The rationale for requiring a witness to
personally observe the events that are the subject
matter of his or her comments is that a witness is less
likely to repeat another’s statement if he or she
witnessed the event and knows that the statement is
untrue. Morales, 281 Ill.App.3d at 701.
¶ 216 Here, the State relies on the supreme court’s
decision in People v. Thomas, 178 Ill.2d 215, 239
(1997), wherein the court stated that “[a]ssuming
without deciding that the personal knowledge
required under the statute must be from observing
the event, [the witness] witnessed the argument
between defendant and [his co-conspirator] and her
statement described and narrated the event. Thus,
[the witness’s] prior inconsistent hearsay statement
was admissible under the statute.” Id. at 239. Again,
the State concedes that appellate districts have
“uniformly disagreed and determined that the
witness must have observed the events described in

221a
the underlying statement, not just have heard a
statement about the events.” It requests that we
consider the merits of Thomas, where, here, Collett
was subject to cross-examination about what he
heard.
¶ 217 We need not re-examine Thomas because we
are bound to follow it. See, e.g., People v. Fountain,
2012 IL App (3d) 090558, ¶ 23 (“As an intermediate
appellate court, we are bound to honor our supreme
court’s conclusion on [an] issue unless and until that
conclusion is revisited by our supreme court or
overruled by the United States Supreme Court.”).
Defendant’s characterization of the case law is
misleading. The cases decided after Thomas that
support defendant’s proposition either do not mention
Thomas at all (Fillyaw, 409 Ill.App.3d at 312;
McCarter, 385 Ill.App.3d at 930–31; Bueno, 358
Ill.App.3d at 157–58) or distinguish it (Morgason, 311
Ill.App.3d at 1011–12). Again, Thomas holds that it is
sufficient that the witness heard the statements being
made without personal knowledge of the underlying
content. That requirement was met here. Accordingly,
no error occurred in admitting the statements, and,
further, there was no plain error.
¶ 218

(b) Affirmative Damage

¶ 219 Next, defendant argues alternatively that
Collett’s statements could not have been admitted for
impeachment purposes because they did not
affirmatively damage the State’s case. As to this
argument, which is not forfeited, defendant contends
that no witness identified Collett or placed him at the
Burrito Express and that even Houghtaling’s

222a
statements made no mention of Collett’s involvement
or knowledge of the crime. Thus, the State should not
have been allowed to impeach its own witness.
Defendant asserts that the State did not present
evidence that a third man (i.e., Collett) was involved
in any way in the shooting and, therefore, Collett’s
testimony that he was not involved was not
damaging. He points to the fact that Pardo testified
that he never saw a third man and that Houghtaling
said nothing about Collett. Further, Collett’s
testimony acknowledged that defendant and
Houghtaling were in the area at the time of the
shooting and that Collett did not see who committed
the crime. Defendant emphasizes that, where there
were no other inculpatory statements by defendant,
Collett’s testimony could easily have affected the
outcome.
¶ 220 The admissibility of impeachment evidence is a
matter within the sound discretion of the trial judge.
People v. Baggett, 115 Ill.App.3d 924, 934 (1983). The
State may attack the credibility of a witness, even its
own witness, by impeaching the witness with a prior
inconsistent statement. People v. Cruz, 162 Ill.2d 314,
358 (1994). This is so even if the statement does not
meet all of the requirements of section 115–10.1. See
725 ILCS 5/115–10.1 (West 2010) (“Nothing in this
Section shall render a prior inconsistent statement
inadmissible for purposes of impeachment because
such statement * * * fails to meet the criteria set forth
herein.”). However, when the State impeaches its own
witness with a prior inconsistent statement, the State
must show that the witness’s trial testimony
affirmatively damaged its case. Cruz, 162 Ill.2d at
360; see also Illinois Rules of Evidence 607 (eff.Jan.1,

223a
2011). The testimony must do more than merely
disappoint the State by failing to incriminate the
defendant; it must give “positive aid” to the
defendant’s case, such as by being inconsistent with
the defendant’s guilt under the State’s theory of the
case. Cruz, 162 Ill.2d at 360–62. It is insufficient that
a witness merely disappoints the State by failing to
incriminate the defendant. Id. at 362–63 (witness’s
“affirmative testimony was entirely neutral. [Her]
testimony that she had not observed defendant and [a
non-testifying third party who had confessed to the
crime] together was similarly neutral. This evidence
neither contradicted any evidence presented by the
State nor provided positive aid to defendant’s body of
evidence. As a result, while the State may have been
disappointed that [the witness] did not testify in
accordance with what was expected of her, the
prosecution’s case was no worse off than had [the
witness] not taken the stand at all.”); see also People
v. McCarter, 385 Ill.App.3d 919, 933 (2008) (prior
inconsistent statements held inadmissible, where
witness’s refusal to incriminate the defendant did not
cause affirmative harm to the State’s case; she did not
offer evidence of the defendant’s innocence, but
merely declined to come forward with evidence of his
guilt).
¶ 221 We conclude that Collett’s denial of involvement
in the shooting not only affirmatively damaged the
State’s case, but also gave positive aid to defendant’s
case. The State’s theory of the case was that
defendant and Houghtaling went to rob the Burrito
Express, with McMullen driving the car and Collett
acting as a lookout. (Houghtaling’s testimony from his
Omaha interview and defendant’s second trial placed

224a
Collett inside McMullen’s waiting car when
Houghtaling ran inside after the shooting.) Collett’s
denial of involvement and his statements that he did
not know who robbed the restaurant clearly damaged
the State’s case. Further, Collett’s denial of
involvement in and of knowledge of who committed
the crime aided defendant’s position that he was not
involved in the shooting (and reinforced defendant’s
theory that another group was involved). Had Collett
not taken the stand, the State’s case would have been
better off because his denial would not have been
admitted into evidence. Further, defendant’s case was
aided by affirmative testimony that Collett (and, by
association, defendant) was not involved in the crime.
¶ 222 In summary, the trial court did not err in
admitting Collett’s out-of-court statements.
¶ 223

4. Exclusion of Pardo’s
Inconsistent Statements

¶ 224 Defendant next argues that the trial court erred
in excluding Pardo’s prior inconsistent statements,
where the ruling did not allow the defense to perfect
their impeachment of Pardo regarding Houghtaling’s
green jacket. For the following reasons, this claim
fails.
¶ 225 Pardo testified that the man without the gun
who entered the Burrito Express on the night of the
shooting wore a green leather jacket that looked like
the green jacket in People’s exhibit No. 66
(Houghtaling’s jacket). Houghatling’s jacket is green
leather, with three front pockets, a zipper with a
zipper flap, and areas of black on: the elbows, a patch

225a
just below the center of back of the collar, around the
snaps for the zipper flap, horizontal strips above the
lower pockets, and the logo on the breast pocket. On
cross-examination, defense counsel attempted to elicit
testimony that Pardo gave a description of the jacket
to police four hours after the shooting that was
inconsistent with his trial testimony. Counsel asked
Pardo if he had described the jacket as black around
the collar, and Pardo stated that he could not recall.
Pardo also could not recall stating that the jacket was
green with some black or that he did not see any
pockets or a zipper on the front of the jacket. The
defense then called Detective Jeff Rhode, who
interviewed Pardo on the evening of the shooting.
Rhode testified that he asked Pardo if the jacket worn
by one of the suspects was a solid color, and Pardo
replied that it was green with some black on it, but
that he did not remember well. When defense counsel
asked Rhode whether he asked Pardo if the jacket had
on it a pattern or design, the court sustained the
State’s objection.
¶ 226 In its offer of proof, the defense stated that it
would have asked Rhode the following questions
about his interview of Pardo: whether Pardo noted a
pattern or design, to which Pardo stated that he did
not see a design; whether the coat had black all over,
to which Pardo stated that he saw only parts of black
around the collar area; and whether the coat had
pockets or a zipper in the front, to which Pardo stated
that he did not see any.
¶ 227 Here, defendant argues that Pardo’s description
of the jacket immediately after the crime was
committed was not consistent with the jacket police

226a
recovered from Houghtaling. On cross-examination,
defense counsel attempted to elicit testimony that
Pardo gave police a description that was inconsistent
with his trial testimony (that the jacket recovered
from Houghtaling looked like the one worn by the
man without the gun). Pardo stated he could not
recall and, defendant called Rhode in an attempt to
perfect the impeachment, wherein the trial court
sustained the State’s objection. Defendant urges that,
given that the State had no eyewitness identification
and attempted to substitute Pardo’s description of the
jacket for that identification, any detail affecting
Pardo’s description should have been heard by the
jury. Further, Pardo identified the jacket in front of
the jury, and the fact that he could not remember
making certain statements was no substitute,
defendant argues, for being able to point out that he
had made contrary statements. The State responds
that any error in the exclusion of the testimony was
harmless. We agree with the State.
¶ 228 Harmless-error analysis applies where the
defendant has timely objected; the State bears the
burden of persuasion with respect to prejudice. That
is, “the State must prove beyond a reasonable doubt
that the jury verdict would have been the same absent
the error.” People v. Thurow, 203 Ill.2d 352, 363
(2003). In determining whether, in the absence of the
error, the outcome of the trial would have been
different, review is made of the proceedings as a
whole, based upon examination of the entire record.
People v. Howard, 147 Ill.2d 103, 148 (1991).
¶ 229 We agree with the State that any discrepancies
in the description of the jacket were minor and could

227a
not have contributed to the verdict. Defendant was
not completely precluded from perfecting his
impeachment of Pardo. The jury did hear (from
Rhode) that Rhode asked Pardo if the jacket worn by
one of the suspects was a solid color, and Pardo
replied that it was green with some black on it, but
that he did not remember well. What the jury did not
hear were Pardo’s statements to police that he saw no
design, pockets, or zipper on the jacket and that the
black he saw was around the collar. The jacket
retrieved from Houghtaling, in fact, had no design,
and it had a patch of black in the center just below the
collar. Further, Houghtaling’s jacket has a flap that
covers the zipper; thus, the zipper could have been
concealed during the crime. We also note that Pardo
testified on direct examination that the jacket was
green and that he could not recall saying that it had
any other colors on it, but the jurors viewed a
photograph of Houghtaling wearing the jacket and
observed the black on it; thus, they were aware of the
inconsistencies in Pardo’s testimony. Finally, defense
counsel argued during closing argument that
Houghtaling’s jacket had a zipper and pockets, but
that Pardo did not recall saying anything about that,
so, he had not identified that jacket as being the
jacket on the man at the scene beyond a reasonable
doubt; thus, the issue of Pardo’s lack of memory was
put before the jurors. Under these circumstances, we
conclude that the incomplete perfection of defense
counsel’s impeachment was harmless beyond a
reasonable doubt.
¶ 230

5. Admission of Houghtaling’s
Out–of–Court Statements

228a
¶ 231 Next, defendant argues that the admission of
Houghtaling’s out-of-court statements was highly
prejudicial error that deprived defendant of his
federal and state constitutional rights to due process.
Defendant asserts that the State knew that
Houghtaling would not support its case, but called
him anyway, and, over objection, was permitted to
admit as substantive evidence his hearsay statements
(from the May 2001 Omaha interview; McMullen’s
trial; and defendant’s second trial), inculpating
defendant. This was, defendant contends, the only
substantive
evidence
inculpating
defendant.
Defendant argues that the State should not have been
permitted to call Houghtaling for this purpose
because the State admittedly knew he would not
support its case and Houghtaling’s hearsay
statements were inherently unreliable. For the
following reasons, we find no error.
¶ 232 Defendant’s arguments fall into two categories:
(1) that the admission of Houghtaling’s out-of-court
statements, although sufficient under section 115–
10.1, violated his due process rights because they
were not reliable (because the testimony was
inconsistent or plainly incredible, because accomplice
testimony is fraught with serious weaknesses, and
because under the facts here the recanted prior
inconsistent statements could not support the
conviction); and (2) to the extent section 115–10.1 is
satisfied, it is unconstitutional as applied because
Houghtaling’s statements were inherently unreliable.
We do not address the first argument here because it
is a challenge to the sufficiency of the evidence, which
we addressed above, including the specific arguments
raised here.

229a
¶ 233 As to the second issue, “[a] holding that a
statute is unconstitutional as applied does not
broadly declare a statute unconstitutional but
narrowly finds the statute unconstitutional under the
specific facts of the case.” People v. Huddleston, 212
Ill.2d 107,131 (2004). Defendant’s argument has been
rejected. In People v. Morales, 281 Ill.App.3d 695
(1996), the court rejected the defendant’s argument
that the substantive use of a witness’s prior
inconsistent statements denied him due process and
a fair trial. The court held that section 115–10.1
incorporates safeguards which “foster reliability” and
“adequately protects the defendant’s constitutional
rights. The Illinois legislature clearly intended the
statute to be the only inquiry necessary in determining
whether to admit prior inconsistent statements.”
(Emphasis added.) Id. at 702–03. The court further
noted that due process considerations, such as “
‘prevent[ing] convictions where a reliable evidentiary
basis is totally lacking,’ are fully addressed when the
requirements of the Illinois statute are satisfied.” Id.
(quoting California v. Green, 399 U.S. 149, 163–64 n.
15 (1970)). Pursuant to Morales, we reject defendant’s
request that we consider constitutional factors in
addition to and separate from those contained in
section 115–10.1. We further note that defendant’s
argument essentially challenges the sufficiency of the
evidence, and we addressed above his specific claims
concerning the reliability of Houghtaling’s testimony.
¶ 234

6. Exclusion of Portions of Defendant’s
Cross–Examination of Houghtaling

230a
¶ 235 Defendant also argues that the trial court erred
in limiting defendant’s cross-examination of
Houghtaling, contending that this was highly
prejudicial error that deprived him of his due process
rights. Specifically, he complains that the court erred
in not allowing defense counsel to elicit testimony
from Houghtaling that he had: (1) read newspaper
accounts that contained details that were the same
details he gave to the police and in court on two prior
occasions; and (2) invoked the fifth amendment when
called to testify at defendant’s first trial.
¶ 236 As to the press accounts, defendant argues that
defense counsel should have been permitted to
question Houghtaling because his testimony about
the source of his knowledge about the details of the
crime was not hearsay (because it was offered to show
how Houghtaling had knowledge of these details, not
that the details were accurate) and a proper
foundation was laid for the testimony (where
Houghtaling was asked to testify about his personal
knowledge). According to defendant, the fact that
Houghtaling could not remember the specific date,
time, and location that he learned each fact does not
make the exclusion proper; rather, the point was that
he obtained knowledge of the facts upon which the
State relied from somewhere other than perceiving
those facts himself. They included that the police
thought that there were two young men involved,
both wearing black ski masks; one man had a
handgun; Briseno and an employee chased the two
men out of the restaurant; Briseno struggled with one
of the men in the parking lot; and Briseno was shot by
the other masked man.

231a
¶ 237 Alternatively, the State argues that, even if the
court erred, the error was harmless because it was
cumulative to evidence that was admitted from other
sources: Detective Brogan and Officer Wigman
testified about information released to the public and
the details that were withheld. Thus, the jurors knew
that most of the details of the offenses were in the
public domain. Further, during closing argument, the
defense argued that many of the details Houghtaling
testified to were public or suggested to him by police
officers during his first statement.
¶ 238 “A defendant’s rights under the confrontation
clause are not absolute. Rather, ‘the Confrontation
Clause guarantees an opportunity for effective crossexamination, not cross-examination that is effective
in whatever way, and to whatever extent, the defense
might wish.’ “ (Emphasis in original.) People v. Jones,
156 Ill.2d 225, 243–44 (1993) (quoting Delaware v.
Fensterer, 474 U.S. 15, 20(1985)). Our supreme court
has repeatedly held that “a trial judge retains wide
latitude to impose reasonable limits on such crossexamination based on concerns about harassment,
prejudice, confusion of the issues, the witness’ safety,
or interrogation that is repetitive or of little
relevance.” People v. Kliner, 185 Ill.2d 81, 134 (1998);
People v. Blue, 205 Ill.2d 1, 13 (2001). “The latitude
permitted on cross-examination is a matter within the
sound discretion of the trial court, and a reviewing
court should not interfere unless there has been a
clear abuse of discretion resulting in manifest
prejudice to the defendant.” Kliner, 185 Ill.2d at 130.
¶ 239 We hold that the trial court did not err in
excluding the testimony. We reject defendant’s

232a
assertion that the fact that Houghtaling could not
recall the specific date, time, and location that he
learned each fact does not make the exclusion proper.
We further note that defense counsel was allowed to
establish the dates of Houghtaling’s prior statements
in which he incriminated himself and defendant.
Defense counsel also established that Houghtaling
knew certain details about the crime from
newspapers and speaking to people. As the State
notes, the trial court foreclosed only further questions
that would have pinpointed each specific detail that
Houghtaling claimed he learned from those sources.
This was proper because defense counsel was unable
to lay a foundation as to when or through what
specific source Houghtaling claimed to have learned
the details. Thus, the court did not abuse its
discretion in limiting cross-examination. Id. at 130–
31 (court did not abuse its discretion in precluding
cross-examination of witness regarding his alleged
drug use, where the defendant did not lay a proper
foundation to support his claim).
¶ 240 As to Houghtaling’s invocation of the fifth
amendment at defendant’s first trial, defendant
argues that the trial court erred in sustaining the
State’s objection that the testimony was irrelevant.
Defendant sought to elicit testimony that
Houghtaling had been called to testify against
defendant in 2003, that Houghtaling refused to
testify, and the reason he refused was because neither
he nor defendant were involved in the shooting. Here,
defendant contends that the testimony was relevant
because the State accused Houghtaling of recently
fabricating his testimony. Defendant argues that
Houghtaling’s refusal to testify at the first trial is

233a
consistent with his being innocent and truthful. He
notes that a prior consistent statement is admissible
to show that a witness told an identical story prior to
the time of the alleged fabrication. People v. Mullen,
313 Ill.App.3d 718, 730 (2000). Houghtaling’s prior
refusal to testify against defendant, defendant urges,
makes clear that his direct testimony was not a recent
invention, unanticipated by the State.
¶ 241 Generally, a witness’s prior consistent
statements are not admissible for the purpose of
corroborating the witness’s trial testimony because
they serve to unfairly enhance the credibility of the
witness. People v. Terry, 312 Ill.App.3d 984, 995
(2000). “The danger in prior consistent statements is
that a jury is likely to attach disproportionate
significance to them. People tend to believe that
which is repeated most often, regardless of its
intrinsic merit, and repetition lends credibility to
testimony that it might not otherwise deserve.” People
v. Smith, 139 Ill.App.3d 21, 33 (1985). Prior consistent
statements may not be admitted merely because a
witness has been discredited or impeached. People v.
Bobiek, 271 Ill.App.3d 239, 244 (1995); see also People
v. DePoy, 40 Ill.2d 433, 438–39 (1968).
¶ 242 A witness’s prior consistent statement is
admissible only to rebut a charge or inference he or
she was motivated to lie or his or her testimony was
of recent fabrication, as long as the prior consistent
statement was made before either the motive arose or
the alleged fabrication was made. People v. Smith,
362 Ill.App.3d 1062, 1081 (2005); see also People v.
House, 377 Ill.App.3d 9, 19 (2007) (prior consistent

234a
statements may be introduced to rebut allegation that
witness was motivated to testify falsely or otherwise
rebut allegation of recent fabrication, but prior
consistent statement must have been made prior to
the existence of the alleged motive to testify falsely or
the alleged fabrication). Charges of recent fabrication
and charges of a motive to testify falsely are separate
exceptions to the general rule that prohibits proof of
prior consistent statements. People v. Antczak, 251
Ill.App.3d 709, 716 (1993). The party seeking to
introduce the prior consistent statement has the
burden of establishing that the statement predates the
alleged recent fabrication or predates the existence of
the motive to testify falsely. People v. Deavers, 220
Ill.App.3d 1057, 1072–73 (1991). Prior consistent
statements are admitted solely for rehabilitative
purposes, not as substantive evidence. People v.
Walker, 211 Ill.2d 317, 344 (2004).
¶ 243 Here, defendant has failed to sufficiently
establish that Houghtaling’s invocation of the fifth
amendment at defendant’s first trial predated his
recent fabrication. Houghtaling’s prior refusal (at the
first trial) to testify against defendant does not, as
defendant suggests, corroborate his testimony at the
third trial (that defendant did not commit the crime).
Houghtaling’s refusal to testify at the first trial does
not necessarily reflect that, had he testified there, he
would have exculpated defendant; he could have
implicated him. Thus, defendant has not established
that the prior statement is even consistent with
Houghtaling’s testimony at the third trial.
Accordingly, we cannot conclude that the trial court
abused its discretion in excluding the testimony.

235a
¶ 244

7. Exclusion of Testimony Concerning
Proper Police Interrogation Techniques

¶ 245 Next, defendant argues that the trial court
erred in excluding testimony about proper police
interrogation techniques and that this was highly
prejudicial and deprived him of his due process rights.
Defendant sought to elicit testimony from Wigman
about the John Reid method of interrogation and the
desirability of obtaining corroborative information
during a confession. The trial court sustained the
State’s objection on the grounds of relevance and that
it would be cumulative. Defendant argues that the
reliability of Houghtaling’s Omaha confession was a
critical issue in the case and that Wigman’s testimony
would have established that, during Houghtaling’s
interrogation, the police did not use the most effective
method for obtaining a truthful statement and that
Houghtaling’s purported confession did not contain
any corroborating details, thus, calling into question
its reliability. Defendant concedes that Brogan
provided similar testimony earlier at trial, but argues
that Wigman’s testimony was important because: (1)
his extensive training in police techniques and
procedures would have lent considerable weight to
the problems with Houghtaling’s interrogation; and
(2) Wigman was in charge of the investigation and
knew all details that were released to the public and
those intentionally held back, and, thus, his
testimony would have been particularly probative as
to whether Houghtaling’s statement contained any
corroborating details.
¶ 246 We conclude that the trial court did not abuse
its discretion in excluding the testimony on the basis

236a
that it was cumulative to Brogan’s testimony.
Detective Brogan participated in the interrogation of
Houghtaling and testified that he had training in the
John Reid interrogation technique (which encourages
police to attempt to elicit corroborating information
for a confession) and was the lead detective in the
case. He described independent and dependent
corroboration (the latter being where a suspect
demonstrates knowledge of facts about a crime that
police have kept secret from the public, such as the
pistol-whipping or the shout into the passing car) and
explained that investigators try to avoid using leading
questions. During his testimony, Brogan listed the
information that was public about the crime. He also
testified that Houghtaling first suggested the
following answers in response to nonleading
questions: that the gun was a .22–caliber weapon and
that his jacket was green. Wigman similarly testified
that he has interview and interrogation training,
including at the John Reid school. He stated that
some information was not made public about the
crime, including that Briseno had a head wound and
that Pardo stated that Briseno had yelled into a
passing car. This was done, Wigman testified, so that
police could assess the credibility of people
interviewed. In its offer of proof as to Wigman’s
testimony, defense counsel stated that Wigman, who
was in charge of the crime scene, would have testified
that he was trained in the John Reid technique, would
have described dependent and independent types of
corroboration, and described whether the information
that was withheld from the public was an example of
dependent corroboration. This proposed testimony
was clearly cumulative to Brogan’s testimony. We

237a
cannot conclude that the trial court abused its
discretion in excluding it.
¶ 247

8. Admission of Additional Evidence

¶ 248 Defendant next argues that the trial court erred
in admitting certain other evidence. He raises three
claims of error. First, defendant contends that the
court erred in allowing the State to question
Weisenberger about his drug use and drug use by
defendant, Houghtaling, and Collett. We reject this
argument.
¶ 249 On cross-examination, the State asked
Weisenberger questions about his memory on the
evening of the shooting. He could not recall what
Collett wore, and when asked whether he had a good
memory or a bad one, he replied “in the middle.” The
State then asked him who drank beer that evening,
and he testified that they all did. Weisenberger then
stated that he had consumed five or six beers before
the group arrived (which gave him a “buzz”) and
drank about 12 more after they arrived. He denied
smoking “dope,” and, when asked if he had ever done
so, he replied that he did when he was 17 years old.
Next, the State asked Weisenberger what “other
drugs did you take? Any other drugs?” Defense
counsel objected as beyond the scope, the State
responded that the question went to his credibility,
and the court overruled the objection. Weisenberger
answered, “I’m sure I have.” The State asked, “Like
what?” and he replied, “I’ve tried cocaine twice and
random pills over the years.” Continuing, the State
asked Weisenberger if the others in the group were
drinking that night, and he stated that they were. The

238a
State then asked, “Was anybody else ingesting drugs
at your house?” Over defense counsel’s objection,
Weisenberger replied that they smoked pot on the
porch. “I believe Ken, Dave, and Justin” for a couple
of minutes.
¶ 250 As to Weisenberger’s condition on the evening
of the shooting, the State concedes that the
prosecutor’s question that elicited the response that
Weisenberger last used marijuana when he was 17
years old was improper. However, it argues that any
error was harmless where Weisenberger had testified
that he had used cocaine and “random pills over the
years.” Defendant replies that Weisenberger did not
offer this testimony about his cocaine and pill use on
his own; rather, the testimony was elicited after the
prosecutor asked him, “Like what?” We conclude that
any error was harmless and did not contribute to the
conviction. Weisenberger testified that he had a
“buzz” from the numerous cans of beer he had
consumed. In attempting to further test his
credibility, the State’s two questions concerning his
drug use, although improper, did not, in our view,
contribute to his conviction because they were
cumulative to the testimony concerning his “buzz”
from consuming at least 17 cans of alcohol.
¶ 251 As to the prosecutor’s question whether
defendant, Houghtaling, and Collett had used drugs,
we agree with the State that any error was harmless
because that testimony was also cumulative. The
prosecutor asked Weisenberger only a single question
on this topic. Further, Houghtaling himself, during
his Omaha interview, stated, “ ‘We sat there. We
drank a little bit. Uh, then we went outside, smoked

239a
a joint, and Kenny came up to me. It was like come
with me. I want to go do something.’ “ This testimony
was admitted substantively. Thus, the jury heard
from Houghtaling about the defendant’s marijuana
use. (We reject defendant’s argument that the
foregoing testimony reflects that only Houghtaling
smoked marijuana.)
¶ 252 Second, defendant argues that the court erred
in admitting two autopsy photos of Briseno’s body,
asserting that they are gruesome and do not reflect
the state of the victim’s body after the crime and,
thus, are not probative. Further, defendant asserts
that the cause of Briseno’s death was not disputed
and that the sole purpose of the photos was to
introduce inflammatory evidence to prejudice
defendant.
¶ 253 We agree with the State that the law of the case
doctrine precludes this court from reconsidering this
issue. In the appeal from defendant’s second trial, this
court addressed the identical issue—the admission of
the same two autopsy photos—and determined that
the trial court did not abuse its discretion in
admitting both exhibits. People v. Smith, No. 2–08–
1106 (2010) (unpublished order under Supreme Court
Rule 23). Under the law of the case doctrine, the
parties cannot relitigate issues that have already
been decided in the case. People v. Tenner, 206 Ill.2d
381, 395 (2002). The doctrine applies to lower courts
when a higher court has decided an issue and the
underlying facts have not changed (Weiss v.
Waterhouse Securities, Inc., 208 Ill.2d 439, 447–49
(2004)), as well as to a court’s own decisions in a case
(People v.. Patterson, 154 Ill.2d 414, 468 (1992)). Here,

240a
the law of the case doctrine binds us to our previous
ruling because the same issue and identical parties
were before this court. See, e.g., People v.. Young, 263
Ill.App.3d 627, 633 (1994). Accordingly, we reject
defendant’s argument.
¶ 254 Third, defendant argues that the trial court
abused its discretion in not striking Detective
Brogan’s answer to a defense question. Specifically,
defense counsel asked Brogan on cross-examination if
he knew the caliber of the murder weapon being
sought and Brogan stated that it was a .22–caliber
gun. When defense counsel asked him if police were
looking for a revolver or semi-automatic weapon,
Brogan answered that it was a revolver. Defense
counsel then asked, “Why did you believe at that time
that it was a revolver?” Brogan began to respond, “We
believed it was a revolver based on statements made
by Miss McMullen,” when defense counsel attempted
to withdraw the question. The State asked that the
witness be allowed to finish his answer, and the court
allowed it. Brogan answered, “Miss McMullen, for
one, told us that she had seen [defendant] with a
revolver.” Defense counsel requested that the court
strike the answer, and the State objected, noting that
the defense itself had asked the question. The court
denied defense counsel’s request. Defense counsel
then asked Brogan if police thought that the gun was
a revolver because there were no casings found at the
scene. Brogan replied in the affirmative.
¶ 255 Here, defendant argues that Brogan’s answer
was non-responsive and “designed to place
inadmissible evidence before the jury, because the
State did not (and could not, given its concerns with

241a
her reliability) call McMullan.” Defendant further
argues that the true reason that police believed that
a .22–caliber revolver was used in the shooting was
because: (1) as Brogan testified to in his next answer,
there were no shell casings found at the scene; and (2)
the autopsy had been performed at this time and the
bullet was recovered. Defendant notes that McMullen
did not testify at his third trial and defendant had no
opportunity to question her about the statement.
Further, the probative value of the evidence was, he
argues, clearly outweighed by the danger of unfair
prejudice (see Illinois Supreme Court Rule 403
(eff.Jan.1, 2011) (relevant evidence may be excluded
if its probative value is substantially outweighed by
the danger of unfair prejudice)). We reject this
argument.
¶ 256 When a defendant procures, invites, or
acquiesces in the admission of evidence, even though
the evidence is improper, the defendant cannot
contest the admission on appeal. People v. Bush, 214
Ill.2d 318, 332 (2005); see also People v. Johnson, 368
Ill.App.3d 1146, 1155 (2006) (“A party cannot
complain of error that he himself injected into the
trial.”). Because defense counsel elicited the
testimony here, we reject defendant’s claim.
¶ 257

9. Cumulative Error

¶ 258 Defendant’s final argument is that the
cumulative effect of the trial court’s multiple
evidentiary errors denied him a fair trial and, thus,
warrant reversal of is convictions. See People v..
Speight, 153 Ill.2d 365, 376 (1992) (individual trial
errors may have the cumulative effect of denying a

242a
defendant a fair trial). Here, we have rejected all of
defendant’s claims of error. Specifically, we rejected
the majority of defendant’s claims on the merits, or
concluded (as to two claims) that any error that may
have occurred was harmless. Looking at the matters
cumulatively, the record reveals that the trial, taken
as a whole, was fair. Accordingly, defendant is not
entitled to a new trial on the basis of cumulative
error. People v. Hall, 194 Ill.2d 305, 350–51 (2000);
People v. Desantiago, 365 Ill.App.3d 855, 871 (2006).
¶ 259

III. CONCLUSION

¶ 260 For the foregoing reasons, the judgment of the
circuit court of McHenry County is affirmed.
¶ 261 Affirmed.

